<html>
<title> - IS TRANSITION ASSISTANCE ON TRACK?</title>
<body><pre>[Senate Hearing 114-685]
[From the U.S. Government Publishing Office]


                                                          S. Hrg. 114-685

                   IS TRANSITION ASSISTANCE ON TRACK?

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 15, 2015

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       
       


         Available via the World Wide Web: http://www.fdsys.gov
         
         
                             __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-537 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3255425d72514741465a575e421c515d5f1c">[email&#160;protected]</a>          
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman
Jerry Moran, Kansas                  Richard Blumenthal, Connecticut, 
John Boozman, Arkansas                   Ranking Member
Dean Heller, Nevada                  Patty Murray, Washington
Bill Cassidy, Louisiana              Bernard Sanders, (I) Vermont
Mike Rounds, South Dakota            Sherrod Brown, Ohio
Thom Tillis, North Carolina          Jon Tester, Montana
Dan Sullivan, Alaska                 Mazie K. Hirono, Hawaii
                                     Joe Manchin III, West Virginia
                       Tom Bowman, Staff Director
                 John Kruse, Democratic Staff Director
                           
                           
                           
                           C O N T E N T S

                              ----------                              

                           December 15, 2015
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........     1
Blumenthal, Hon. Richard, Ranking Member, U.S. Senator from 
  Connecticut....................................................     2
Rounds, Hon. Mike, U.S. Senator from South Dakota................    25
Tester, Hon. Jon, U.S. Senator from Montana......................    27
Cassidy, Hon. Bill, U.S. Senator from Louisiana..................    42
Brown, Hon. Sherrod, U.S. Senator from Ohio......................    44
Boozman, Hon. John, U.S. Senator from Arkansas...................    46
Hirono, Hon. Mazie K., U.S. Senator from Hawaii..................    48
Tillis, Hon. Thom, U.S. Senator from North Carolina..............    50
Murray, Hon. Patty, U.S. Senator from Washington.................    53
Sullivan, Hon. Dan, U.S. Senator from Alaska.....................    55

                               WITNESSES

Kelly, Susan S., Ph.D., Director, Transition to Veterans Program 
  Office, Office of the Under Secretary of Defense for Personnel 
  and Readiness, U.S. Department of Defense......................     3
    Prepared statement...........................................     5
    Response to posthearing questions submitted by:
      Hon. Richard Blumenthal....................................    58
      Hon. Mazie K. Hirono.......................................    60
Coy, Curtis L., Deputy Under Secretary for Economic Opportunity, 
  Veterans Benefits Administration, U.S. Department of Veterans 
  Affairs; accompanied by Rosye Cloud, Senior Advisor for Veteran 
  Employment, Veterans Benefits Administration...................    10
    Prepared statement...........................................    11
    Response to request arising during the hearing by:
      Hon. Jon Tester............................................ 29,30
      Hon. Mazie K. Hirono.......................................    49
      Hon. Patty Murray..........................................    54
    Response to posthearing questions submitted by:
      Hon. Richard Blumenthal....................................    62
      Hon. Mazie K. Hirono.......................................    63
Gerton, Teresa, Deputy Assistant Secretary for Policy, Veterans' 
  Employment and Training Service, U.S. Department of Labor......    15
    Prepared statement...........................................    17
    Response to request arising during the hearing by:
      Hon. Richard Blumenthal....................................    24
      Hon. Mazie K. Hirono.......................................    49
    Response to posthearing questions submitted by Hon. 
      Richard Blumenthal.........................................    66
Voticky, Elizabeth, Group Director of North America Talent 
  Acquisition, The Coca-Cola Company.............................    67
    Prepared statement...........................................    71
Kress, Matthew, Manager of Veterans and Military Affairs, 
  Starbucks Coffee Company.......................................    74
    Prepared statement...........................................    76
Eversole, Eric, President, Hiring Our Heroes, U.S. Chamber of 
  Commerce Foundation............................................    78
    Prepared statement...........................................    80
Smith, Daniel, Assistant Director, Veterans Employment and 
  Education Division, The American Legion........................    88
    Prepared statement...........................................    89
Zacchea, Michael, Program Manager, Entrepreneur Bootcamp for 
  Veterans, University of Connecticut............................    92
    Prepared statement...........................................    94

                                APPENDIX

Lorraine, James R., President and CEO, America's Warrior 
  Partnership; prepared statement................................   105
Ilem, Joy J., National Legislative Director, Disabled American 
  Veterans; prepared statement...................................   112
    Attachment...................................................   118
U.S. Department of Education; prepared statement.................   119
Beh Neas, Katy, Executive Vice President for Public Affairs, 
  Easter Seals, Inc.; prepared statement.........................   120
Carson, Barb, Acting Associate Administrator, Office of Veterans 
  Business Development (OVBD), U.S. Small Business 
  Administration; prepared statement.............................   124
Morosky, Aleks, Deputy Director, National Legislative Service, 
  Veterans of Foreign Wars of the United States; prepared 
  statement......................................................   129

 
                   IS TRANSITION ASSISTANCE ON TRACK?

                              ----------                              


                       TUESDAY, DECEMBER 15, 2015

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in 
room 418, Russell Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Boozman, Cassidy, Rounds, 
Tillis, Sullivan, Blumenthal, Murray, Brown, Tester, and 
Hirono.

   OPENING STATEMENT OF HON. JOHNNY ISAKSON, CHAIRMAN, U.S. 
                      SENATOR FROM GEORGIA

    Chairman Isakson. This meeting of the Senate Veterans' 
Affairs Committee will come to order, and we are delighted 
today to be having a hearing on probably one of the most 
important topics we could possibly talk about, and that is the 
transition of our veterans from active duty Department of 
Defense (DOD), to veteran status and all the different things 
that go with it. I am glad that we have two panels: first, from 
the VA and the DOD; and second, some of our Veteran Service 
Organizations (VSOs), as well as some private sector folks who 
make great contributions to the hiring of veterans and the 
treatment of veterans.
    I know from a State that has 840,000 veterans how important 
the transition is. General Schoomaker, whom some of you may 
remember, who was in the Army, did a great job on what he 
called the ``warrior transition centers'' at our bases when we 
had a lot of problems with veterans falling through the cracks 
after they would leave active duty to go to veteran status. 
General Schoomaker taught us a lot about making sure the 
veteran was prepared to be a veteran before he was a veteran, 
making sure DOD made it as a handoff not a wild Hail Mary pass, 
which is what we are all trying to talk about here today. And, 
I think each one of the witnesses here today to testify has got 
valuable information that will help us.
    But, the most important thing we can do--every time a 
veteran leaves active duty with a plan, with a road map, and 
with a mentor or a support system, the better off that veteran 
is. Every time one leaves active duty status at DOD, becomes a 
veteran, and does not have a helping hand, does not have a 
mentor, and does not have the right platform of information, 
that is when you have homelessness. That is when you need 
veterans courts because of minor crime. That is when people 
whose lives have made a great contribution to our country are 
not able to make the contribution they would like to in their 
own private sector life.
    So, as one who has a State full of veterans and is grateful 
for what they do for our country, I am very interested to 
making sure we are catalysts for a great transition for all the 
veterans from active duty to veteran status, and I appreciate 
they all are here to testify today.
    Before we go to our panelists, I will introduce our Ranking 
Member for any comments he may have.

 OPENING STATEMENT OF HON. RICHARD BLUMENTHAL, RANKING MEMBER, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you. Thanks, Mr. Chairman, and I 
appreciate our witnesses being here. I want to particularly 
welcome our witness from Connecticut, Michael Zacchea, a 
veteran from Connecticut and the founder and program manager of 
the UConn Entrepreneur Bootcamp for Veterans and Disabilities, 
which he helped establish at the University of Connecticut. He 
made the trip down here to share his experience, and, frankly, 
there is no more important voice on this issue than the voices 
of veterans themselves.
    I want to speak bluntly here because I think this Nation is 
failing to address the transition problems of our veterans 
coming out of the service, going into civilian life, and just 
this morning I questioned a number of nominees to key 
Department of Defense positions in the Armed Services Committee 
about this issue, because I think it is a shared responsibility 
involving both the Department of Defense and the VA, and the 
finger pointing and blame gaming I think really has to stop.
    Over the next 3 to 4 years, approximately 1 million 
servicemembers are expected to transition out of the military 
and into civilian life. One million servicemembers. One million 
men and women. And here is the really staggering statistic. The 
VA has estimated that approximately 53 percent of these 
separating post-9/11 veterans will face a period of 
unemployment despite striving and working to find stable 
employment. That number, that prediction is simply--beyond 
unacceptable. It is simply an outrage if it comes to pass. We 
know that 1 million servicemembers will be leaving, and the 
question is: What is this Nation going to do to provide them 
with the skill training and education and job opportunities 
that they need and deserve?
    I would like each member of the panel to specifically 
address how the Transition Assistance Program provides for 
women who serve, not only the men who are coming out of active 
duty but also women seeking meaningful employment. They are the 
fastest-growing population within the veteran community, and we 
must ensure that women are welcome and encouraged to fully 
utilize VA services.
    Already this year VA demand for mental health care has 
exceeded 1.4 million treatment visits, and we know that a 
seamless transition requires getting it right the first time 
rather than waiting to reach out and information veterans after 
they have returned to their home towns across America. I look 
forward to hearing testimony today from the agencies about 
concrete steps they are taking to ensure that veterans are 
provided with appropriate services. I also want to say how 
grateful and delighted I am that the private sector has chosen 
to participate in today's hearing, though more important is 
that it is participating so robustly and significantly in 
efforts to expand employment opportunities. I particularly 
welcome representatives of Coca-Cola and the Starbucks company. 
Both have taken very, very important steps in this direction, 
and I look forward to hearing from them. I commend the efforts 
of all of our companies that are doing more in this area. We 
have some in Connecticut. I hope that we can showcase them in 
the future.
    Thanks, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Blumenthal.
    On our first panel, we have three witnesses to testify and 
one assistant. If you would limit your comments to about 5 
minutes, but if you need to go a little bit over, that is 
really fine. We look forward to hearing from you and look 
forward to having questions afterwards.
    First is Susan Kelly, the Director of Transition to 
Veterans Program Office, Department of Defense.
    Second is Curtis Coy, Deputy Under Secretary for Economic 
Opportunity, Veterans Benefit Administration, Department of 
Veterans Affairs, accompanied by a lady with the best name for 
a rosy hearing we could possibly have, Rosye Cloud. We are 
delighted to have you, Rosye. I hope you have something to say 
and are not just there to accompany. So, we will look forward 
to hearing from you as well.
    And Teresa Gerton, the Deputy Assistant Secretary for 
Policy, Veterans' Employment and Training Service, Department 
of Labor.
    We welcome all of you for being here. We will call on Ms. 
Kelly first.

  STATEMENT OF SUSAN S. KELLY, PH.D., DIRECTOR, TRANSITION TO 
      VETERANS PROGRAM OFFICE, U.S. DEPARTMENT OF DEFENSE

    Ms. Kelly. Good afternoon, Chairman Isakson, Ranking Member 
Blumenthal, and distinguished Members of the Committee. I 
appreciate the opportunity to appear today to provide you an 
update on the Transition Assistance Program, TAP, redesign and 
our progress over the past several years.
    In 2012, in collaboration with the Departments of Veterans 
Affairs, Labor, and Education, the Small Business 
Administration, and the Office of Personnel Management, we 
began redesigning TAP in accordance with the VOW to Hire Heroes 
Act. We focused on four core objectives: Career Readiness 
Standards, a robust curriculum, a culminating Capstone event, 
and a Military Life Cycle transition preparation model.
    Today our servicemembers are better prepared as a result of 
the successful implementation of TAP through this 
collaboration. DOD is engaged with the services and our 
interagency partners at all levels, from the action officers 
who staff the TAP to Assistant Secretary level executives who 
provide guidance through our TAP Executive Council.
    The foundation of TAP is for servicemembers to meet Career 
Readiness Standards (CRS). To prepare servicemembers to meet 
CRS, we created the Transition Goals, Plans, Success (GPS) 
curriculum to develop the skills necessary for post-military 
life and training tracks focused on three post-separation 
options: higher education, technical training, and 
entrepreneurship. Transition GPS is taught at 206 sites 
worldwide and is available online, giving servicemembers access 
regardless of their geographic location and even after 
separation.
    DOD and our partners conduct an annual curriculum review 
that allows us to be responsive to servicemember and 
stakeholder feedback to ensure effective instruction. Based on 
this feedback, we increased focus on using social media for 
employment and networking n the curriculum for 2016.
    We have also built an interagency TAP evaluation strategy 
designed to provide accountability and measure customer 
satisfaction and program effectiveness. We conducted over 30 
staff assistance visits in 2014 and 2015, verifying the quality 
of TAP delivery at installations. To monitor customer 
satisfaction, we implemented a voluntary, anonymous, online 
participant assessment which we asked servicemembers to 
complete after every course. And as an initial measure of 
effectiveness, we closely monitor Veterans Opportunity to Work 
(VOW) and Career Readiness Standards compliance data to ensure 
that servicemembers are meeting the requirements or are 
receiving a warm handover.
    Compliance rates verified by the Defense Manpower Data 
Center were 94 percent for VOW and 89 percent for Career 
Readiness Standards in 2015. My colleagues from VA and 
Department of Labor (DOL) can speak to how they are monitoring 
success after separation.
    We are providing strong working relationships with 
employers in the private sector and Federal Government who are 
eager to harness the talent pipeline developed by the 
profession of arms. In 2015, through Hiring Our Heroes, 
employers engaged with thousands of servicemembers at more than 
30 hiring events at installations across the United States and 
overseas. The Departments of Agriculture, Energy, and Homeland 
Security are actively pursuing servicemembers to address 
workforce gaps.
    A key focus on TAP is to build bridges from active duty to 
post-separation support from VA, DOL, and other community 
agencies. To that end, our installations are developing 
relationships with their communities to provide support to 
transitioning servicemembers.
    There has been tremendous forward movement, boosted by 
unfailing support from the Chairman's office and the recently 
transitioned senior enlisted advisor, Sergeant Major Battaglia. 
But we must continue to work with the services, our Federal 
partners, and the private sector to gather lessons learned, 
instill a culture of planning for post-military life throughout 
a military career, and to develop pipelines into the national 
workforce.
    This concludes my statement. I thank the Members of the 
Committee for your continued support and leadership, and I will 
be happy to answer your questions.
    [The prepared statement of Ms. Kelly follows:]
 Prepared Statement of Susan S. Kelly, Ph.D., Director, Transition to 
 Veterans Program Office, Office of the Under Secretary of Defense for 
          Personnel and Readiness, U.S. Department of Defense
    Chairman Isakson, Ranking Member Blumenthal, distinguished Members 
of the Committee, Thank you for the opportunity to appear before you to 
discuss the Transition Assistance Program (TAP).
    In 2012, in collaboration with the Departments of Veterans Affairs 
(VA), Labor (DOL), Education (ED), Small Business Administration (SBA) 
and the Office of Personnel Management, we began redesigning TAP in 
accordance with the VOW to Hire Heroes Act of 2011. This redesign 
focused on four core objectives: adopting Career Readiness Standards 
for transitioning Servicemembers; developing a new TAP curriculum; 
implementing a Capstone event; and introducing a ``Military Life 
Cycle'' (MLC) transition preparation model.
    While we have accomplished the four initial objectives, we continue 
to work closely with the military Services and our Federal interagency 
partners to gather lessons learned, improve the curriculum, and instill 
a culture of planning for post-military life throughout the 
Servicemember's career, and build relationships with partners eager to 
support our transitioning Servicemembers. These efforts require 
continuous collaboration at every level within the Department of 
Defense (DOD), across Federal and State governments, with employers, 
and with community-based organizations.
                       interagency collaboration
    Our Federal interagency partners are committed to supporting our 
Nation's Servicemembers. They continue to provide their expertise to 
ensure Servicemembers are prepared to successfully pursue their career 
aspirations after separating from military service. A Memorandum of 
Understanding (MOU) details the interdependent roles and 
responsibilities for the Department and our five interagency partners. 
In addition to the MOU, all partners signed a Statement of Intent 
outlining initial shared objectives and establishing a TAP interagency 
governance structure.
    The TAP Executive Council (EC), comprised of Assistant Secretary-
level executives, monitors the execution, assessment, and modification 
of TAP. The lead for this governance structure has, as planned, 
smoothly migrated annually from DOD to DOL and now to VA. The EC 
membership also includes representatives from SBA, OPM, ED, each 
Military Department, and the Senior Enlisted Advisor to the Chairman of 
the Joint Chiefs of Staff. Within DOD, the Transition to Veterans 
Program Office, under the Assistant Secretary of Defense for Readiness, 
oversees TAP and coordinates year-round governance activities. A TAP 
Senior Steering Group (SSG) includes Senior Executive representation 
from the interagency partners, each Military Service, the Coast Guard, 
Family and Employer Programs and Policy under the Assistant Secretary 
of Defense for Manpower and Reserve Affairs, the Joint Staff, and the 
National Guard Bureau. The wide representation emphasizes providing the 
best transition assistance to our Servicemembers requires a 
multifaceted approach.
    In addition to the senior-level SSG and EC, the governance 
structure includes a number of working groups tasked with the 
continuous assessment and improvement of specific functional areas. 
These groups are dedicated to performance management, data sharing, 
Information Technology, strategic communications, curriculum, and 
interagency policy coordination.
    TAP educates Servicemembers on the abundance of available resources 
to support their transition before and after they separate. These 
include a nationwide network of approximately 2,500 American Job 
Centers under DOL; the Veterans Employment Center, an online job search 
tool utilized by employers and Veterans; and the Veterans Economic 
Communities Initiatives. My colleagues from DOL and VA can share their 
work on these efforts.
                               curriculum
    The heart of the redesigned TAP is the Servicemembers' Career 
Readiness Standards (CRS) requirement. To assist transitioning 
Servicemembers in building the skills they need to meet CRS, the 
Department, in collaboration with our interagency partners, developed a 
standardized curriculum with standardized learning objectives.
    This curriculum, Transition GPS (Goals, Plans, Success), includes 
the DOL Employment Workshop and VA Benefit briefings required by the 
VOW Act, as well as modules in personal financial planning and 
translating Military Occupational Codes to their civilian equivalents.
    Recognizing the challenges our Servicemembers face as they 
separate, we developed three additional career-building training 
tracks: Accessing Higher Education, Career Technical Training, and 
Entrepreneurship. Transitioning Servicemembers are encouraged to take 
advantage of one or more of these tracks if they align with their 
individual transition goals. The Accessing Higher Education track, 
provided by DOD, instructs Servicemembers interested in pursuing higher 
education and a degree. After completing this track, Servicemembers are 
informed educational consumers, prepared to apply to an accredited 
educational institution. In the Career Technical Training Track, 
provided by VA, Servicemembers pursuing a skilled trade receive 
guidance in selecting technical training schools or programs that will 
lead to a license, industry-recognized credential, or certification in 
their chosen technical career field. Servicemembers interested in 
pursuing self-employment attend SBA's Entrepreneurship Track, commonly 
referred to as the Boots2Business program, where they receive 
information about the benefits and challenges of starting one's own 
business. Upon completion, Servicemembers will have developed the 
initial components of a business feasibility plan. Graduates can enroll 
in an eight-week online, SBA-sponsored entrepreneurship course to 
develop a viable business plan under the instruction of renowned 
business educators. SBA also provides the option to match 
Servicemembers to successful business mentors for short- and long-term 
guidance.
    Our Servicemembers have access to the Transition GPS curriculum 
regardless of their duty station or geographical location. We have 
converted all components of the ``brick-and-mortar'' classroom 
curriculum into a virtual curriculum hosted on DOD's Joint Knowledge 
Online (JKO). This instruction for transition preparation is located on 
the same platform that Servicemembers use for all joint computer-based 
training--a strong message that transition preparation is a normal and 
expected part of military training. Since the virtual curriculum was 
launched in October 2013, more than 100,000 unique users have completed 
over 300,000 online modules. The virtual curriculum is also posted in 
the public domain on the DOL and VA websites, as well as DOD's Military 
OneSource. Our intention is to make the rich curriculum available to 
all Veterans, military spouses, and family members.
                       interagency tap evaluation
    In 2014, the TAP EC developed a comprehensive Interagency TAP 
Evaluation Strategy to address three overarching goals: (1) provide 
accountability to ensure the program is delivered on military 
installations in accordance with law, policy, and leadership intent; 
(2) measure and improve customer satisfaction; and (3) measure and 
improve program effectiveness. This strategy was approved by the Office 
of Management and Budget in May 2014.
    To provide accountability, we implemented Staff Assistance Visits 
(SAVs) to verify the implementation and quality of TAP delivery at 
military installations. Thirty one SAV's were conducted in 2014 and 
2015 to gather feedback from Servicemembers, staff, Senior Enlisted 
Advisors, and Commanders. These visits have shown that the military 
Services and Commanders are supporting TAP, including meeting new 
standards such as a limit of 50 students per TAP class, and providing 
access to government laptops or internet access for Servicemembers to 
use their own devices in the classroom.
    To monitor customer satisfaction, we built and implemented a 
voluntary, anonymous online Transition GPS Participant Assessment. 
Servicemembers are asked for their feedback on TAP upon completion of 
each Transition GPS module and again at the end of the entire program 
for both online or classroom curricula. The most recent participant 
assessment data (fourth quarter of Fiscal Year (FY) 2015) shows 81 
percent of respondents reported they gained valuable information and 
skills to plan their transition; 80 percent stated the training 
enhanced their confidence in transition planning; 81 percent said they 
intended to use what they learned in transition planning; and 82 
percent responded they knew how to access appropriate resources. This 
assessment also informs our annual curriculum review and modification 
process.
    We rely on VOW Act and CRS compliance to measure initial TAP 
effectiveness. DOD has developed an IT infrastructure that collects 
data on every separating Servicemember. In FY 2015, 226,111 
Servicemembers separated from active duty. Based on data verified by 
the Defense Manpower Data Center, 94 percent of these eligible 
Servicemembers met the VOW Act mandate. Eighty-nine percent of eligible 
Servicemembers either met CRS or received a warm handover to 
appropriate partner agencies. These results speak to the incredible 
commitment of the Services and our partner agencies to prepare 
Servicemembers for civilian life.
    DOD has gone one step further. The TAP redesign is a culture change 
for DOD and deliberate transition planning across the MLC is a shift. 
To monitor this culture change, we are using the DOD Status of Forces 
Survey to capture, for the first time, Servicemembers' attitudes toward 
post-military career planning and leadership support. This survey will 
enable us to gauge Servicemembers' awareness of TAP and their 
individual transition responsibilities, as well as the support they 
receive from leadership and peers in preparing for transition. It will 
take time to integrate MLC transition preparation, but of those 
Servicemembers responding to the 2014 survey, 62 percent indicated they 
had done some planning for their post-military career, 49 percent said 
Commanders or senior leadership were supportive of this career 
planning, and 65 percent indicated peer support. We have seen 
recognition among Servicemembers that transition preparation is 
important throughout the military career. In the 2013 survey, just 10 
percent of Servicemembers said that transition assistance information 
should be provided at multiple points during the career. In 2014, this 
grew to 28 percent. We will be monitoring these yearly results 
carefully.
    Our partners have proposed long-term outcome measures in the TAP 
Interagency Evaluation Strategy which will enable us to evaluate 
success after separation. These include Post-9/11 G.I. Bill Usage Rate, 
education Completion Rate, Percentage of Unemployed Post-9/11 Veterans, 
and Amount of Unemployment Insurance Payment by Branch. Additional 
long-term, outcome-oriented evaluations are also in development by the 
VA and DOL to further strengthen the interagency evaluation approach 
and ensure that TAP is continuously improved.
                           curriculum review
    DOD and our partners are committed to a relevant curriculum. The 
TAP Interagency EC has completed two review cycles of the Transition 
GPS curriculum, allowing for updates of resources, materials, and 
content. The updates are based on feedback provided by Servicemembers 
through the Participant Assessment, facilitators, subject matter 
experts, interagency partners, stakeholders, and Service 
representatives. This annual review process allows DOD and our partners 
to provide the most current and effective instruction to support the 
career success of our Servicemembers.
    The Curriculum Working Group leads the annual review and 
modification process to identify necessary changes to strengthen 
learning outcomes. Recommendations for changes vary annually based on 
shifts in law, policy, and Servicemember needs. The working group 
leverages the talent of both interagency and Service subject matter 
experts and curriculum specialists to revise the curriculum. The 
revisions are presented to the SSG for review, approval, and forwarded 
to the EC for final approval. The revised curriculum is then 
implemented by the Military Services and our interagency partners.
    During the FY 2015 review, several changes were made in response to 
Participant Assessment feedback. These include discussions and examples 
of Verification of Military Experience and Training (VMET) 
documentation and the Joint Services Transcript, which can help 
Servicemembers show qualifications or obtain academic credit for 
military experience. Information on healthcare and changes in taxes 
after transition were also added. Website resources were provided to 
accompany the curriculum. Feedback received from our interaction with 
employers has resulted in enhancing TAP to improve Servicemember skills 
in utilizing social media for employment, networking, and developing 
resumes. The revised DOD curriculum has been made available to the 
field. DOL and VA content is actively being piloted and complete 
implementation is forthcoming.
    One addition to the available courses is an online course called 
``Higher Education Preparation,'' which launched in October 2015. This 
module, developed in response to high Service interest and feedback, is 
aligned with MLC transition preparation and assists Servicemembers in 
making informed decisions when using tuition assistance. It intends to 
help first-term Servicemembers understand the importance of aligning 
their education with future career goals, compare institutions of 
higher learning to find the best educational and personal fit, and 
effectively use tuition assistance to support their long-term 
educational goals.
                         commander role in tap
    Commanders play an integral role in TAP. Commanders must give 
Servicemembers sufficient time to attend TAP and verify that 
Servicemembers meet CRS during Capstone. If a transitioning 
Servicemember does not meet CRS, the Commander initiates a warm 
handover to one or more partner agencies to ensure the Servicemember 
receives the necessary support after separation. VA and DOL have 
increased resources to handle warm handovers from DOD. They can discuss 
their procedures after receiving transitioning Servicemembers through 
the handover process.
    Many Commanders have seized their role in TAP and are beginning to 
foster a culture of transition readiness, including encouraging honest 
discussions about post-military life in order to develop an environment 
in which post-military planning is the norm. In March 2015, the 
Chairman of the Joint Chiefs of Staff issued a memorandum to Commanders 
at all levels about their role in TAP. The Chairman cited actions 
Commanders should take to support transitioning Servicemembers, 
including permitting them appropriate time and access to resources 
needed to meet CRS. The Chairman's memorandum underscored the unique 
role Commanders play in positioning Servicemembers to succeed in their 
post-military civilian lives. We continue to work with the Military 
Services to systemically educate leaders on their responsibilities to 
separating Servicemembers.
                     private and public engagement
    Over the past two years, private sector companies of all sizes, as 
well as Federal agencies, have recognized that transitioning 
Servicemembers comprise an incredible pool of talent and they seek 
increased opportunities to harness that talent.
    DOD and our partners have received input from the private and non-
profit sectors through advisory bodies such as the Defense Business 
Board, DOL's Advisory Committee on Veterans' Employment, Training, and 
Employer Outreach, and the MyVA Advisory Committee, to help provide the 
best possible assistance to Servicemembers and Veterans. The Defense 
Business Board, an advisory body of corporate executives to the 
Secretary of Defense, was given the opportunity to review the 
redesigned TAP. A primary comment was to provide employers with early 
access to transitioning Servicemembers. In collaboration with the U.S. 
Chamber of Commerce's Hiring Our Heroes Foundation, we have helped 
shape the environment in which employers gain this access. In 2015, 
thousands of Servicemembers, Veterans, and spouses attended over 100 
Hiring Our Heroes events. These include 18 large-scale transition 
summits, including summits at overseas installations in Okinawa, 
mainland Japan, Germany, and Italy. In the latest assessment 
(August 2015), 94 percent of attendees who responded to a survey 
indicated they felt better prepared for transition after attending 
these events.
    Through organizations such as Veterans Job Mission, led by JPMorgan 
Chase, employers have committed to hiring transitioning Servicemembers 
and Veterans. Companies such as those you will hear from today are not 
focused solely on hiring Veterans, but also on retaining them. Many 
have established Veteran affinity groups where Veteran employees can 
mentor each other through the corporate ``culture change.'' These 
groups have become a helpful tool for employers to understand the 
interests and concerns of their Veteran employees, better positioning 
them to retain this workforce.
    DOD also collaborates with Federal agencies to support 
transitioning Servicemembers and to fill workforce gaps. DOL (with its 
employer and labor partners) helps to ensure that transitioning 
Servicemembers are able to connect with Registered Apprenticeships. 
Currently, approximately 95,000 active Servicemembers are participating 
in apprenticeships through the United Services Military Apprenticeship 
Program--gaining valuable skills that translate to civilian 
occupations. The Department of Energy is launching initiatives to help 
Servicemembers train for and obtain critical-need jobs in the utility 
industry. The Department of Agriculture has recently launched a 
targeted campaign to make Servicemembers aware of opportunities in the 
agriculture industry. The Department of Homeland Security has been 
actively engaged at hiring events to recruit transitioning 
Servicemembers for law enforcement, border patrol, and national 
security positions. At the Honolulu Transition Summit in July 2015, 
Customs and Border Protection accepted over 300 applications from Navy 
and Air Force personnel. The Department and Military Services are 
engaged with the Department of Homeland Security to improve the 
processes through which Servicemembers are recruited, apply for, and 
obtain positions within Customs and Border Protection.
    Private-sector employers have found innovative ways to employ 
transitioning Servicemembers through the development of on-the-job 
training programs authorized through SkillBridge, which is overseen by 
DOD's Office of the Assistant Secretary of Defense for Readiness. 
Servicemembers meeting certain qualifications are allowed to 
participate in civilian job and employment training up to six months 
prior to their separation from active duty. This training must lead to 
a high probability of employment. Over 30 of these programs have been 
implemented at military installations.
    It is evident that both industry and Federal agencies are starting 
to develop career pipelines for transitioning Servicemembers. The 
revised Career and Technical Training track in Transition GPS will 
include an expanded discussion of apprenticeship and training 
opportunities offered by VA and DOL. However, we must acknowledge the 
military Services and Commanders are challenged with balancing 
unrelenting mission requirements and the workload on non-transitioning 
Servicemembers while giving these training opportunities to 
transitioning Servicemembers. We are committed to providing our 
Servicemembers access to training that results in industry-recognized 
credentials. We are eager to balance mission requirements with 
opportunities for transitioning Servicemembers to fill the most 
pressing workforce skills gaps in their communities. This is a new 
undertaking and we will learn and adapt along the way.
                         community partnerships
    Many local and community organizations are eager to support our 
Servicemembers as they plan, prepare, and ultimately complete their 
transition from the military. In 2014, the Secretary of Defense signed 
memoranda granting Non-Federal Entities, Veteran Service Organizations 
(VSOs), and Military Service Organizations (MSOs), access to 
installations to enable delivery of their support and services to 
Servicemembers and families. This included detailed guidance with 
recommended processes and procedures. We are in the process of issuing 
a DOD Instruction asking the Military Secretaries to encourage their 
installation Commanders to grant VSOs and MSOs access to transition 
assistance-related events and activities. We intend this policy to 
further serve to support installation Commanders as they balance 
mission and security requirements with leveraging the services that 
these organizations are able to provide to local installations.
    A basic tenet of the TAP redesign is to build bridges from active 
duty to post-separation support from VA, DOL, and other community 
agencies. These bridges are apparent in the Transition GPS curriculum 
and in the final TAP component of Capstone. We applaud the requirement 
for DOL's American Job Centers to be embedded in the social support 
network of the communities where they are located. Likewise, VA's Vet 
Centers and the Department of Education's work to encourage 
universities and colleges to support Veterans on campus are getting 
stronger. SBA's SCORE volunteers reinforce our Veterans as they enter 
the world of entrepreneurship. VA's Veterans Economic Communities 
Initiative and policy academies aim to assist communities with 
coordinating Veteran support mechanisms. We are also heartened by 
another example of unexpected community support from the Sesame 
Workshop. Sesame Workshop is providing a suite of products to community 
agencies to educate agency staff on how to support transitioning 
military families with young children. The January 2016 launch of these 
materials will be just one more way that Sesame Workshop provides 
quality support to the military and Veteran communities.
                               conclusion
    The Department's intensified focus on transition preparation is 
being acknowledged across the Administration. In fact, many now 
recognize that preparing Servicemembers for transition is imperative to 
sustaining the All-Volunteer Force. The 2014 Quadrennial Defense Review 
noted that the strength of the All-Volunteer Force would be maintained 
by providing the best possible assistance to Servicemembers 
transitioning to civilian life.
    Our Servicemembers are a vital component of our Nation's economic 
prosperity; their contributions last years beyond military service. We 
are working hard to increase the awareness of the valuable skill sets 
that Servicemembers bring to every industry. We are encouraging 
employers to develop training, credentialing, and career paths that 
create viable and enduring post-service options for Servicemembers.
    Going forward, I believe we will see our Servicemembers succeed 
more quickly in their post-separation goals, whether pursuing a degree 
in higher education, immediately entering the civilian workforce, or 
launching an entrepreneurial endeavor. I credit our interagency 
partners and the TAP staffs of the Military Services for making this 
happen. This has been an unprecedented effort. Our collective 
dedication has never wavered.

    In closing, Mr. Chairman, I thank you, the Ranking Member, and the 
Members of this Committee for your outstanding and continuing support 
of the men and women who proudly wear the uniform in defense of our 
great Nation.

    Chairman Isakson. Thank you very much, Ms. Kelly.
    Mr. Coy.

STATEMENT OF CURTIS L. COY, DEPUTY UNDER SECRETARY FOR ECONOMIC 
OPPORTUNITY, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT 
OF VETERANS AFFAIRS; ACCOMPANIED BY ROSYE CLOUD, SENIOR ADVISOR 
FOR VETERAN EMPLOYMENT, VETERANS BENEFITS ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Coy. Chairman Isakson, Ranking Member Blumenthal, and 
other Members of the Committee, we appreciate the opportunity 
to appear before you today to discuss the current status of the 
Transition Assistance Program. Accompanying me today is Ms. 
Rosye Cloud, Senior Advisor for Veteran Employment.
    It is critical that our men and women leaving military 
service are informed of the benefits they have earned, how to 
fully utilize them, and can connect with communities to achieve 
positive economic outcomes. The VOW Act of 2011 set in place 
the framework for pre-separation counseling, benefits 
briefings, and employment workshops. To provide benefits 
briefings, VA has more than 300 benefits advisors in place 
providing transition support at more than 108 permanent 
military installations worldwide, which also serve another 195 
itinerant sites and locations. These advisors are responsible 
for delivering VA benefits briefings, facilitating career 
technical training track, supporting Capstone and Military Life 
Cycle events, as well providing individual assistance upon 
request to servicemembers and their families.
    Last fiscal year, 195,000 servicemembers and spouses 
attended over 7,500 VA benefits briefs. Another 7,700 attended 
over 850 voluntary Clinical Team Training briefings. VA, with 
our partner agencies, also developed a virtual TAP curriculum 
that enables access to the curriculum from remote locations 
worldwide.
    This past year also included a significant review of our 
curriculum. Enhancements were made to the VA Benefits I and II 
briefings designed to align information into logical life 
planning categories to include education, training and 
upscaling, economic opportunities, estate planning, housing, 
and health care. Through the Capstone process, VA works with 
the interagency partners ensuring that servicemembers at risk 
for larger issues, such as homelessness, are connected to the 
right resources.
    The governance charter established the Interagency 
Executive Council (IEC) and Senior Steering Group, overseeing 
the policy development of TAP. The Chair of that IEC rotates 
each year. Currently, VA has the helm after our DOD and Labor 
partners have done in the previous 2 years.
    To complement TAP, and as part of Secretary McDonald's MyVA 
initiative, VA launched the Veterans Economic Communities 
Initiative, or VECI, in May of this year. VECI promotes local 
community collaboration, dialog, and partnerships among 
organizations that serve transitioning servicemembers, 
veterans, and their families.
    VECI communities are based upon transitioning and post-9/11 
veteran populations, unemployment and job growth opportunities, 
and education spending. We have already launched the program in 
25 communities and hope to expand to another 25 this year.
    VA is fully supporting the efforts of the administration 
and Congress to ensure transitioning servicemembers are ready 
for civilian life and to achieve strong economic outcomes. I 
would be remiss if I did not also say that working with our 
colleagues at Defense and Labor has been a wonderful example of 
interagency cooperation and partnership. Dr. Kelly and Deputy 
Assistant Secretary Gerton are dedicated professionals and 
leaders whose passion for doing what is best for veterans 
cannot be overstated. We are also excited about the new 
leadership Assistant Secretary Michaud will bring to the 
process. Finally, the work of our Senior Advisor Rosye Cloud 
has accomplished is truly noteworthy.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you or other Members of the 
Committee may have.
    [The prepared statement of Mr. Coy follows:]
    Prepared Statement of Curtis L. Coy, Deputy Under Secretary for 
  Economic Opportunity, Veterans Benefits Administration (VBA), U.S. 
                  Department of Veterans Affairs (VA)
    Chairman Isakson, Ranking Member Blumenthal, and other Members of 
the Committee, We appreciate the opportunity to appear before you today 
to discuss the current status of the Transition Assistance Program 
(TAP) and the Veterans Economic Communities Initiative (VECI). 
Accompanying me today is Ms. Rosye Cloud, Senior Advisor for Veteran 
Employment.
                               background
    It is critical that today's Servicemembers are appropriately and 
adequately prepared to transition to civilian life and seek a 
meaningful and productive post-military career. In November 2011, 
Congress passed and the President signed the VOW to Hire Heroes Act of 
2011 (VOW Act), which included steps to improve TAP for Servicemembers. 
Among other things, the VOW Act made participation in TAP mandatory for 
all Servicemembers (except in certain limited circumstances). Mandatory 
components of TAP now include pre-separation counseling, two VA 
benefits briefings, and a Department of Labor (DOL) employment 
workshop. Under the auspices of a memorandum of understanding executed 
in 2014, VA, DOL, Department of Defense (DOD), Department of Homeland 
Security, Department of Education (ED), Small Business Administration 
(SBA), U.S. Office of Personnel Management (OPM), and other 
stakeholders coordinated on the implementation of the redesigned TAP to 
strengthen and expand information, counseling, and support to 
transitioning Servicemembers. Inter-agency cooperation is at all levels 
of the Performance Reporting and Management strategy. VA currently co-
chairs the Executive Council (EC) and the Senior Steering Group (SSG). 
The EC meets on a quarterly basis to provide strategic guidance and 
discuss recommendations or concerns raised by the SSG. The SSG meets 
monthly, and the working groups meet as necessary.
    Inter-agency working groups study issues pertaining to transition, 
employment, curriculum, education, training, strategic communications, 
technology, and overall performance. Environmental scans are often 
conducted to ensure employment trends and educational standards are 
current and relevant.
           implementation of va transition assistance program
    In order to provide resources and expertise to develop and 
implement VA's portion of TAP worldwide, a contract vehicle was put in 
place where more than 300 VA benefits advisors were deployed to provide 
transition support at more than 300 military installations. As a 
testament to VA's commitment to Veteran employment, our current network 
of contract VA benefits advisors is comprised of over 86 percent 
Veterans and 11 percent military spouses. Notably, there is a large 
representation of Women Veterans in our cadre of benefits advisors 
(approximately 30 percent), which is almost double their representation 
in the Veteran population. The strong acumen Veterans and family 
members bring to the table is expected to be crucial as we work to 
increase warm handovers across agencies.
    VA benefits advisors are responsible for delivering the mandatory 
VA Benefits Briefings; facilitating the Career Technical Training Track 
(CTTT); supporting Capstone and Military Life Cycle events and 
briefings; and providing individual assistance to transitioning 
Servicemembers upon request. They also conduct outreach activities to 
ensure Servicemembers are aware of VA benefits and services available 
to them, and provide support for local events such as transition 
summits, career/hiring fairs, policy academies and other community 
events that benefit Servicemembers and their families.
    To meet the needs of National Guard and Reserve members, VA 
deployed benefits advisors to all formal demobilization locations (Fort 
Bliss, Fort Hood, and Joint-Base McGuire-Dix-Lakehurst). In our last 
round of curriculum enhancements, we tailored our Benefits I and 
Benefits II briefings to meet the needs of our Guard and Reserve 
populations. In addition, VA rapidly responds to Service requests for 
briefings at Yellow Ribbon and community-based events, as well as to 
short-notice (same-day notification) demobilization events on 
installations worldwide.
VA Briefings
    The original VA curriculum structure consisted of a four-hour VA 
Benefits I Briefing and a two-hour VA Benefits II Briefing, which 
provided an overview of all VA benefits, including eligibility 
requirements and the application process.
    In March 2014, with input from our partner agencies (DOL, DOD, DHS, 
ED, SBA, and OPM), VA fully deployed the Career Technical Training 
Track (CTTT), an optional course designed for those seeking job-ready 
skills and industry-recognized credentials through short-term training 
programs rather than four-year degree programs. The initial CTTT 
curriculum guided Servicemembers through the decisions involved in 
identifying a technical career, determining credentialing requirements, 
researching and applying to training programs, exploring funding 
options (including VA benefits), and creating a plan for success.
    As a result of a full review of VA's transition curriculum in 2015, 
enhancements were made to the VA Benefits I and II Briefings to include 
modules on education, training and upskilling, economic opportunities, 
estate planning, housing, and health care, as well as demonstrations of 
eBenefits and the Veterans Employment Center<SUP>TM</SUP>. The 2015 
revisions better align the information presented into logical 
categories, versus the previous alignment to VA business lines.
    Additionally, VA enhanced the CTTT, in collaboration with our 
interagency partners, in 2015 to provide Servicemembers an opportunity 
to utilize assessment tools to determine possible employment/career 
direction; conduct labor-market research; learn about upskilling 
opportunities; and make a plan for a career.
    Last fiscal year, 194,910 people attended over 7,500 VA Benefits I 
and II Briefings; and 7,745 people attended 858 CTTT briefings. VA 
attendance numbers are based on voluntary, non-personally identifiable 
information collection at the event site. The attendance database of 
record is maintained by DOD.
    VA and its partner agencies also developed a virtual TAP 
curriculum, hosted on the DOD Joint Knowledge Online Web site that 
enables Servicemembers, Veterans and their families to access the 
curriculum from remote locations. Participants can access the courses 
and review the training at their preferred pace. VA also worked with 
the Army to deliver virtual briefings via live-meeting sessions to 
Servicemembers deployed to remote locations without access to VA 
benefits advisors.
VA Capstone Support
    Capstone is intended to serve as a standardized and comprehensive 
end-of-career experience to validate, verify, and bolster the 
transition training and other services that prepare Servicemembers for 
civilian careers. As part of Capstone, VA assigns a benefits advisor to 
each military installation to receive warm handovers from DOD for those 
Servicemembers who do not meet career readiness standards or are at 
risk for homelessness so that VA can connect them to assistance, such 
as additional information on compensation, educational benefits, or 
career counseling. Career readiness standards are verified by the 
Military Services, and attendance is tracked by DOD and reported to 
partnering agencies on a quarterly basis. During the warm handover, the 
Services verify that Servicemembers previously completed the VA 
benefits briefings. Benefits advisors welcome Servicemembers to the VA 
community and provide local points of contact for future assistance and 
issues. Through the Capstone process, VA is working with its 
interagency partners to create appropriate synergies to ensure that 
Servicemembers who are at-risk for larger issues, such as homelessness, 
are connected to the right resources prior to separation.
VA Military Life Cycle (MLC) Overview
    Currently, individual assistance is provided by VA in one-on-one 
MLC sessions. These sessions involve answering any specific questions 
that may arise after completing VA benefits briefings and assisting 
with online benefits applications. VA benefits advisors also connect 
Servicemembers who need additional support in filing their disability 
claims or accessing other VA services with a Veterans Service 
Organization or VA representative at one of our VA regional offices, VA 
medical centers, Vet Centers, or the National Call Center. Individual 
transition support also includes services to Servicemembers who are 
wounded, ill, or injured, or who may not be physically capable of 
sitting through the entire six-hour VA benefits briefings.
    The MLC transition model capitalizes on military training and 
development opportunities and leverages TAP offerings to ensure 
Servicemembers are successful throughout their military and post-
military careers. MLCs will be expanded across a series of subject 
matter areas in the near future to best support the needs of military 
members and their families.
                   measuring the quality of briefings
    The interagency TAP evaluation strategy is a year-round process 
that involves collaboration among all stakeholders, culminating in 
annual reviews of the TAP curriculum, evaluation methods, and 
processes. Interagency performance measures are reported monthly on a 
staggered schedule to the SSG, and interagency staff assistance visits 
are conducted throughout the year and briefed to the EC quarterly.
    In addition to the interagency TAP evaluation strategy, VA is 
aggressively implementing a comprehensive quality assurance (QA) 
program to ensure the TAP curriculum and the performance of VA benefits 
advisors meet the highest standards. The QA program sets a framework 
for continuous monitoring that includes oversight visits conducted by 
VA to ensure evaluation of all activities carried out in support of 
TAP. In FY 2015, VA and its contractors conducted 145 QA visits at 89 
sites. Of these 145 QA visits, contractors performed 91 evaluations and 
VA conducted the other 54. In order to improve the quality assurance 
program for VA delivery of TAP, VA is working multiple acquisitions in 
FY 2016. The work will be completed through two contracts to separate 
vendors: one for transition, employment, and economic impact, and the 
other to provide independent verification and validation, as well as 
performance management.
    VA benefits advisors complete a rigorous training program before 
being placed on the briefing rotation. Through a ``Train the Trainer'' 
system, master trainers provide expertise, training, oversight, and 
assistance to new VA benefits advisors. VA Benefits I and II training 
consists of pre-requisite study of content knowledge and 80 hours of 
classroom-based instruction. VA benefits advisors are required to 
demonstrate their proficiency of the materials and delivery of 
briefings. To assess VA benefits advisors' performance, VA developed an 
evaluation rubric that measures proficiency, knowledge of content, 
facilitation and platform skills, professionalism, and classroom 
preparation. Additionally, the CTTT training is highly interactive and 
consists of 120 hours of content study and practice.
    DOD currently collects feedback from Servicemembers through the 
interagency Transition GPS participant assessment. This assessment 
collects demographic data and includes questions assessing the quality 
of the course curriculum, course materials, facilitators, and 
facilities. Participants also answer questions for VA to gauge their 
intent to use the information learned, confidence derived from the 
modules/tracks, and self-assessed knowledge gain. In the Transition GPS 
participant assessments for the first and second quarters of FY 2015, 
several VA benefits advisors were personally praised for their efforts.
    VA is listening to Servicemembers' needs and responding to 
feedback. Through Transition GPS participant assessment feedback, 
quality assurance visits, and direct feedback from our trainers, VA has 
an agile curriculum improvement process that allows us to make 
immediate and on-going enhancements to the Benefits I, Benefits II, and 
CTTT curricula and delivery.
           the veterans employment center<SUP>TM</SUP> (vec)
    VA, DOL, DOD, ED, SBA, and OPM collaborated to design, develop, and 
incorporate features of existing online employment tools into the 
VEC<SUP>TM</SUP>. The VEC<SUP>TM</SUP> consolidates several job 
assistance tool sites, bringing together real job opportunities with 
technology to translate military skills into plain language and allow 
users to build an online profile that can be shared in real time with 
employers who have made a public commitment to hire Veterans. The 
VEC<SUP>TM</SUP> platform is not tied to any vendor, commercial entity, 
or service, but endeavors to integrate tools, resources, and programs 
from across Federal agencies and vetted public-private partnerships, at 
no cost to Federal agencies, employers, Veterans, military, or their 
families.
    The site now averages over 1.2 million page views each month. 
Employers have made publicly displayed commitments to hire more than 
740,000 individuals from the military community. These numbers reflect 
the national commitment by small, medium, and large employers across 
America. VA is continuing to work with its partner agencies and 
Veterans to identify ways to best use these tools and technologies.
            veterans economic communities initiative (veci)
    To complement the goals of TAP and as part of Secretary McDonald's 
MyVA initiative, VA launched the Veterans Economic Communities 
Initiative or VECI in May 2015. VECI's goal is to promote local 
collaboration, dialog, and partnerships among organizations that serve 
transitioning Servicemembers, Veterans, and their families.
    Economic liaisons in each VECI community collaborate and partner 
with government leaders, businesses, policy experts, educational 
institutions, and nonprofit organizations to build an integrated 
network of support and resources and maximize impact to improve 
outcomes for Veterans and their families.
    Although VECI is for Veterans of all eras, the program places 
emphasis on Post-9/11 transitioning Servicemembers. It is designed to 
connect economic liaisons into the benefits advisor network across the 
country. Additionally, economic liaisons work closely with their 
counterparts across agencies, including DOL, SBA, and DOD, to 
coordinate services with a unified approach to supporting Veterans and 
their families.
    On September 30, 2015, VA announced expansion to 25 new VECI 
communities in early 2016, bringing the total to 50 U.S. metropolitan 
statistical areas. VECI communities were selected based on 
transitioning Servicemember and Post-9/11 Veteran populations, 
unemployment rates, employment opportunities and job growth, and 
education spending. The response to our VECI campaign from our Nation's 
businesses has been encouraging, and in many cases enthusiastic.
    The VECI campaign launched two new innovative education initiatives 
for transitioning Servicemembers and Veterans: Learning Hubs and 
Accelerated Learning Program (ALP) pilots.
    VA launched five Learning Hub pilots across the country in 
partnership with Coursera, the American Red Cross, and The Mission 
Continues, to offer no-cost learning opportunities to transitioning 
Servicemembers and Veterans. VA Learning Hubs offer the opportunity to 
learn online and in the classroom, listen to presentations from local 
subject matter experts, and network with leaders in the community. Upon 
successful completion of the program, participants may elect to receive 
one free verified certificate issued by Coursera. VA Learning Hubs will 
expand to 28 communities total this calendar year.
    VA also launched an ALP pilot this summer, with seven courses 
focusing on building skills and certifications needed to begin or 
advance in careers in information technology (IT), as part of the 
President's TechHire initiative. ALPs are typically completed in fewer 
than six months; provide opportunities to learn online, in the 
classroom, or in a blended format; and lead to industry-recognized 
certifications. Under an innovative pay for success concept, the ALP 
pilots incentivize and compensate training providers based on 
graduation and career-placement rates. We are testing this model to 
determine if it could be used more broadly to train Veterans in other 
industries and sectors. Launched in August 2015, VA received more than 
1,000 applications on the first day and approximately 3,500 
applications in the first week.
    As an important component of the VECI campaign, VA held its 
inaugural Policy Academy from September 29-30 in Orange County, 
California. The event had more than 450 registrants. Policy Academies 
serve as a forum for local, regional, and national partners to engage 
in dialog about Veteran economic issues; receive interactive training 
on national philanthropic and fact-based best practices; and hear from 
leaders in the field about emerging data, trends, and opportunities.
    To measure the success of VECI, VA will leverage key strategies for 
improving economic outcomes. These include Veteran-focused community 
engagement activities, employment interest via the VEC<SUP>TM</SUP>, 
and review of education outcomes such as VA Learning Hubs and programs 
that leverage the GI Bill.
    Each of these strategies helps VA to measure its progress toward 
achieving national goals for Veteran employment and education 
attainment, and as each VECI matures, will evolve into more granular 
core performance metrics.
    Since its national launch in May, the VECI campaign has already 
placed economic liaisons in 25 communities across the country. Liaisons 
are deeply rooted in their local networks and based out of locations in 
the community. VA is aggressively pursuing additional innovative 
opportunities to increase public and private partnerships in 
communities via no-cost partnerships. VECI has also enabled VA to work 
with Veteran-focused foundations to identify and increase opportunities 
to ease reintegration for Veterans and their families nationally.
                               conclusion
    VA continues to work with partner agencies to assist with the 
transition of Servicemembers from military to civilian life. TAP is 
designed to give Servicemembers and their families an opportunity to 
learn more about the benefits they have earned, identify benefits that 
fit their individual needs, and equip them with a plan for success 
outside of the military.
    VA fully supports the efforts of the Administration and Congress to 
ensure transitioning Servicemembers are ready for civilian life upon 
separation from the military and achieve strong economic outcomes, and 
we will continue to implement initiatives to achieve this goal.

    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or other Members of the Committee may have.

    Chairman Isakson. Thank you very much, Mr. Coy.
    Ms. Gerton.

  STATEMENT OF TERESA GERTON, DEPUTY ASSISTANT SECRETARY FOR 
    POLICY, VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. 
                      DEPARTMENT OF LABOR

    Ms. Gerton. Good afternoon, Chairman Isakson, Ranking 
Member Blumenthal, and other distinguished Members of the 
Committee. Thank you for the opportunity to participate in 
today's hearing. As the Deputy Assistant Secretary for Policy 
at the Veterans' Employment and Training Service (VETS) at the 
Department of Labor, I appreciate the opportunity to discuss 
the implementation of the revised Transition Assistance 
Program, or TAP.
    I would like to start off with some good news. In November, 
the Bureau of Labor Statistics reported that the national 
unemployment rate for veterans was 3.6 percent, the lowest rate 
in the last 8 years and below the national unemployment rate 
for the 24th consecutive month. This points to the value of our 
combined efforts to help veterans obtain meaningful civilian 
careers.
    Since the inception of TAP over 20 years ago, the 
Department of Labor has provided training and services through 
Employment Workshops to over 2.6 million separating or retiring 
servicemembers and their spouses. Last year alone, DOL 
conducted more than 6,400 Employment Workshops for over 180,000 
participants at 206 sites worldwide.
    The 3-day Employment Workshop uses modern adult learning 
techniques to actively engage transitioning servicemembers in 
critical career transition skills. On day one, participants 
develop their change management plan and identify overall 
strategies for transitioning into the civilian workforce. On 
day two, they learn how to analyze the job market and use 
social media and job searches and networking. On day three, 
instructors impart critical information about special veterans 
hiring authorities and how the Federal job application process 
differs from the private sector. Additionally, throughout the 
Employment Workshop, participants work extensively on their 
master job application, targeted resumes and interviewing 
skills, and they finish with a mock interview exercise.
    DOL is pleased to report that this curriculum has been well 
received. Of the over 14,500 participants who most recently 
responded to the survey, 92 percent reported that they would 
use what they learned in their own transition planning and 90 
percent reported that the employment workshop enhanced their 
confidence in transition planning. Nonetheless, during the most 
recent annual curriculum review for fiscal year 2015, 
stakeholders identified two key shortcomings in our curriculum: 
too much material without enough time to cover it all, and 
confusing and less helpful content within the participant guide 
and workshop.
    These identified shortcomings led DOL to redesign the 
Employment Workshop to promote mastery of four core 
competencies: developing and executing a job search plan; 
planning for success in a civilian work environment; creating 
resumes, cover letters, and other self-marketing materials; and 
engaging in successful interviews and networking conversations.
    Stakeholder input also suggested that the Employment 
Workshop be modified to ensure the material is relevant for 
transitioning servicemembers of all grades. To accomplish this, 
DOL is including a range of model resumes, cover letters, and 
scenarios for the mock networking conversation and interview 
exercises.
    Throughout the Employment Workshop, instructors discuss all 
of the Department's relevant employment services. All veterans 
receive priority of service in DOL-funded employment and 
training programs. Most of the department-wide programs and 
services are available through the nationwide network of nearly 
2,500 American Job Centers. The Job Centers serve as the 
cornerstone for the Nation's workforce investment system and 
provide a range of services locally, including counseling, 
resume-writing workshops, job skill assessments, occupational 
and on-the-job training, and job placement services.
    If a servicemember is assessed as not meeting Career 
Readiness Standards during their Capstone event, their 
commander can facilitate a warm handover of the servicemember 
to the public workforce system for a review of the employment 
services available through Job Centers and to facilitate access 
to appropriate services.
    In addition to the classroom setting and job counseling at 
American Job Centers, VETS focuses on other aspects of 
transition, such as licensing and credentialing pathways for 
veterans. Through a contract with the National Governors 
Association (NGA), the Department explored accelerated career 
pathways for servicemembers and veterans in selected high-
demand civilian occupations. DOL, with the support of NGA, will 
share the best practices identified through the demonstration 
project in a final report that will include a blueprint for 
other States to follow.
    DOL also works to provide employment services to veterans 
and transitioning servicemembers with the VA through the 
Vocational Rehabilitation and Employment Program. Working with 
the VA, DOL personnel around the country as well as our State 
and local workforce agency partners strive to ensure that DOL's 
programs are made available to provide needed assistance to 
veterans and transitioning servicemembers with disabilities.
    The Department looks forward to working with the Committee 
to ensure that our separating servicemembers have the resources 
and training they need to successfully transition to the 
civilian workforce.
    Mr. Chairman, Members of the Committee, this concludes my 
oral statement. Thank you for the opportunity to be part of 
this hearing. I welcome your questions.
    [The prepared statement of Ms. Gerton follows:]
    Prepared Statement of Curtis L. Coy, Deputy Under Secretary for 
  Economic Opportunity, Veterans Benefits Administration (VBA), U.S. 
                  Department of Veterans Affairs (VA)
    Chairman Isakson, Ranking Member Blumenthal, and other Members of 
the Committee, We appreciate the opportunity to appear before you today 
to discuss the current status of the Transition Assistance Program 
(TAP) and the Veterans Economic Communities Initiative (VECI). 
Accompanying me today is Ms. Rosye Cloud, Senior Advisor for Veteran 
Employment.
                               background
    It is critical that today's Servicemembers are appropriately and 
adequately prepared to transition to civilian life and seek a 
meaningful and productive post-military career. In November 2011, 
Congress passed and the President signed the VOW to Hire Heroes Act of 
2011 (VOW Act), which included steps to improve TAP for Servicemembers. 
Among other things, the VOW Act made participation in TAP mandatory for 
all Servicemembers (except in certain limited circumstances). Mandatory 
components of TAP now include pre-separation counseling, two VA 
benefits briefings, and a Department of Labor (DOL) employment 
workshop. Under the auspices of a memorandum of understanding executed 
in 2014, VA, DOL, Department of Defense (DOD), Department of Homeland 
Security, Department of Education (ED), Small Business Administration 
(SBA), U.S. Office of Personnel Management (OPM), and other 
stakeholders coordinated on the implementation of the redesigned TAP to 
strengthen and expand information, counseling, and support to 
transitioning Servicemembers. Inter-agency cooperation is at all levels 
of the Performance Reporting and Management strategy. VA currently co-
chairs the Executive Council (EC) and the Senior Steering Group (SSG). 
The EC meets on a quarterly basis to provide strategic guidance and 
discuss recommendations or concerns raised by the SSG. The SSG meets 
monthly, and the working groups meet as necessary.
    Inter-agency working groups study issues pertaining to transition, 
employment, curriculum, education, training, strategic communications, 
technology, and overall performance. Environmental scans are often 
conducted to ensure employment trends and educational standards are 
current and relevant.
           implementation of va transition assistance program
    In order to provide resources and expertise to develop and 
implement VA's portion of TAP worldwide, a contract vehicle was put in 
place where more than 300 VA benefits advisors were deployed to provide 
transition support at more than 300 military installations. As a 
testament to VA's commitment to Veteran employment, our current network 
of contract VA benefits advisors is comprised of over 86 percent 
Veterans and 11 percent military spouses. Notably, there is a large 
representation of Women Veterans in our cadre of benefits advisors 
(approximately 30 percent), which is almost double their representation 
in the Veteran population. The strong acumen Veterans and family 
members bring to the table is expected to be crucial as we work to 
increase warm handovers across agencies.
    VA benefits advisors are responsible for delivering the mandatory 
VA Benefits Briefings; facilitating the Career Technical Training Track 
(CTTT); supporting Capstone and Military Life Cycle events and 
briefings; and providing individual assistance to transitioning 
Servicemembers upon request. They also conduct outreach activities to 
ensure Servicemembers are aware of VA benefits and services available 
to them, and provide support for local events such as transition 
summits, career/hiring fairs, policy academies and other community 
events that benefit Servicemembers and their families.
    To meet the needs of National Guard and Reserve members, VA 
deployed benefits advisors to all formal demobilization locations (Fort 
Bliss, Fort Hood, and Joint-Base McGuire-Dix-Lakehurst). In our last 
round of curriculum enhancements, we tailored our Benefits I and 
Benefits II briefings to meet the needs of our Guard and Reserve 
populations. In addition, VA rapidly responds to Service requests for 
briefings at Yellow Ribbon and community-based events, as well as to 
short-notice (same-day notification) demobilization events on 
installations worldwide.
VA Briefings
    The original VA curriculum structure consisted of a four-hour VA 
Benefits I Briefing and a two-hour VA Benefits II Briefing, which 
provided an overview of all VA benefits, including eligibility 
requirements and the application process.
    In March 2014, with input from our partner agencies (DOL, DOD, DHS, 
ED, SBA, and OPM), VA fully deployed the Career Technical Training 
Track (CTTT), an optional course designed for those seeking job-ready 
skills and industry-recognized credentials through short-term training 
programs rather than four-year degree programs. The initial CTTT 
curriculum guided Servicemembers through the decisions involved in 
identifying a technical career, determining credentialing requirements, 
researching and applying to training programs, exploring funding 
options (including VA benefits), and creating a plan for success.
    As a result of a full review of VA's transition curriculum in 2015, 
enhancements were made to the VA Benefits I and II Briefings to include 
modules on education, training and upskilling, economic opportunities, 
estate planning, housing, and health care, as well as demonstrations of 
eBenefits and the Veterans Employment Center<SUP>TM</SUP>. The 2015 
revisions better align the information presented into logical 
categories, versus the previous alignment to VA business lines.
    Additionally, VA enhanced the CTTT, in collaboration with our 
interagency partners, in 2015 to provide Servicemembers an opportunity 
to utilize assessment tools to determine possible employment/career 
direction; conduct labor-market research; learn about upskilling 
opportunities; and make a plan for a career.
    Last fiscal year, 194,910 people attended over 7,500 VA Benefits I 
and II Briefings; and 7,745 people attended 858 CTTT briefings. VA 
attendance numbers are based on voluntary, non-personally identifiable 
information collection at the event site. The attendance database of 
record is maintained by DOD.
    VA and its partner agencies also developed a virtual TAP 
curriculum, hosted on the DOD Joint Knowledge Online Web site that 
enables Servicemembers, Veterans and their families to access the 
curriculum from remote locations. Participants can access the courses 
and review the training at their preferred pace. VA also worked with 
the Army to deliver virtual briefings via live-meeting sessions to 
Servicemembers deployed to remote locations without access to VA 
benefits advisors.
VA Capstone Support
    Capstone is intended to serve as a standardized and comprehensive 
end-of-career experience to validate, verify, and bolster the 
transition training and other services that prepare Servicemembers for 
civilian careers. As part of Capstone, VA assigns a benefits advisor to 
each military installation to receive warm handovers from DOD for those 
Servicemembers who do not meet career readiness standards or are at 
risk for homelessness so that VA can connect them to assistance, such 
as additional information on compensation, educational benefits, or 
career counseling. Career readiness standards are verified by the 
Military Services, and attendance is tracked by DOD and reported to 
partnering agencies on a quarterly basis. During the warm handover, the 
Services verify that Servicemembers previously completed the VA 
benefits briefings. Benefits advisors welcome Servicemembers to the VA 
community and provide local points of contact for future assistance and 
issues. Through the Capstone process, VA is working with its 
interagency partners to create appropriate synergies to ensure that 
Servicemembers who are at-risk for larger issues, such as homelessness, 
are connected to the right resources prior to separation.
VA Military Life Cycle (MLC) Overview
    Currently, individual assistance is provided by VA in one-on-one 
MLC sessions. These sessions involve answering any specific questions 
that may arise after completing VA benefits briefings and assisting 
with online benefits applications. VA benefits advisors also connect 
Servicemembers who need additional support in filing their disability 
claims or accessing other VA services with a Veterans Service 
Organization or VA representative at one of our VA regional offices, VA 
medical centers, Vet Centers, or the National Call Center. Individual 
transition support also includes services to Servicemembers who are 
wounded, ill, or injured, or who may not be physically capable of 
sitting through the entire six-hour VA benefits briefings.
    The MLC transition model capitalizes on military training and 
development opportunities and leverages TAP offerings to ensure 
Servicemembers are successful throughout their military and post-
military careers. MLCs will be expanded across a series of subject 
matter areas in the near future to best support the needs of military 
members and their families.
                   measuring the quality of briefings
    The interagency TAP evaluation strategy is a year-round process 
that involves collaboration among all stakeholders, culminating in 
annual reviews of the TAP curriculum, evaluation methods, and 
processes. Interagency performance measures are reported monthly on a 
staggered schedule to the SSG, and interagency staff assistance visits 
are conducted throughout the year and briefed to the EC quarterly.
    In addition to the interagency TAP evaluation strategy, VA is 
aggressively implementing a comprehensive quality assurance (QA) 
program to ensure the TAP curriculum and the performance of VA benefits 
advisors meet the highest standards. The QA program sets a framework 
for continuous monitoring that includes oversight visits conducted by 
VA to ensure evaluation of all activities carried out in support of 
TAP. In FY 2015, VA and its contractors conducted 145 QA visits at 89 
sites. Of these 145 QA visits, contractors performed 91 evaluations and 
VA conducted the other 54. In order to improve the quality assurance 
program for VA delivery of TAP, VA is working multiple acquisitions in 
FY 2016. The work will be completed through two contracts to separate 
vendors: one for transition, employment, and economic impact, and the 
other to provide independent verification and validation, as well as 
performance management.
    VA benefits advisors complete a rigorous training program before 
being placed on the briefing rotation. Through a ``Train the Trainer'' 
system, master trainers provide expertise, training, oversight, and 
assistance to new VA benefits advisors. VA Benefits I and II training 
consists of pre-requisite study of content knowledge and 80 hours of 
classroom-based instruction. VA benefits advisors are required to 
demonstrate their proficiency of the materials and delivery of 
briefings. To assess VA benefits advisors' performance, VA developed an 
evaluation rubric that measures proficiency, knowledge of content, 
facilitation and platform skills, professionalism, and classroom 
preparation. Additionally, the CTTT training is highly interactive and 
consists of 120 hours of content study and practice.
    DOD currently collects feedback from Servicemembers through the 
interagency Transition GPS participant assessment. This assessment 
collects demographic data and includes questions assessing the quality 
of the course curriculum, course materials, facilitators, and 
facilities. Participants also answer questions for VA to gauge their 
intent to use the information learned, confidence derived from the 
modules/tracks, and self-assessed knowledge gain. In the Transition GPS 
participant assessments for the first and second quarters of FY 2015, 
several VA benefits advisors were personally praised for their efforts.
    VA is listening to Servicemembers' needs and responding to 
feedback. Through Transition GPS participant assessment feedback, 
quality assurance visits, and direct feedback from our trainers, VA has 
an agile curriculum improvement process that allows us to make 
immediate and on-going enhancements to the Benefits I, Benefits II, and 
CTTT curricula and delivery.
           the veterans employment center<SUP>TM</SUP> (vec)
    VA, DOL, DOD, ED, SBA, and OPM collaborated to design, develop, and 
incorporate features of existing online employment tools into the 
VEC<SUP>TM</SUP>. The VEC<SUP>TM</SUP> consolidates several job 
assistance tool sites, bringing together real job opportunities with 
technology to translate military skills into plain language and allow 
users to build an online profile that can be shared in real time with 
employers who have made a public commitment to hire Veterans. The 
VEC<SUP>TM</SUP> platform is not tied to any vendor, commercial entity, 
or service, but endeavors to integrate tools, resources, and programs 
from across Federal agencies and vetted public-private partnerships, at 
no cost to Federal agencies, employers, Veterans, military, or their 
families.
    The site now averages over 1.2 million page views each month. 
Employers have made publicly displayed commitments to hire more than 
740,000 individuals from the military community. These numbers reflect 
the national commitment by small, medium, and large employers across 
America. VA is continuing to work with its partner agencies and 
Veterans to identify ways to best use these tools and technologies.
            veterans economic communities initiative (veci)
    To complement the goals of TAP and as part of Secretary McDonald's 
MyVA initiative, VA launched the Veterans Economic Communities 
Initiative or VECI in May 2015. VECI's goal is to promote local 
collaboration, dialog, and partnerships among organizations that serve 
transitioning Servicemembers, Veterans, and their families.
    Economic liaisons in each VECI community collaborate and partner 
with government leaders, businesses, policy experts, educational 
institutions, and nonprofit organizations to build an integrated 
network of support and resources and maximize impact to improve 
outcomes for Veterans and their families.
    Although VECI is for Veterans of all eras, the program places 
emphasis on Post-9/11 transitioning Servicemembers. It is designed to 
connect economic liaisons into the benefits advisor network across the 
country. Additionally, economic liaisons work closely with their 
counterparts across agencies, including DOL, SBA, and DOD, to 
coordinate services with a unified approach to supporting Veterans and 
their families.
    On September 30, 2015, VA announced expansion to 25 new VECI 
communities in early 2016, bringing the total to 50 U.S. metropolitan 
statistical areas. VECI communities were selected based on 
transitioning Servicemember and Post-9/11 Veteran populations, 
unemployment rates, employment opportunities and job growth, and 
education spending. The response to our VECI campaign from our Nation's 
businesses has been encouraging, and in many cases enthusiastic.
    The VECI campaign launched two new innovative education initiatives 
for transitioning Servicemembers and Veterans: Learning Hubs and 
Accelerated Learning Program (ALP) pilots.
    VA launched five Learning Hub pilots across the country in 
partnership with Coursera, the American Red Cross, and The Mission 
Continues, to offer no-cost learning opportunities to transitioning 
Servicemembers and Veterans. VA Learning Hubs offer the opportunity to 
learn online and in the classroom, listen to presentations from local 
subject matter experts, and network with leaders in the community. Upon 
successful completion of the program, participants may elect to receive 
one free verified certificate issued by Coursera. VA Learning Hubs will 
expand to 28 communities total this calendar year.
    VA also launched an ALP pilot this summer, with seven courses 
focusing on building skills and certifications needed to begin or 
advance in careers in information technology (IT), as part of the 
President's TechHire initiative. ALPs are typically completed in fewer 
than six months; provide opportunities to learn online, in the 
classroom, or in a blended format; and lead to industry-recognized 
certifications. Under an innovative pay for success concept, the ALP 
pilots incentivize and compensate training providers based on 
graduation and career-placement rates. We are testing this model to 
determine if it could be used more broadly to train Veterans in other 
industries and sectors. Launched in August 2015, VA received more than 
1,000 applications on the first day and approximately 3,500 
applications in the first week.
    As an important component of the VECI campaign, VA held its 
inaugural Policy Academy from September 29-30 in Orange County, 
California. The event had more than 450 registrants. Policy Academies 
serve as a forum for local, regional, and national partners to engage 
in dialog about Veteran economic issues; receive interactive training 
on national philanthropic and fact-based best practices; and hear from 
leaders in the field about emerging data, trends, and opportunities.
    To measure the success of VECI, VA will leverage key strategies for 
improving economic outcomes. These include Veteran-focused community 
engagement activities, employment interest via the VEC<SUP>TM</SUP>, 
and review of education outcomes such as VA Learning Hubs and programs 
that leverage the GI Bill.
    Each of these strategies helps VA to measure its progress toward 
achieving national goals for Veteran employment and education 
attainment, and as each VECI matures, will evolve into more granular 
core performance metrics.
    Since its national launch in May, the VECI campaign has already 
placed economic liaisons in 25 communities across the country. Liaisons 
are deeply rooted in their local networks and based out of locations in 
the community. VA is aggressively pursuing additional innovative 
opportunities to increase public and private partnerships in 
communities via no-cost partnerships. VECI has also enabled VA to work 
with Veteran-focused foundations to identify and increase opportunities 
to ease reintegration for Veterans and their families nationally.
                               conclusion
    VA continues to work with partner agencies to assist with the 
transition of Servicemembers from military to civilian life. TAP is 
designed to give Servicemembers and their families an opportunity to 
learn more about the benefits they have earned, identify benefits that 
fit their individual needs, and equip them with a plan for success 
outside of the military.
    VA fully supports the efforts of the Administration and Congress to 
ensure transitioning Servicemembers are ready for civilian life upon 
separation from the military and achieve strong economic outcomes, and 
we will continue to implement initiatives to achieve this goal.

    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or other Members of the Committee may have.

    Chairman Isakson. Well, thank you for your testimony and 
thank you again for being here today.
    In the second panel, The Coca-Cola Company and Starbucks 
are going to testify, and they are two good corporate examples 
of many corporations in America that are going out of their way 
to provide access to quality jobs for our veterans. Home Depot 
is another. Four out of the last 5 years has won the VA's award 
in terms of its employment of returning veterans.
    In Coca-Cola's testimony--I want to read this question so I 
get it right--it suggests that in their written testimony the 
use of various contractors to carry out the TAP program causes 
issues for veteran-friendly companies wishing to develop 
relationships with contractors, in part because there is no 
central point of contact for a national company. Similarly, 
Coca-Cola's testimony reflects that without a central point of 
contact, they may have to contact each TAP office individually 
to provide them with a job listing.
    Do you have any suggestions as to how we might address this 
problem? And I will ask all of you to comment on it, if you 
will, starting with Ms. Kelly.
    Ms. Kelly. The TAP at the installations are staffed by 
Federal employees for the most part, and so I am not sure that 
I understand the disconnect between contracted staff and 
relationships with private employers. I am not sure I 
understand that.
    Chairman Isakson. I think the question suggests--and the 
Coca-Cola person can certainly correct me if I am wrong here, 
but there is not a central point of contact for a national 
company to go to get all the TAP offices without going to each 
one of them individually. Is that correct? I am getting a lot 
of nodding heads back there.
    Ms. Kelly. Yes, OK. Actually, the central point of contact 
within DOD would be the Transition to Veterans Program Office. 
We actually have a function, public and private engagement. But 
I would say that the Secretary of Defense, Secretary Hagel at 
the time, provided very detailed guidance to the service 
Secretaries and to the chiefs as well as to the Chairman to 
give them guidance about bringing non-Federal entities onto the 
installations, gave them very detailed guidance, and encouraged 
them very strongly to allow those non-Federal entities onto the 
installations. He even talked about space, equipment, et 
cetera. He sent a similar memo to those same folks in reference 
to veterans service organizations and military service 
organizations.
    There has been a strong push by DOD leadership to allow 
those entities access to the installations, but it rests with 
those installation commanders, those garrison commanders, as to 
who they allow onto their installations. We honor their 
judgment in reference to security issues as well as what are 
the services that their particular populations on their 
installations need. Those vary across the board.
    At the most senior leader level of DOD, that guidance was 
issued, but the final decisions do rest with the installation 
commanders.
    At our level, we have established some very strong--we have 
a Memorandum of Understanding with the Chamber of Commerce 
Hiring Our Heroes, and we are working with other private 
entities in reference to SkillBridge to bring training to the 
installations. So, we would serve--TVPO serves as that first 
entry point to help anyone navigate through some of those 
issues.
    Chairman Isakson. Is there a central contact where a 
national company like Coca-Cola or Pepsi-Cola or Home Depot or 
Starbucks can make one call and the information gets 
disseminated out to all the TAP offices?
    Ms. Kelly. Yes, that would be my office. We would send that 
out to the services, which we do on a regular basis.
    Chairman Isakson. I hope you will get with the Coke people 
who are here today so you all can clear up that difference so 
we make sure that----
    Ms. Kelly. I would be happy to do that.
    Chairman Isakson. Mr. Coy, do you have any comment?
    Mr. Coy. Just a couple of things to add, Senator. We would 
agree with Dr. Kelly that a lot of this, in terms of 
installations and getting on installations, goes through her 
office and the services themselves, recognizing--I think one of 
the comments in terms of contractors, unless I am mistaken, is 
our benefits advisors, the people that deliver the TAP 
briefings for VA benefits, are, in fact, contractors. And I do 
not know if that is what they are referring to. But they are 
there to deliver the benefits briefings.
    The central point probably as far as the VA goes, I would 
suggest there are two things that are there. One is--or three, 
actually. One is our central office, and we certainly work with 
Dr. Kelly and Secretary Gerton a lot to make sure that we are 
all on the same page with some of these things. And we have the 
ability to get information out to all of our benefits advisors 
pretty readily and easily.
    We also have the Veterans Employment Center, which is where 
employers can make commitments, public commitments, to hiring 
veterans and then track that commitment in terms of how many 
veterans they hire and placing their company and name onto the 
Veterans Employment Center.
    Finally, as I mentioned briefly in my opening remarks, we 
have the Veterans Economic Communities Initiative, which is in 
part to help do this exact same thing--in other words, coalesce 
local businesses and companies as well as educators, State and 
local governments, and the like to begin that collaboration and 
make sure that our veterans in those communities are well 
served.
    Chairman Isakson. Thank you. My time is up. I will go to 
Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Dr. Kelly, as I mentioned, I think that there needs to be a 
particularly energetic focus on our women veterans. Over 
280,000 women have served in the post-9/11 era, and women 
constitute about 20 percent of the new recruits going into our 
military. So, by 2020, about 10 percent of all our veterans 
will be women. I would like to know what actions the Department 
of Defense is taking to ensure that the Transition Assurance 
Program and other programs are taking into account the unique 
needs of women, whether you think, in fact, there are unique 
needs of women transitioning into civilian life and providing 
that kind of support for them that they need.
    Ms. Kelly. We talked about this need extensively when we 
were conducting the task force, the Veterans Employment 
Initiative Task Force, with all of the Federal partners here as 
well as the service representatives. We started to go down that 
road of looking at specific populations and specific issues, 
and we were cautioned and asked not to do that by the female 
servicemembers, the women servicemembers, as well as veterans. 
And their request to us was to ``please do not connote us as 
having separate issues aside from our male counterparts. We are 
making headway in the military population and bringing our 
voices to bear in that military organization. Please do not 
connote that we have special issues that separate us from our 
male counterparts.''
    We honored that because we heard that several times, in 
fact, rather emotionally at a couple of points. But we 
certainly understand that there are some skills that as women 
move into the workforce, particularly negotiating salaries, 
negotiating compensation packages, there may be some issues 
there. We are relying upon our partners with DOL to highlight 
those very same issues but in the DOL Employment Workshop as a 
whole.
    We are not calling out that population and special issues. 
We do this as a military population across the board and 
allow----
    Senator Blumenthal. I understand that point. I am just--and 
I apologize for interrupting, but I get your point. I fully 
understand that women want to be treated equally and viewed as 
equal partners, both in the military and transitioning out of 
it. The hard fact is that very often there is discrimination 
based on a variety of factors. One of them is gender. Some of 
us feel, as was mentioned during our last meeting, that, in 
fact, there may be discrimination against veterans generally in 
the workplace by some employers. I am going to be advocating a 
measure, as I did last session, that forbids such 
discrimination. In terms of assisting women when they face such 
discrimination, what is the Department of Defense or the VA 
doing?
    Ms. Kelly. I get I need some clarification on 
discrimination in what aspect, sir.
    Senator Blumenthal. Well, the preconceptions or biases or 
gender-based stereotypes that may exist among some employers--
and the military is trying to eradicate them within its ranks--
may stymie women in achieving that kind of opportunity. The 
Department of Defense, it seems to me, can help prepare them 
and help eliminate that kind of discrimination if it exists.
    Ms. Kelly. Well, certainly as we are moving them into 
transition and helping them prepare for transition, we are 
certainly looking across the scope in multiple areas, from 
employment to the use of their VA benefits to access to VA 
benefits to talking to them about how to apply their Military 
Occupational Specialties (MOSs) to that civilian labor market, 
helping them explore that civilian labor market. There are 
pieces of transition preparation that we are helping them 
address and giving them instruction, but, again, we are doing 
that across the board and not specifically identifying specific 
skills for women military members or male military members.
    I do not know if my partners would like to expand in their 
curriculums.
    Senator Blumenthal. Mr. Coy?
    Mr. Coy. I will just add one or two key points.
    First, VA has a program office, and we would be happy to 
talk a little bit about that. But a couple of the other things 
that we have done just most recently is during our curriculum 
update this past summer, we upgraded our curriculum, updated it 
to include specific issues that women face as well. Our 
Benefits I and II briefs are reflective of those changes, as 
well our benefits advisors. As I mentioned, we have over 300 
benefits advisors; 86 percent of our benefits advisors are 
veterans, and of those veterans, 30 percent of them are women. 
We want to make sure that we have women at the forefront who 
are women veterans who can see and understand those particular 
issues.
    The last thing I would probably mention is we have a couple 
of public-private partnerships that reflects very specifically 
on women. One is for women with children who are at risk of 
homelessness, and we are working with an organization that can 
help that. We are also working with the Tragedy Assistance 
Program for Survivors for those folks and helping them identify 
Fry Scholarships for the children and spouses of servicemembers 
who have died in the line of duty.
    I do not want to steal any time from Secretary Gerton. She 
had probably a few things as well.
    Ms. Gerton. I hope I have a minute.
    Chairman Isakson. Just a minute.
    Ms. Gerton. As a female veteran myself, I can appreciate 
your interest in this topic. DOL VETS has a number of programs 
focused on women veterans and employment. We also have a women 
veterans program office within our agency that focuses on the 
messaging an outreach to women veterans and women veterans 
support organizations. Our Federal Advisory Committee over the 
last 2 years has had us focus specifically on the information 
needs for the female veteran community, and we are looking 
specifically at focused content in the DOL Employment Workshop.
    Our Chief Evaluator's Office recently completed a study 
that looked at the value of services provided through the Jobs 
for Veterans State Grants (JVSG) program and discovered with 
significant results that women who participated--women veterans 
who used the JVSG services have a faster time to first service 
and a smaller gender wage gap than women who do not take 
advantage of those services. We also----
    Senator Blumenthal. The Chairman is going to reprimand me 
if I do not ask you to please, if you would, submit these 
responses in writing because I do not want to take up time from 
my colleagues, and include any statistics that you may have on 
different unemployment rates among women veterans compared to 
men. Again, I apologize for interrupting, but I want to give my 
colleagues a chance to pursue their questions.
    [The information referred to follows:]
    Response to Request Arising During the Hearing by Hon. Richard 
 Blumenthal to Teresa Gerton, Deputy Assistant Secretary for Veterans' 
       Employment and Training Service, U.S. Department of Labor
    Response. Male and female veteran populations are too 
demographically different for practical comparisons of unemployment 
rates. Compared to the male veteran population, the women veteran 
population is younger, more racially and ethnically diverse, and more 
highly educated. Women veterans are more likely than male veterans to 
be in the civilian workforce at all, and to be in the subpopulations 
that have higher unemployment rates, such as veterans currently 
enrolled in school, veterans under 35 years old, and veterans who 
served in Gulf War II. While women veterans often experience the same 
transition challenges as male veterans, they are otherwise very similar 
to women non-veterans in the workforce. Differences in the annual 
average unemployment rates for all women veterans and all women non-
veterans were not statistically significant in 2013 or 2014. Many of 
the employment challenges women veterans face also affect the larger 
working women population.
    In Program Year (PY) 2014 (July 1, 2014 through June 30, 2015), 14% 
of the veterans served through JVSG were women, an increase from 13% in 
PY 2013. A recent independent data analysis commissioned by the 
Department's Chief Evaluation Office found that JVSG services are 
associated with better outcomes, specifically for women veterans. Every 
woman veteran has different experiences and needs, and JVSG services 
are responsive to the diverse needs of each veteran. Women veterans who 
utilize these services experience higher entered employment rates and 
higher wages than their non-veteran female peers. The gender wage gap 
is also considerably smaller for women veterans served by JVSG than it 
is for non-veteran women, according to DOL research. It is critical 
that each woman veteran struggling with unemployment come to an 
American Job Center where she will meet one-on-one with a workforce 
development professional and receive personalized assistance, guidance, 
and support.
    While the needs of women veterans are considered more today than 
ever before in history, inconsistencies in the Code of Federal 
Regulations (CFR) may be inhibiting the Federal Governments' full 
capacity to serve them. One example of such an inconsistency is the 
definition of homelessness in 38 U.S.C. versus 42 U.S.C. On May 20, 
2009, President Obama signed the Homeless Emergency Assistance and 
Rapid Transition to Housing (HEARTH) Act of 2009, which amended the 
McKinney-Vento Homeless Assistance Act with substantial changes, 
including section 103(b) (42 U.S.C. 11302(b)):

        ``Domestic Violence and Other Dangerous or Life-Threatening 
        Conditions.--Notwithstanding any other provision of this 
        section, the Secretary shall consider to be homeless any 
        individual or family who is fleeing, or is attempting to flee, 
        domestic violence, dating violence, sexual assault, stalking, 
        or other dangerous or life-threatening conditions in the 
        individual's or family's current housing situation, including 
        where the health and safety of children are jeopardized, and 
        who have no other residence and lack the resources or support 
        networks to obtain other permanent housing.''

    This change, which disproportionately impacts women, was not 
included in 38 U.S.C. for Veteran's Benefits, enacted March 31, 2011. 
To correct this VETS has implemented policy to include 42 U.S.C. 
11302(b) in the definition of homelessness for VETS' programs. Veterans 
fleeing domestic violence are now considered to be homeless for the 
purpose of qualifying for JVSG intensive employment services. According 
to a recent Department of Labor (DOL) Chief Evaluation Office study, 
women veterans who utilized Jobs for Veterans State Grants (JVSG) 
services experienced higher entered employment and retention rates, 
higher wages, and smaller gender wage gap as compared to women non-
veterans utilizing comparable services.

    Senator Blumenthal. Thank you.
    Chairman Isakson. I thank the Ranking Member, and I think 
the more concise you can be in your answers, the more helpful 
it will be for us to get more questions from our Members.
    Senator Rounds.

        HON. MIKE ROUNDS, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Rounds. Thank you, Mr. Chairman. Recognizing that 
this is an interagency project and an interagency operation, I 
am just curious, when it comes time to talk about--as I 
understand it, it is a 5-day review that is provided, and there 
are a number of items that you go over with an individual 
before they leave the service. How much time is actually spent 
during that time period on the health benefits and the 
differences between benefits as being active versus post-active 
duty? Could you share with me how much time and what is gone 
over during that time period?
    Mr. Coy. I will be happy to jump on that, and then Ms. 
Cloud can elaborate. Our Benefits II briefing is principally 
about health care and health care benefits that they have 
earned and going through for veterans what exactly they are 
entitled to or not.
    Anything else to add?
    Ms. Cloud. I think what we have focused on specifically is 
not only talking about their eligibility at that point in time, 
but ensuring that they have got the resources online and they 
are familiar where they can follow up, especially from a health 
care eligibility perspective. We have also bolstered our female 
veteran resources as well to make sure that those issues are 
also addressed and a warm handover to the Center for Women 
Veterans referral page as well to make sure that those 
opportunities are also made available.
    Senator Rounds. Recognizing that there is a difference 
between the benefits provided for active duty versus post-
active duty, is there any explanation made or a heads up given 
in terms of the differences in the expectations for those 
individuals leaving full-time service?
    Ms. Cloud. We focused very keenly in our revision of this 
last curriculum to discuss what are the decisions that need to 
be made before transition, whether it is transferability of GI 
bill benefits, whether it is ensuring that a health assessment 
is conducted in a timely manner, service-connected disabled 
benefits submission. We have bolstered that information and 
have been very fortunate to get to the left of transition with 
the Military Life Cycle support of the services.
    We have also customized all of our training to the Guard 
and Reserve because, quite frankly, there is a tremendous 
amount of translation that does not necessarily go hand in 
glove to the Guard and Reserve community, and so we have 
completely revitalize Benefits I and II in our technical 
training track to meet the needs of the Guard and Reserve 
community.
    Senator Rounds. So, there is a separate track for Guard and 
Reserve versus ``regular'' armed services, if I could use that 
term.
    Ms. Cloud. Correct. It is streamlined a little bit more, 
but it is primarily making sure that all the benefits we are 
discussing to the Guard and Reserve are relevant to them, and 
it was with their input that we revised that.
    Senator Rounds. In a lot of cases, when an individual 
leaves full-time service, they are not only--they are leaving 
the location as well in many cases, and they are going to 
another part of the country, a different State. Is there any 
discussion about transitioning into different States and the 
different types of benefits that might be available from State 
to State or where to go to get information State to State?
    Ms. Cloud. I would defer to the Department of Labor who 
does, I think, a very good job of doing that. But in our 
Veterans Employment Center, we do highlight that their local is 
national or global and where they can find those resources, and 
then we make sure that they are familiar with the American Jobs 
Center opportunity.
    Ms. Gerton. That is exactly one of the key points that we 
cover in the Employment Workshop, not only accessing employment 
support where they are in their military assignment, near that 
installation, but also connecting them to the Job Center that 
is nearest where they plan to relocate and can actually pass 
them across those centers as they transition to make sure that 
there is no drop in support for their employment counseling and 
services.
    Senator Rounds. Thank you. Yes, sir?
    Mr. Coy. I would just add one other thing. We also have our 
Integrated Disability Evaluation System (IDES) community, and 
what IDES does is put our counselors and VA employees on 
military bases such that when a servicemember is transitioning 
out and has a physical issue, that we identify that early on 
and whether or not it is in our voc rehab program or in our 
disability claims program. We also have that, just very 
briefly.
    Senator Rounds. Thank you.
    Ms. Kelly. If I might add, in our effort to push transition 
preparation across the Military Life Cycle, at the first 
permanent duty station every servicemember now registers in 
VA's eBenefits, so they are already familiar with that web site 
and start to familiarize themselves with those benefits.
    The other piece that I think you would be interested in is 
that one of the Career Readiness Standards is that every 
servicemember actually has a conversation with the Reserve 
recruiter, the Guard recruiter, and talks about those very 
things that you were discussing.
    Senator Rounds. Very good. Thank you.
    Thank you, Mr. Chairman.
    Chairman Isakson. Senator Tester.

           HON. JON TESTER, U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. Thank you for 
having this hearing.
    The first question is for you, Dr. Kelly. What percentage 
of servicemen go through the TAP program?
    Ms. Kelly. The VOW compliance----
    Senator Tester. No, no, no. What percentage of military 
folks go through--if you do not know, you can get back to me.
    Ms. Kelly. No; I do know.
    Senator Tester. OK. Then tell me.
    Ms. Kelly. But I am just trying to clarify for you. The TAP 
program was mandated by the VOW Act, so we capture that data--
--
    Senator Tester. OK. Stop. Just stop. I am not--I love you, 
but----
    Ms. Kelly. 95 percent.
    Senator Tester [continuing]. I have done the same thing you 
are doing.
    Ms. Kelly. 95 percent of the eligible service----
    Senator Tester. OK. Thank you very much. Are they more 
prepared today than they were 10 years ago for the transition?
    Ms. Kelly. Absolutely.
    Senator Tester. They are more prepared.
    Ms. Kelly. They are, sir.
    Senator Tester. Where would you say the gaps are right now 
in the TAP program?
    Ms. Kelly. Where the gaps are I think goes back to some of 
the discussions that were highlighted before. We have 
preparation in place. We have an evaluation strategy. We have 
pieces in place. But the last piece that is still to be done is 
to institutionalize the pipeline into the national work.
    Senator Tester. OK.
    Ms. Kelly. I think all of us are working on that.
    Senator Tester. OK. This is for your, Dr. Kelly and Mr. 
Coy. What is being done to bring families in the process to 
educate--now, what I am talking about specifically is things 
like TBI, PTSD, or you have issues of veterans coming out. What 
is being done to bring the families into the program? Who wants 
to start? Go ahead.
    Mr. Coy. I will start very quickly. We invite spouses into 
the benefits briefing to make sure that the spouses are also 
fully aware of those kinds of things as well.
    Senator Tester. And what kind of percentage participation 
are you getting?
    Mr. Coy. Right now----
    Senator Tester. With the spouses, I am talking about.
    Mr. Coy. How many spouses comes?
    Senator Tester. Showing up.
    Mr. Coy. We pretty much collect data with respect to the 
total number of people that are in the classroom and not so 
much who is a spouse and who is not.
    Senator Tester. OK.
    Ms. Kelly. The spouse issue was one of the compelling 
reasons why we put the entire curriculum on the DOL web site as 
well as VA web site and on Joint Knowledge Online (JKO).
    Senator Tester. OK, good.
    Ms. Kelly. We wanted them to have access to that.
    Senator Tester. I think it is absolutely critical that the 
spouses be brought in. I do not need to tell you the statistics 
on PTSD.
    Ms. Gerton, you talked about 3.6 percent unemployment, 
which is outstanding. Do you have it split down by men and 
women?
    Ms. Gerton. Yes, sir, I do. For women, it was 4.5 percent 
for all age groups compared to 3.5 percent for men. So, the 
total veteran population over the age of 18 was 3.6 percent.
    Senator Tester. OK. There is a percent difference, and some 
would say that is significant, some would say it is not. Have 
you checked to see why that is?
    Ms. Gerton. Sir, we have spent a lot of time looking at 
this, and we believe that the most appropriate comparison for 
women veterans is actually to women non-veterans. They are more 
like their female non-veteran contemporaries than they are 
their male veteran population. The demographics of the group is 
that women veterans tend to be younger, more diverse, more 
likely to enroll in higher education. The male veteran 
population tends to skew very old, and so the most appropriate 
comparison for women veterans and how they behave relative to 
employment over their life cycle is to women non-veterans. And 
for the last 2 years, there has been no significant difference 
in the employment rates between those two groups.
    Senator Tester. OK. I want to turn to electronic medical 
records. This has been something we have talked about since I 
got here 9 years ago, so this is for Mr. Coy and Ms. Kelly. 
Where are we at on electronic health records and the transition 
between DOD and VA?
    Ms. Kelly. Well, the transfer of the electronic health 
records from active duty into veteran status is part of the 
transition process. It is not part of the actual Transition 
Assistance Program.
    Senator Tester. OK.
    Ms. Kelly. I will bring that to Health Affairs.
    Senator Tester. OK. Maybe you cannot answer this, but is 
there a seamless transition between the DOD to the VA with 
electronic health care records now?
    Ms. Kelly. Mr. Coy?
    Mr. Coy. I am not versed in being able to do that. I have 
anecdotal data, but I would rather get back to you in writing, 
if I could.
    Senator Tester. I was just going to say, if you could get 
back to me with that, that would be great.
    [The information referred to follows:]
 Response to Request Arising During the Hearing by Hon. Jon Tester to 
               U.S. Department of Veterans Affairs Panel
    Response. VA is committed to improving the Veteran experience 
through health data interoperability with DOD. On April 8, 2016, VA 
certified to the Congress, along with DOD, that we have become fully 
interoperable, eight months ahead of the 2014 NDAA (713(b)(1)) 
requirement, which mandated VA/DOD Interoperability by December 31, 
2016. Certification of VA and DOD interoperability documents the 
seamless integration of DOD and VA electronic health record data, 
achieving improved visibility of health status for Veterans, 
Servicemembers, and their dependents. Currently, the Joint Legacy 
Viewer (JLV) provides an integrated read-only display of VA, DOD, and 
private sector health data for both Departments in near real time, and 
is enhancing the experience for patients and frontline health care 
teams. Finally, it is important to note that while health data 
interoperability is important, it is only one aspect of having a full 
data profile to streamline and unify the Veteran experience.

    Senator Tester. One last question. American Indians serve 
in the armed services in a greater number than any other 
minority. Are there any efforts specifically to cater to that 
population when it comes to transition from DOD to VA?
    Ms. Kelly. Not on the DOD side.
    Senator Tester. OK.
    Mr. Coy. Within VA we have an active program to help with 
tribal entities across the board. In our VA home loan program, 
for example, we have been growing our memorandums of 
understanding with tribal leaders. As you can well imagine, 
there are some unique circumstances with being on reservations 
and how to enter into the VA home loan program, and we are 
reaching out to do those kinds of things.
    Senator Tester. OK. And from a health care standpoint, do 
you do anything?
    Mr. Coy. I would have to get back to you on that. In terms 
of health care or----
    Senator Tester. In terms of health care and access for 
Native Americans.
    Mr. Coy. I would be happy to get back to you on that.
    Senator Tester. Actually, the point is more as coming out 
of the military, having that conversation.
    [The information referred to follows:]
 Response to Request Arising During the Hearing by Hon. Jon Tester to 
               U.S. Department of Veterans Affairs Panel
    Response. In FY 2015, VA networks and facilities participated in 
over 400 outreach events and efforts focused on American Indian and 
Alaska Native (AI/AN) Veterans across the country. These efforts 
impacted an estimated total of 34,000 AI/AN Veterans, and encouraged 
them, including the recently discharged, to access VA benefits and 
services. Examples include outreach ``Stand Downs'' where local VA 
facilities provide temporary targeted enrollment to rural communities, 
and VA participation in tribal gatherings.
    Additionally, the Health Equity Environmental Scan conducted by the 
VHA Office of Health Equity (OHE) yielded 20 projects that specifically 
impacted AI/AN Veterans. OHE conducted a VHA-wide environmental scan 
focused on health equity, health disparities, and/or vulnerable Veteran 
populations. The purpose of the Health Equity Environmental Scan was to 
identify all health equity related programs, pilots, quality 
improvement initiatives, research protocols and/or resource materials 
underway at the VHA in 2015 or completed in the last year. 118 VAMCs 
and 26 VHACO program offices participated. Additionally, 11 VISNs had 
VISN-wide projects addressing health equity, disparities, and/or 
vulnerable populations. Among these, 20 projects specifically impacted 
Native American Veterans.
    Please see the following list for more details.

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Tester. I would just say one other thing, and 
hopefully the second panel will be able to address this. It 
goes to the Chairman's question. When he said there is no 
single point, everybody back there was nodding their head there 
is no single point. There needs to be a single point. And that 
is all. Thank you all.
    Chairman Isakson. Regarding your question, Senator Tester, 
the compatibility of electronic medical records between DOD and 
the VA is limited at best. One of the things we are going to 
focus on in this Committee in the first 6 months of next year, 
as we talk about the consolidation of Veterans Choice, is also 
making sure the electronic medical records transfer from DOD to 
Veterans Affairs is as seamless and as accurate as possible.
    Senator Tester. Mr. Chairman, if I might, when Senator 
Murray was Chairman of this Committee, we had this same 
conversation. This is, I have got to tell you, ridiculous that 
we do not have seamless transition and seamless across-the-
board electronic medical records between the DOD and the VA. I 
am telling you there is no excuse for this.
    Chairman Isakson. Which is why we are going to continue to 
talk about it until they do something about it.
    Senator Cassidy. Dr. Cassidy.

         HON. BILL CASSIDY, U.S. SENATOR FROM LOUISIANA

    Senator Cassidy. Ms. Gerton, great statistics. I mean, if 
our concern is about veterans' unemployment rate, that is very 
promising, so thank you all for the work.
    When I speak to veterans, though, it is really an 
interesting conversation. They are so alive in the military, 
and one fellow said, ``When I was in, I was a battle commander. 
When I was out, I was an assistant manager.'' He actually 
attempted to commit suicide because there was kind of this loss 
of purpose.
    Now, I think we can all relate to that. Purpose means as 
much as a job. I am a physician. You mentioned that. I am aware 
that those who are trained as Emergency Medical Technicians 
(EMTs) in the military come out with a great skill set, but 
which a State will not necessarily recognize. Perhaps the 
adrenalin of a civilian ambulance job will never replace that 
of the military, but, nonetheless, it is a job with great 
meaning.
    I have a vested interest in asking this. I have introduced 
S. 453, the Veteran Emergency Medical Technician Support Act, 
that would hopefully help these EMTs transition.
    Mr. Coy, I guess my question is for you. My bill has not 
passed. Is there anything being done to help those EMTs--or 
anyone can answer this--to accelerate or facilitate their 
licensing and certification?
    Mr. Coy. I think there is a number of things, but I would 
like to defer to Secretary Gerton, who I know has taken a point 
on much of this.
    Ms. Gerton. Thank you. The Department of Labor has just 
completed a 2-year study with the National Governors 
Association on exactly this point of recognizing veteran 
experience and training toward civilian licenses, and EMTs, in 
fact, were one of the categories that were studied. The report 
will come out probably at the end of this year, the beginning 
of next year, with road maps for each State to follow and how 
to bring all of these resources together. We are working very 
closely with States to help them recognize the value and 
accreditation of DOD's training and experience so that 
servicemembers come out with their Joint Services Transcript 
that accredits actually in ways that States can recognize the 
military training and experience and assignments. We have also 
worked--and the report is great in laying out the steps to go 
through.
    What States can do both with their community college 
programs and their licensing and credentialing boards to narrow 
in and identify the gaps so that servicemembers who have had a 
great deal of experience in particular skills--and EMT is a 
great one--can know exactly what the gap is between their 
military experience, regardless of when they separated, whether 
it is first term or career, understand that gap in the State, 
and then focus on their training so that they meet exactly 
those State credentials.
    Senator Cassidy. Let me ask, is there--obviously, this will 
to some extent involve State licensing boards.
    Ms. Gerton. Absolutely.
    Senator Cassidy. Is model State legislation being drafted 
which different States could then adapt. As a former State 
Senator, I know model legislation is used in a variety of 
subjects.
    Ms. Gerton. Sir, I am not aware at this point that we have 
drafted model State legislation, but we have worked with a 
number of the States who participated, and they are crafting 
legislation within their States, and we hope to broaden that 
through the NGA. And I know that Secretary Michaud is very 
interested in working with the National Association of State 
Legislatures on this as well.
    Senator Cassidy. OK. Dr. Kelly, we have heard previous 
testimony about the problem of substance abuse among veterans, 
and I know from employers, a leading reason why someone is not 
given a job is they fail to pass a drug test. Now, that is 
confidential, so I guess the substance of my question is: To 
what degree can we--and this can be, again, addressed to you, 
but perhaps to another: Is there any way to identify those 
veterans who for whatever reason are serially unemployable as 
potentially having the inability to pass a drug test as a 
reason why they are serially unemployable and using that as a 
means to intervene to hopefully help them with their issue, 
with their substance issue? Do you follow what I am saying?
    Ms. Kelly. I would have to pass that question on for those 
veterans to both VA and my DOL colleagues also.
    Mr. Coy. I could not agree more that it is a vexing problem 
in terms of if you had a substance abuse problem certainly in 
the military and that being transferred over into your civilian 
environment. Some of the things that we are trying to identify 
during the transition process is you have heard things like 
``warm handover,'' and so if there is a medical issue that the 
services believe they have identified with that servicemember--
--
    Senator Cassidy. Can I ask you a question?
    Mr. Coy. Yes, sir.
    Senator Cassidy. Upon separation, is there some assessment 
made of whether or not the veteran has an addiction problem? Is 
there a random drug screen of the veteran within a month--
excuse me, the soon-to-be veteran that currently--you see where 
I am going with that.
    Mr. Coy. Yes, sir. The short answer is I do not know if 
they do a routine drug test within DOD to servicemembers before 
they get out. What I do know is that during the Capstone event, 
that individual sits down with each of the servicemembers and 
identifies those kinds of things, and they are passed on to VA 
if, in fact, there is a specific issue that we can address or 
at least refer the individual to.
    Senator Cassidy. I spoke of separation from the military, 
but I guess intake into the VA would be the next opportunity.
    Mr. Coy. Absolutely.
    Senator Cassidy. Is it routine for a drug screen to be done 
at that point?
    Mr. Coy. It is not my understanding that there is, but I 
would be happy to get back to you on that; although it is my 
understanding that there is not specifically----
    Senator Cassidy. Well, intuitively--I am over time. I will 
just say intuitively we know that if substance abuse is, I 
think, on the order of 11 percent among active duty, we have a 
statistic there, that most likely it would continue over, and 
that would be a major cause of persistent inability to be 
employed.
    So, Mr. Chair--and also, Ms. Gerton, it would also be nice 
if you all did get that model legislation, if you would share 
that with us, both to demonstrate that it has been done, but, 
two, for us to promote.
    Thank you, Mr. Chair. I apologize.
    Chairman Isakson. Thank you, Senator Cassidy.
    Senator Brown.

           HON. SHERROD BROWN, U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman. I appreciate the 
comments earlier and kind of reemphasize them from Senator 
Tester and from Chairman Isakson about medical records. I came 
to this Committee the same day as Senator Tester in January 
2007. Like other colleagues, I learned from Senator 
Rockefeller, actually, to sit with groups of veterans with no 
media around and listen to them, and I hear story after story 
of soldiers coming home on leave and getting sick, going to the 
Cleveland VA or the Cincinnati VA or a community-based 
outpatient clinic in Lima or Mansfield, and there are no 
medical records. Then I hear of soldiers or marines leaving the 
military, and they come home and their spouse calls because 
there are some problems, and the VA does not have the medical 
records.
    I remember working with Secretary Principi about it with 
President Bush, then Secretary Shinseki. Each Secretary has 
said, ``We have a commitment.'' It has been literally 20 years, 
long before I came on the scene here, working on this. I just 
do not understand.
    Then, you come in front of this Committee, and maybe it is 
not your responsibility, but you should have answers, a little 
better, or you should have answers period, I think, for both 
the Chairman and Senator Tester of what that is all about and 
why we cannot seem to have--we still have different electronic 
health care records. Those days should be behind us. I urge you 
to go back and in a very large, complicated institution, which 
I defend always because of the incredible work you do and your 
colleagues do at some of the best hospitals and health care 
facilities in the world. So, thank you for that, but do better 
in that.
    Secretary Gerton, a couple of things. First, thanks for the 
work you are doing transitioning servicemembers entering the 
workforce and what you are doing regarding discrimination. You 
discuss a pilot program with the Army's Warrior Transition 
Command to provide a modified Employment Workshop for wounded 
warriors. You received positive feedback on the new model. Are 
there plans to expand the pilot program to the Air Force, to 
the Navy, and to the Marines?
    Ms. Gerton. We have presented the pilot program to all the 
services. Thus far, the Army has been the only one that has 
moved forward with implementation.
    Senator Brown. Why is that? Why do the others not see your 
work?
    Ms. Gerton. I do not think it is that they do not see the 
value. I think it is that they have a much smaller wounded 
population.
    Senator Brown. But not non-existent.
    Ms. Gerton. No.
    Senator Brown. Are they going to say yes?
    Ms. Gerton. I have no commitment.
    Senator Brown. But you are continuing to try?
    Ms. Gerton. We are, and we are certainly available at any 
point should they wish to implement it.
    Senator Brown. Let me ask you maybe a bit of a more 
pedestrian question. During the Employment Workshop, 
servicemembers draft resumes and cover letters. We who dress 
like this and interview people who have written resumes for 
years on these jobs move around from one job to another, 
perhaps more than some in the population, kind of know how to 
do this process, but there are a whole lot of people that come 
through your workshops that have never written a resume because 
they went from high school into the military in many cases.
    Would it be possible to take information from a veteran's 
DD 214 service record and put it into a format like a resume 
which would be given to servicemembers upon their discharge to 
give them sort of a model so they know where to start and then 
can extrapolate that and maybe get into the workforce a little 
more quickly and with a little less effort?
    Ms. Gerton. I am not sure that the DD 214 would be the 
source of that, but we are working with DOD on the Joint 
Services Transcript to be able to consider some of that for 
extraction, or at least in the workshop, when we work with 
servicemembers to draft their first resume, we ask them to 
bring all of these sorts of records together, and then work 
with them in the creation of what we call sort of a master 
resume so that all of their information is gathered in one 
place that they can then work off of that to tailor resumes for 
different job opportunities.
    Senator Brown. So, when they leave this Employment 
Workshop, are they prepared to do that as well as they should 
be?
    Ms. Gerton. Well, they are as prepared as we can make them 
in 3 days. What we would like for them to do is then continue 
that conversation on with a job counselor in a Job Center who 
can continue to work with them and continue to help tailor 
those resumes over time with the different applications. So, in 
the 3 days, we get them to craft that master resume and then to 
tailor it, but the continuing practice of that could be done 
with support through the Job Centers.
    Senator Brown. Well, the need is still there. A young 
gentleman by the name of Paul Bradley, who was in my office in 
Dayton, home of Wright-Patterson Air Force Base, and a huge not 
just Air Force but other branches of the military, a huge 
veterans population, his--I mean, he spends a lot of time 
talking to veterans, helping with job placement, working with 
Mayor Whaley and others in Dayton, but still feels that acute 
need that so many people leaving the military have not had the 
experience and developed the skills necessary, and you can play 
such a major role in that.
    Ms. Gerton. As we move to our new curriculum design that we 
will implement in January, we got that very same feedback from 
a majority of our stakeholders. The new mode of delivery for 
that will be a lot more in-class preparation time and a lot 
more sort of over-the-shoulder support and guidance from the 
instructor. They will have more time in class to practice in 
the new version of the curriculum.
    Senator Brown. Thank you.
    Chairman Isakson. Thank you, Senator Brown.
    Senator Boozman.

         HON. JOHN BOOZMAN, U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman.
    So, TAP is mandatory now? Are all the branches--do some 
branches do a better job than other branches?
    Ms. Kelly. The pieces of the TAP that are mandatory is the 
DOL 3-day workshop, the VA benefits briefing, both of those 
pieces, as well as pre-separation counseling. The VOW Act 
mandated those three pieces. But there are other pieces--it is 
a standard curriculum, standard objectives, executed across all 
of the 206 military sites.
    Senator Boozman. Right. There are lots of things that are 
mandatory that kind of slip sometimes. Are all of the branches 
cooperative?
    Ms. Kelly. Yes,.
    Senator Boozman. The different branches of the service?
    Ms. Kelly. And we have built in----
    Senator Boozman. The commanders are all cooperative?
    Ms. Kelly. That is the reason why we built the IT 
infrastructure, to capture the data. Just----
    Senator Boozman. Are there exceptions if you are in a post 
that is really busy, you do not have to do it, or----
    Ms. Kelly. No. It is a VOW mandate, and it is standardized 
across all of the services.
    Senator Boozman. Very good. The wives component, or the 
spouses, is really important. Tell me about the efforts to make 
sure that they are involved. So many times when you are 
deployed in this kind of work, you know, the spouse tends to 
take care of business.
    Ms. Kelly. That is exactly some of the experience that we 
had in our pilots that I was attending. It is the military 
spouse who takes care of the budget, and in that financial 
planning for----
    Senator Boozman. Exactly. Do we have night classes and 
things like that?
    Ms. Kelly. We do not have night classes. What we found is 
that, of course, the spouses are always welcome to the 
Transition Assistance classes, to the Transition GPS classes. 
However, the concern to provide that curriculum to the spouses 
because they are working during the day and not able to attend 
the classes, as well as child care is sometimes an issue for 
them, that is, again, one of the reasons why we put the entire 
curriculum on three different web sites for the spouses to be 
able to access that.
    Senator Boozman. That would be a reason, too, to have it in 
the evening?
    Ms. Kelly. Not that I am familiar with. That is not a 
standardized practice across all of the installations now. I am 
sure that the installations are accommodating the spouses. Some 
of them are actually even creating abbreviated programs for the 
spouses, but it is not a standardized practice. I can get you 
those installations, the names of those installations, if you 
would like. But it is not a part of the standard curriculum.
    Senator Boozman. You have got your different metrics for 
measuring. Do some installations do a better job than others as 
far as in your feedback?
    Ms. Kelly. In the participant assessment?
    Senator Boozman. Yes.
    Ms. Kelly. Yes, some installations do a better job of 
getting the servicemembers to fill that out.
    Senator Boozman. What do we do if you have an installation 
that perhaps the marks are not as high, the metrics are not as 
high? What is the feedback to them that they are not doing 
perhaps as good a job as another installation?
    Ms. Kelly. Well, the first thing we focus on is getting the 
feedback by installations to the services so that they can talk 
to those installation commanders and get the feedback on the 
participant assessments. But the curriculum as far as 
attendance----
    Senator Boozman. If we get negative feedback on the 
assessment, how do we rectify the negative problems that are 
going on at that facility?
    Ms. Kelly. We capture that data through the Defense 
Manpower Data Center. We compile that on a quarterly basis. We 
provide that to the services and our Federal partners, and that 
participant assessment feedback is a foundation for us 
evaluating the curriculum every year. That is reviewed every 
year, and that starts the foundation for revising the 
curriculum. That has been one of the main sources for the 
revisions that we have made in the Transition GPS for the last 
3 years.
    Senator Boozman. At a particular fort, say Fort Whatever, 
the feedback was really good on the part of the participants, 
and at another fort it was not good, is there anything that we 
immediately do to try and----
    Ms. Kelly. Well, some of the----
    Senator Boozman [continuing]. Rectify the situation----
    Ms. Kelly. Yes----
    Senator Boozman [continuing]. Versus waiting for the 
curriculum and all----
    Ms. Kelly. No, we do not. The participant assessment, the 
feedback from the participant assessment is available 
quarterly.
    Senator Boozman. Right.
    Ms. Kelly. We actually have each one of the participants 
evaluating the facility that they are in, and, yes, we do get 
write-ins about air conditioning and heating and Web access, 
about the facilitators. Across the board the feedback from all 
of the facilitators has been outstanding. We have been very 
pleased with that.
    Senator Boozman. When I was in the House, I was the 
Chairman and the Ranking Member of the subcommittee that had 
jurisdiction over this. I have really seen it grow through the 
years. So, we have problems, you know, that we are always going 
to have in the sense of always trying to make things better, 
but we truly have come a long way in the last 10 years.
    Ms. Kelly. Thank you.
    Senator Boozman. Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Boozman.
    Senator Hirono.

         HON. MAZIE K. HIRONO, U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you, Mr. Chairman.
    I have had roundtables with veterans on every island, 
basically six major islands, and they raise some really 
practical concerns as we talk about smoothing their transition 
from active to veteran status. Some of these veterans have been 
on veteran status for quite a while. On our neighbor islands, 
what we refer to as the ``neighbor islands''--and I am sure 
this is the situation in rural areas in other parts of the 
country--there are no veterans benefits offices on these 
islands, and so the veterans have said to me why can't somebody 
from the benefits office come and help them answer questions 
relating to their benefits or other questions that they may 
have.
    It occurs to me that maybe one of the things that the VA 
should consider doing--and this is for Mr. Coy--is to set up a 
videoconferencing system whereby your advisors, most of whom 
are on the island of Oahu where the majority of people live, 
where they can have regular times and days of the week where 
the veterans can come to a place and have someone respond to 
their questions. Have you thought about doing that? Because I 
know that it is not happen in my State.
    Mr. Coy. The short answer is, Senator, we have thought 
about that. We will take that back and work on that issue 
harder.
    One of the things we have also done is develop this virtual 
curriculum. We have also done TAP in a virtual way for folks 
that are out based in a rural or significantly out-of-the-way 
place, and we do that as well. But we will also get with our 
benefits office and our benefits advisors in Hawaii and also 
redouble our efforts there.
    Senator Hirono. Their preference would be for a warm body 
to show up on an island such as Lanai, for example, so that 
they can talk to somebody in person, but short of that--because 
some of these folks have been waiting for years and years and 
years, and they are about to give up on that. But, I think that 
if we can provide some kind of a regular way that they could 
get their very specific questions about benefits and other 
programs answered, I think that would be very helpful.
    You have already been asked a number of questions about the 
incompatibility of the medical records, and I note that the DOD 
just awarded a $4.3 billion contract to upgrade the Armed 
Forces Health Longitudinal Technology Application. Is that 
medical health records? Or is this some whole other system?
    Ms. Gerton. I am unable to answer that question, but I will 
bring it back and get the answer.
    [The information referred to follows:]
Response to Request Arising During the Hearing by Hon. Mazie Hirono to 
Teresa Gerton, Deputy Assistant Secretary for Veterans' Employment and 
               Training Service, U.S. Department of Labor
    Please see VA Response from Mr. Coy (VA) to the question regarding 
the $4.3B DOD contract. This is a VA/DOD question, not a question Ms. 
Gerton at the Department of Labor could address.

    Senator Hirono. Well, my point is that the DOD just awarded 
a $4.3 billion contract to what sounds like a medical health 
record upgrading of the system, and then meanwhile the VA is 
continuing to upgrade and evolve its VistA system. Once again 
are we seeing two big Departments who deal with the same group 
of people, active and then in the veteran status, are we seeing 
two Departments pursuing their own medical records again? Is 
that what is going on, even as this Committee and others have 
continued to push for the compatibility of medical records? 
Someone needs to--I would like an answer to that.
    Mr. Coy. Senator, we will be happy to take that concern 
back to VA. It is an entirely different entity that manages the 
medical health records issue, and I will make sure that they 
get back to you on that.
    [The information referred to follows:]
Response to Request Arising During the Hearing by Hon. Mazie Hirono to 
               U.S. Department of Veterans Affairs Panel
    Response. On April 6th, 2016, seven months ahead of the deadline, 
the Department of Veterans Affairs (VA) and Department of Defense (DOD) 
jointly certified that we have achieved the health data 
interoperability requirements defined in section 703(b)(1) of the 2014 
National Defense Authorization Act. This is a major milestone for 
Servicemembers and Veterans, and is the first time the Departments have 
certified our ability to share all information required for clinical 
care in near real time.
    The Joint Legacy Viewer (JLV), which had its origins in Hawaii as 
the Janus health record viewer, is available to 40,000 DOD users and 
over 56,000 VA users as of this week. JLV is a critical step in both 
Departments' efforts to modernize their health record systems, as it 
will ensure our ability to see a Veteran's or Servicemember's complete 
longitudinal electronic health record at the point of care. We are 
greatly appreciative of the work done by Native Hawaiian-owned 
businesses supporting the VA Pacific Islands Health Care system and 
Tripler Army Medical Center in developing all versions of the JLV 
technology.
    As VA continues work on modernizing VistA, while simultaneously 
exploring options for our path beyond 2018, we will continue to 
leverage the data sharing capability underlying JLV in our follow on 
capability, the enterprise Health Management Platform. Our DOD 
colleagues will continue to leverage JLV as well as they roll out a new 
EHR system, and will share all health data generated by the new system 
in the same way all current DOD data is shared with VA today.
    We would welcome the opportunity to demonstrate this capability to 
you and your staff, and answer any questions regarding compatibility 
and interoperability of our health records between VA and DOD.

    Senator Hirono. Of course, that is a very big part of the 
smooth transitioning from active status to veteran status, is 
whether their medical records are accessible and follow them. 
It is an ongoing issue, and we seem to continue to be befuddled 
by that.
    One of the other areas that I wanted to find out about is 
at the Department of Labor you are apparently doing quite a lot 
to help the veterans have access to jobs. I would like to know 
what your experience has been in collaborating with the Small 
Business Administration (SBA), for example, because there are a 
number of veterans, maybe quite a few of them, who want to own 
their own businesses, start their own businesses. Do you 
collaborate with SBA? And how has that been, if so?
    Ms. Gerton. We absolutely do collaborate with SBA, a great 
partner, along with all of the folks here. SBA is a member of 
our Transition Executive Committee and Steering Group. More 
importantly, I think, for us specifically with that, we do not 
control the training piece of that, but we do work with SBA to 
help veteran-owned small businesses understand how to use the 
workforce system to do their own staffing and to share the 
cost--basically pass the cost of having to startup a human 
resources function within a small company, to use the public 
workforce system to do that as they grow their own staff, to 
use the public workforce to do that. We know that the companies 
that are most likely to hire veterans are those that are 
veteran-owned. So, we see that connection as very important is 
supporting the veterans so that they can be successful in 
building their own staffs as their companies grow and also 
helping them find the right folks to fill those positions, 
especially veterans. So, it is mutually beneficial.
    Senator Hirono. Thank you, Mr. Chair.
    Chairman Isakson. Thank you, Senator Hirono.
    Senator Tillis.

       HON. THOM TILLIS, U.S. SENATOR FROM NORTH CAROLINA

    Senator Tillis. Thank you, Mr. Chair.
    Senator Hirono, you hit on a very important topic. Your 
question about the DOD project, the answer to your question is 
I do not know to what extent the $4.3 billion is allocated to 
the medical record, but the Department has decided to buy a 
commercial off-the-shelf product to implement that is 
absolutely different from VistA, and the worst news with VistA 
is that VistA has been modified in some of the VISNs to be 
different from the baseline VistA, which was a state-of-the-art 
product when they did it.
    How on Earth--and I am not faulting anybody here, but how 
on Earth we could be going and investing in a new medical 
record system for the DOD that is not absolutely architected to 
be downstream compatible with the VA----
    Ms. Kelly. Exactly.
    Senator Tillis [continuing]. Defies logic and common sense, 
and it is something that I have asked some folks to look into 
earlier this morning.
    I have a question that has more to do with, let us say, 
your key performance indicators. I will use a little bit of 
management consulting speak here. Can each of you within your 
respective areas of responsibility tell me what your top two or 
three key performance indicators are for you doing your part of 
the transition program right?
    Ms. Kelly. Well, the initial input on our performance 
measures is the servicemembers meeting this suite of Career 
Readiness Standards, which are a completely new undertaking 
within DOD, all the way from having a 12-month post-separation 
budget to ensuring they have that conversation with the Reserve 
recruiter, to having a college application if that is what 
their personal goal is.
    Senator Tillis. Do you measure that and measure trends over 
time?
    Ms. Kelly. We have been measuring that since 2013, the 
numbers--our servicemembers who are separating who meet those 
Career Readiness Standards, or receive a warm handover to one 
of our partners to provide post-separation support.
    Senator Tillis. How are you doing over time?
    Ms. Kelly. We are doing well. The services have worked 
very, very hard in getting those processes in place because it 
requires commanders or the commander's designee to verify that 
for each and every servicemember and to record that, flow it 
into an IT system, flow it into a central database, et cetera.
    Senator Tillis. Thank you.
    Mr. Coy?
    Mr. Coy. Thank you, Senator. There are two or three things 
that I would suggest that we are doing with respect to 
performance indicators. Probably the first thing is the 
participant assessments that we all ask of our TAP 
participants. Secretary Gerton mentioned her results. Our 
results are similar to hers. We are at 95 percent in terms of 
confidence and using the information and so on.
    One of the other things that we do most certainly is we do 
site visits of our benefits advisors. We did 145 of them last 
year; 14 of those visits were interagency--in other words, we 
brought our partners from DOD and Labor with us to do those 
site visits as well.
    We also follow up on key performance indicators in our 
Veterans Economic Communities Initiative, and we have a series 
of performance indicators for each one of those--in other 
words, how many employers have been outreached, how many people 
have you talked to, how many post-9/11 veterans have you talked 
to, what are the results of those kinds of things. So, we have 
a variety of performance indicators, and we are always passing 
that information back and forth.
    I would suggest, if anything, you can see the passion from 
the folks on this panel that they all want to say this is what 
we are doing, this is what we are doing. When we sit down every 
quarter and every month in our governance body, we bring up all 
of these issues and talk about them.
    Senator Tillis. Ms. Cloud and Ms. Gerton, if you can be--
and my apologies to Mr. Coy. If you could be very brief, I have 
got one final question I would like to ask. I would like to get 
close under the wire.
    Ms. Gerton. Let me just report for Department of Labor 
VETS. Obviously, our overarching metric is the veterans 
unemployment, and we do sort that by generation and also by age 
demographic, focusing especially on the Gulf War II veterans. 
Within the public workforce system, we have three outcome 
metrics that we track:
    The first is entered employment, for those who participate 
through the workforce system, do they actually get a job when 
they have completed services? Retained employment, which is are 
they still retained 6 months after that. Then, we look at their 
average 6-month salary for those 6 months. So, we track those 
month after month, year over year, within the veterans 
population, who gets services within the workforce center, and 
compare them to the other populations.
    Senator Tillis. OK. Ms. Cloud?
    Ms. Cloud. I would add a couple of things. One, we are also 
very interested in expanding public-private partnerships in 
communities. We recognize that we cannot be successful without 
collaboration with our community partners. Targeting the needs 
of those communities and partnering with the right nonprofits 
or service organizations.
    Additionally, we also had a holistic economic report that 
looked at multiple dimensions and prioritized for the VA some 
significant gaps in education potentially for our service-
connected disabled veterans and women veterans, and the 
progress on how we are closing that gap is an additional metric 
of success for us.
    Senator Tillis. Mr. Chair, I will not ask another question 
but maybe make a final comment. Last year, I was in a campaign 
and traveled all over the State, met with a lot of veterans 
organizations. One of the questions we would always ask is: How 
was your transition experience? There seemed to be a sense that 
there were like great points of information, but the handoff 
was a problem, which suggests that maybe there needs to be 
someone whose job is on the line for making sure the handoffs 
occur. I do not think that that really occurs today.
    Then, the other piece--I wanted to get to this--the younger 
veterans--I know that when I was 24 years old or 25 years old, 
if I had been in a situation where I am just about to get 
released, I am probably the guy in the back with the headset on 
listening to music, getting that credit for the 90 percent, 95 
percent participation, but really thinking about what I want to 
do with my life and all the excitement of the next job.
    So, I think that we have got to figure out a way to come up 
with some sort of quality scoring to make sure that this good 
information that you all have is sticking and being used to 
their benefit. You hear about information overload. I just got 
a message from a Marine who was medically discharged, got the 
lump-sum payment, I am sure somewhere well documented in there 
was that as a result of that, your VA benefits are delayed 
until that lump-sum payment is drawn down. They do not remember 
that. I do not know where that is in the paperwork. Some do, 
some do not. If my wife were there, I probably would have. If 
she were not, I probably would not have.
    We need to do a better job of taking all this good stuff 
and making sure it is being executed consistently, because I 
think that at least in my case there is a number of constituent 
feedback that I am getting that you have got some good 
individual programs we have got to integrate, pass the baton 
more effectively, and make sure we are catching that group of 
people that are going through the motions but not necessarily 
fully benefiting from the good work and the good information 
you are putting forward.
    Thank you, Mr. Chair.
    Chairman Isakson. Thank you, Senator Tillis.
    Senator Murray.

        HON. PATTY MURRAY, U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you very much, Mr. Chairman.
    Dr. Kelly, your testimony actually covered many of the 
processes the Department is using, but there is very little 
information showing how effective those efforts are.
    On the other hand, there was a Syracuse University study 
that showed that almost half of the veterans separating from 
the military leave their first job within the first year and 65 
percent leave within 2 years.
    When they were asked why they left, those veterans cited a 
number of issues, which are precisely what we expect the 
Department's transition work to address, including lack of 
career development and inadequate professional growth, work 
that was not meaningful or challenging, and positions that do 
not match the servicemember's skills or education level, which 
really raises the questions about whether transition efforts 
are accomplishing the goals that we expect. I wanted to ask you 
why the Departments continue to not track outcomes for 
servicemembers and veterans.
    Ms. Kelly. I think we are working with our partners 
together, trying to put in place the most telling outcome 
measures for the long term, and I think Secretary Gerton talked 
to you about looking at those veterans and if they have 
employment and if they stay in employment. We have been very 
concerned about some of what we hear is the job hopping. I am 
looking to this more for the Millennials, so for our young 
folks, this 2-year changing jobs, 2 years, 2\1/2\ years, might 
not be any different than their peers, their non-veteran peers.
    The other piece is that what we are saying--it is one of 
the many lessons learned that the private sector is providing 
to us--is that they are also interested in--once they delve 
into this talent pipeline of veterans and they bring them on 
board, how do they retain them? Looking for that purpose, 
looking for a promotion, looking for development, et cetera.
    Senator Murray. You do not track at the Department, 
apparently, whether they have left the job within a few months 
or whether they leave within the first few years. Your 
Department----
    Ms. Kelly. Within the Department of Defense, we would not 
track that. We are relying upon our partners within DOL and VA 
to look at those long-term outcomes.
    Senator Murray. I would say we need to be doing that 
because if we are just putting people into a job and it is not 
effective because we are not doing it right, then the 
transition is not working the way we expect it to.
    How many servicemembers do not meet the Career Readiness 
Standards?
    Ms. Kelly. Right now at this point, for 2015 the number is 
226,414 servicemembers separated in 2015; 95 percent met the 
VOW compliance and 89 percent met Career Readiness Standards or 
were given a warm handover.
    Senator Murray. 89 percent met the Career Standards?
    Ms. Kelly. Verified by the Defense Manpower Data Center.
    Senator Murray. And how many of them actually received 
follow-up services from the VA or Labor?
    Ms. Kelly. I do not have that data.
    Mr. Coy. Every single servicemember that is provided to us 
in terms of that warm handover that Dr. Kelly mentioned are 
talked to by our benefits advisors and provided the information 
as to, you know, how they can get help in those particular 
areas. For example, if they are at risk of homelessness, we 
will connect them with a homeless coordinator in various----
    Senator Murray. Right, I know that, but I wanted to know 
how many actually got the follow-up once you determined they 
needed it. Do you know the percentage, the numbers?
    Mr. Coy. No, I do not have that, but I will be happy to get 
you that information.
    Senator Murray. OK, if you could get that for me.
    [The information referred to follows:]
Response to Request Arising During the Hearing by Hon. Patty Murray to 
               U.S. Department of Veterans Affairs Panel
    Response. VA does not track how many veterans received follow-up 
services from the agency after not meeting career readiness standards.

    Ms. Kelly. I also think that is the work that is still to 
be done. What we are doing is we are putting in place a form 
that allows that warm handover. It documents that warm 
handover.
    Senator Murray. OK, because I think we need to know whether 
what we are doing is working. So----
    Ms. Kelly. We are right there with you, and we are putting 
that IT infrastructure in place and building----
    Senator Murray. What is the timeline on getting that done?
    Ms. Kelly. I would say that the Department of Labor has 
already completed a business case. They are building that IT 
infrastructure to accept that personally identifiable 
information. The VA is going through that process right now 
with the Defense Manpower Data Center, and reviewing----
    Senator Murray. All right. I have another question. I will 
follow up on this because this is, I think, an extremely 
important part of this program.
    Ms. Kelly. We agree.
    Senator Murray. Dr. Kelly, I am concerned by your testimony 
that, according to DOD's Status of Forces survey, only half of 
the commanders or senior leaders were supportive of preparing 
their servicemembers for transition into a new career. It has 
been 4 years since we passed the VOW to Hire Heroes Act and it 
was signed into law. I expect the Departments to do better than 
that. How do we get the support from the commanders? What are 
you doing to get the support of the commanders so they are 
putting in place what we expect them to do?
    Ms. Kelly. First, let me clarify that. Although the law was 
passed, we did not have the TAP redesign in place until the end 
of 2014. We had to find resources. We had to hire staff. We had 
to build the curriculum. So, it was not fully executed until 
2014, and that is with all of our partners, including SBA.
    We have the curriculum in place. Now we have the 
participant assessment, and we have actually built those same 
questions that you are trying to get to, that command support, 
we just put them in to that participant assessment and put in 
the infrastructure and reporting mechanisms so that the 
installation commanders can receive that data. We are as 
concerned as you are. Then, building--but building the Military 
Life Cycle transition preparation model is a culture change for 
the Department, and we have put in place the Status of Forces 
survey so that we can survey our servicemembers, the Reserve 
component in this coming year, and do that on an every-other-
year basis to ask those very same questions so that we can 
track the culture change and if servicemembers are feeling 
supported by their commanders and their peers to do this 
Military Life Cycle transition preparation.
    Senator Murray. Well, I would say that we need our 
commanders and our senior leaders to implement this, which is 
something we have to follow up on.
    Thank you, Mr. Chairman.
    Chairman Isakson. And leadership comes from the top.
    Senator Sullivan.

          HON. DAN SULLIVAN, U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman. I want to also 
thank the panelists for their focus on what is really one of 
the most critical issues I think we can be providing in terms 
of services to our veterans, because as you know, it relates to 
so many different things.
    You know, the administration has been very focused on 
ending homelessness for veterans, but this obviously relates 
directly to ending homelessness. To me it is such a win-win-win 
opportunity here where we have veterans with tremendous skills 
and employers who need those skills, and I think the critical 
element here is connecting them. I want to thank you for all 
you are doing in that regard.
    I just had a couple of specific questions that related to 
some policies, and I will just throw this out to any of the 
panelists. Are you familiar with the 85-15 rule?
    Mr. Coy. I am.
    Senator Sullivan. Can you talk a little bit about that? I 
know that the main purpose is making sure that you do not have 
any kind of predatory schools that are taking advantage of 
veterans. At the same time, I think we should make sure that 
good, honest schools--and I have talked to some vocational 
schools in Alaska who seem a little bit hamstrung by the rule 
in that they want to help veterans. We have a huge veterans 
populations, as Senator Blumenthal mentioned, you know, with 
certain drawdowns, and there might be a whole new big influx. I 
think we want to make sure--I understand the purpose of the 
rule, but we want to make sure that we are not limiting 
veterans' opportunities or the opportunities of the vocational 
schools that are actually doing a good job and that are very 
committed.
    Could you talk about how you balance that with the 85-15 
rule?
    Mr. Coy. Absolutely, and thank you for that great question. 
The 85-15 was put in statute back in the 1950s for the exact 
reason that you mentioned.
    Senator Sullivan. Oh, is that right?
    Mr. Coy. One of the----
    Senator Sullivan. Is there a need to update it, do you 
think?
    Mr. Coy. Yes. We do not have the ability to waive, so if 
somebody is 86-14 or--I am being a bit overdramatic, but, yes. 
We do not have the ability to do anything along those lines.
    Senator Sullivan. Would you think a waiver provision that 
was needed to make sure--obviously, again, I know what the 
focus is. You do not want abuse, and we certainly do not want 
abuse. On the other hand, if you have a good company, a good 
vocational school that is highly motivated to take care of a 
lot of veterans, should we provide some flexibility?
    Mr. Coy. The short answer is I believe we should. I would 
like to just mention very briefly, because I know you have 
several other questions, but we just started a pilot program 
called ``Accelerated Learning Program,'' and what that does is 
it is a $5 million pilot program that we have eight contracts 
with eight vendors. They are all IT vendors, and they teach a 
very specific course. We structured the contracts such that 
they are incentivized to have people apply. They are 
incentivized for people to complete, and they are incentivized 
for people to get employment at the end. Many of these places 
have 95 percent placement rates at the end of this process.
    None of these vendors probably would have been able to be 
leveraged with the GI bill because of things like the 85-15 
rule. This pilot is out there to see if that is a viable option 
to be able to look at where, in fact, we could propose 
legislative changes.
    What we found is we had a certain amount of slots that were 
available, we filled--we got applications--we got 3,500 
applications in the first week for this program, and we only 
had about 800 or 900 slots for it. There is a need for that out 
there. We did not restrict it to any specific entity, meaning 
we did not restrict it to post-9/11. It was any veteran that 
was out there. So, we did not use--they did not have to use any 
of their GI bill benefits, nor were the programs likely 
eligible for GI bill benefits.
    Senator Sullivan. Well, look, I would welcome the chance to 
work with you and this Committee on those issues, because I 
think they are important and I think they go to servicing our 
veterans in the best way, and the good occupational schools 
that can be helpful.
    Let me just end by mentioning--you know, I went through the 
TAP program just a couple years ago coming off active duty as a 
reservist, and I do think one of the focuses--Senator Tillis 
made a really good point. You are kind of focused on getting 
out and doing your thing. My recommendation, just in my own 
personal experience, an emphasis on the benefits--benefits, 
benefits, benefits--whether it is GI bill, whether it is what 
your opportunities are with regard to VA loans or things like 
that, is really important, because, you know, you get further 
down the road and you are like, ``Holy cow, I forgot I had that 
opportunity.'' Sometimes, as you know, those opportunities go 
away. To me that was very helpful.
    I also think what Senator Brown was talking about, resumes 
are enormously important. I had a Marine sergeant, a couple 
deployments to Afghanistan, came to me, he was in infantry, a 
squad leader, and said, you know, he did not think he had the 
skills for the private sector. I was, like, ``What? Are you 
kidding me? You have led men in combat? You have the best 
skills in the country.'' Just the ability to put that down in a 
resume that can translated that skill set to the private sector 
is really helpful, and it is not always so easy.
    Finally--Mr. Chairman, sorry for going over here. There was 
an article in the Navy Times recently. Are we doing enough, do 
you think, on helping military members with PTSD in terms of 
their transition? I mean, obviously, there can be additional 
challenges. What are we doing there?
    Mr. Coy. I will take that on very briefly, and then perhaps 
Secretary Gerton could add to it. She mentioned it a little bit 
in her oral testimony in terms of the voc rehab program that we 
have. The Vocational Rehabilitation and Employment Program that 
we have is for wounded warriors and disabled veterans, and 
that, of course, includes those with post-traumatic stress. We 
have over 1,000 counselors across the country, and each one of 
them do case management for that specific veteran in developing 
a plan for employment for them, and whether or not it is for 
higher education, whether it is vocational training, whether it 
is a welding course, whatever it is that helps them get 
meaningful employment at the end of that process, that is what 
they are there for. So, we have folks that are doing that full-
time right now in terms of that case management.
    I know Secretary Gerton can talk about the American Job 
Centers and what they are doing for disabled veterans as well.
    Ms. Gerton. For individuals with a service-compensable 
disability, we do have the Jobs for Veterans State Grants, the 
Disabled Veterans Outreach Program. Those counselors provide 
one-on-one employment support in terms of developing an 
individual employment plan, developing training programs, so 
they might not be in the voc rehab program, but they can 
certainly be there. That counseling can persist for as long as 
the individual needs it, until we find a way where they can be 
trained and enter employment.
    We also do a tremendous amount of outreach to employers on 
how to handle an individual with PTSD in the workplace. We have 
on our web site the American Heroes at Work tool for employers 
to use so that they can be better acculturated to individuals 
with PTS in their workplace.
    Senator Sullivan. Great. Thank you.
    Thank you, Mr. Chairman.
                                ------                                

Response to Posthearing Questions Submitted by Hon. Richard Blumenthal 
 to Susan Kelly, Director, Transition to Veterans Program Office, U.S. 
                         Department of Defense
    Question 1.  I am concerned that TAP does not provide women with an 
understanding of the full range of benefits available to them. Please 
provide information on:
    a. The extent to which DOD collects, analyzes, and reports data on 
TAP by gender--and uses that to make changes that will help women 
veterans.
    Response. The anonymous Participant Assessment that Servicemembers 
are asked to voluntarily complete after each TAP module, including 
those modules taught by the Departments of Labor and Veterans Affairs, 
and the Small Business Administration, captures demographic information 
related to military service (e.g., Service, paygrade, installation). 
The DOD does not examine the results by gender as doing so would 
compromise the anonymity of the assessment once all demographic 
information for a respondent is combined. However, all Participant 
Assessment feedback is provided to the Services on a quarterly basis as 
part of the continual improvement process, and all feedback, i.e., gaps 
in information, requests for other topics to be addressed, quality of 
instructors, complaints, recommendations, etc., submitted by either men 
or women, is reviewed, addressed, and also considered during the annual 
Interagency curriculum review process. Additionally, the annual Status 
of Forces Survey, into which the DOD inserted questions about TAP, 
collects and examines demographic information, including gender. TVPO 
is in the process of coordinating with Defense Manpower Data Center to 
examine the TAP survey questions by gender.

    b. How DOD has solicited information from women to inform the 
revamping of TAP.
    Response. In 2012, DOD and its interagency Veterans Employment 
Initiative Task Force partners began redesigning TAP in accordance with 
the VOW to Hire Heroes Act. Early group discussions with female 
Veterans and Servicemembers made it clear to the Task Force members 
that women did not want transition instruction separate from their male 
counterparts. Feedback received through the online, anonymous TAP 
Participant Assessment, or the annual DOD Status of Forces Survey on 
improvements for, or concerns about, TAP that will help female veterans 
specifically, will be considered in the annual curriculum review 
process and by the Interagency TAP Executive Council.

    c. Statistics on women's participation and satisfaction with TAP.
    Response. Because the anonymous Participant Assessment that 
Servicemembers are asked to voluntarily complete after each TAP module 
includes demographic information related to military service (e.g., 
Service, paygrade, installation), DOD cannot identify satisfaction by 
gender without compromising the anonymity of the assessment. Results 
from the fourth quarter of Fiscal Year 2015, however, show that 
Servicemembers overall have a positive perception of TAP: 81 percent of 
respondents reported they gained valuable information and skills to 
plan their transition; 80 percent stated the training enhanced their 
confidence in transition planning; 81 percent said they intended to use 
what they learned in transition planning; and 82 percent responded they 
knew how to access appropriate resources. The TVPO is exploring future 
options with DMDC to gain insight into the data, by gender, in an 
aggregate form.

    Question 2.  The 2011 VOW to Hire Heroes Act mandated attendance at 
the Transition Assistance Program for National Guard and Reserve 
Component servicemembers demobilizing after 180 days or more of active 
duty military service. Members of the National Guard and Reserve have 
unique needs and challenges when it comes to accessing TAP. Because 
eligible members of the National Guard and Reserve demobilize at 
locations where they neither work nor live, and typically demobilize 
more quickly than active duty servicemembers, the location and timing 
of the TAP program delivery is not ideal.
    a. To what extent has DOD used the results from participant 
assessment surveys to monitor feedback from National Guard and Reserve 
members participating in the TAP program?
    Response. The Participant Assessment is provided to every 
Servicemember who completes a TAP module. The feedback from these 
assessments are examined by demographics (e.g., by Service, by 
component, including National Guard and Reserve separately, by 
installation) and provided to the Services on a quarterly basis to 
disseminate to their installations. Several changes have been made 
based on the Reserve and NG member feedback. For instance, the 
availability of TAP instruction for the RC was a compelling factor to 
place all 88 hours of the Transition GPS curriculum on Joint Knowledge 
Online, the platform used by the entire DOD to deliver virtual 
training. The Transition GPS is also available to all Veterans, 
spouses, and dependents via DoL and VA websites. Distance from 
installations, time for training, stage of military career, and 
remoteness need not hamper transition preparation. Further, VA just 
released a VA Benefits Briefing specifically for NG and Reserve 
members. The Services also recently revised their timing for transition 
preparation, initiating the training when Reservists and Guardsmen are 
prepping for mobilization versus waiting until demobilization. By far, 
the most frequent and forceful complaint from Guardsmen and Reserve 
members was that, even though they were returning to their jobs after 
completing 180 days of active duty training, the VOW Act mandated their 
TAP attendance. Section 552 of the 2016 NDAA relaxed this mandate by 
directing that the 180 days of active duty must be continuous versus 
cumulative and by excluding time spent in full-time training, annual 
training, and military schooling. This provision should quell this 
ongoing concern.
    Additionally, the Department inserted into the 2016 Status of 
Forces Survey of Reserve Component Members (SOFS-R) questions that seek 
to gauge the views of Reserve Component Members regarding the timing 
and location of the delivery of the Transition GPS curriculum. This 
biannual survey will allow DOD to systematically assess the culture 
change of military lifecycle transition preparation for both the Active 
and Reserve Components.

    b. Please describe DOD's efforts to ensure that the content and 
delivery of the Transition Assistance Program is meeting the needs of 
National Guard and Reserve components including whether DOD has sought 
counsel and feedback on this issue from General Frank Grass, Chief of 
the National Guard Bureau.
    Response. As mentioned, the Participant Assessment provides 
feedback that can be examined by Service demographics including Guard 
and Reserve status. In addition, DOD has prepared questions for the 
2016 Status of Forces Survey of Reserve Component Members that are 
intended to gather feedback from Servicemembers on topics such as 
transition planning and support by peers and commanders. The results of 
this survey are expected in 2017 and can be compared with survey 
results from Active Component members--who are asked similar 
questions--to identify areas of concern for the Reserve Component.
    The National Guard Bureau J-1, a Brigadier General, is a member of 
the Interagency TAP governance body, specifically the Senior Steering 
Group (SSG) alongside Service and interagency partner representatives. 
The SSG provides executive-level guidance and is responsible for 
monitoring and improving TAP operations. The Guard and Reserve 
Components of each Service are actively engaged in every Interagency 
TAP working group responsible for various functional areas of the TAP. 
Additionally, TVPO was fortunate to have a Sergeant Major from the Army 
National Guard as a Senior Enlisted Advisor. The SGM led over 20 
interagency Staff Assistance Visits in 2015 that allowed DOD and the 
Interagency TAP governance to assess implementation of TAP and gather 
feedback from the field. Finally, the Director of TVPO meets regularly 
with the Services' Reserve Component Senior Enlisted Advisors to inform 
them of program and policy changes and to solicit their feedback.

    c. Do National Guard and Reserve components not activated to active 
duty have access to TAP?
    Response. Yes, members of the National Guard and Reserve Component 
can access the information available through Transition GPS at any time 
through a complete virtual curriculum. The virtual curriculum can be 
accessed on JKO, DOD's online training resource at http://jko.jten.mil/
courses/tap/TGPS%20Standalone%20 Training/start.html. Additionally, 
Guard and Reserve members can take advantage of services available in 
their communities, such as at over 2,000 DOL American Job Center 
affiliates nationwide if they are geographically separated from an 
installation.

    d. How, if at all, are the reserve components providing elements of 
TAP throughout a Guards' or Reservists' military service under the 
Military Life Cycle Model?
    Response. Members of the Guard and Reserve are required to complete 
TAP after completing 180 days of continuous active duty service. The 
Army and Navy have drafted policy specifically addressing requirements 
for Guard and Reserve members. Army Guard and Reserve members who will 
have completed at least 180 days of continuous active duty begin TAP 
just prior to mobilization and continue throughout mobilization so that 
they meet Career Readiness Standards no later than their release from 
active duty. In addition, Guard and Reserve members not on active duty 
can access the virtual curriculum online at any time from any location.

    Question 3.  DOD is responsible for administering the optional 
Accessing Higher Education Track of the Transition Assistance Program. 
This track is intended to prepare transitioning servicemembers to 
pursue educational opportunities and utilize the Post-9/11 GI Bill 
benefit that they have earned through their military service.
    a. If a transitioning servicemember indicates his or her intent to 
use Post-9/11 GI Bill benefits during the transition process, are these 
servicemembers required to attend the optional Accessing Higher 
Education Track?
    Response. All transitioning Servicemembers are required by the VOW 
to Hire Heroes Act to participate in VA Benefits Briefings I and II. 
These VA briefings provide information on education benefits available 
through the VA, including the Post-9/11 G.I. Bill. Additionally, all 
Servicemembers who indicate an interest in pursuing higher education 
after transitioning from active duty are required to meet the Career 
Readiness Standard (CRS) related to higher education. If they cannot 
verify that they meet the standard without attending the Accessing 
Higher Education track, such as providing a letter of acceptance from a 
college, then the track is required. Verification that the 
transitioning Servicemember meets the CRS related to higher education 
is the desired end state, not that the Servicemember attends a course.

    b. Do you think this Track should be made mandatory for all 
servicemembers indicating their intent to pursue higher education? Why 
or why not?
    Response. If a transitioning Servicemember indicates a post-
separation goal of pursuing higher education, they are required to meet 
the related Career Readiness Standard (CRS). The Accessing Higher 
Education track is available to assist them in developing the knowledge 
and skills to meet the requirements of the CRS. However, if 
Servicemembers can verify they meet the standards, such as providing a 
letter of acceptance from a university or community college, then the 
member should not be required to attend the track. Further, many 
Servicemembers apply for college and attend college courses during 
active duty. Mandatory attendance may or may not ``fit'' these 
Servicemembers. All officers have already met college graduation 
requirements but many will still use their Post-9/11 GI Bill benefits 
for post-graduate or additional degrees. Again, mandatory attendance 
will not be efficient for such circumstances.

    c. At what point during the transition process would the Accessing 
Higher Education portion of TAP be most beneficial for transitioning 
servicemembers and at what point do most servicemembers take this 
Track?
    Response. There is no set time when Servicemembers should complete 
Accessing Higher Education or other components of TAP; they must meet 
Career Readiness Standards or receive a warm handover no later than 90 
days prior to separation. In accordance with the Military Life Cycle 
transition preparation process, Servicemembers are encouraged to plan 
for post-military life throughout their career. A virtual curriculum is 
available to provide Servicemembers access to TAP materials at any time 
in their career.
    In alignment with the Military Lifecycle transition preparation, 
DOD has recently launched an online course titled ``Higher Education 
Preparation.'' This course is intended to inform Servicemembers about 
how to choose the best educational institution for their long-term 
education goals and start, while on active duty, to use tuition 
assistance for courses. The ``Higher Education Preparation'' develops 
many of the skills intended to be acquired through Accessing Higher 
Education. Used together, both modules will benefit our Servicemembers 
and make better use of tuition assistance funding.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Mazie Hirono to 
  Susan Kelly, Director, Transition to Veterans Program Office, U.S. 
                         Department of Defense
             preventing homelessness during the transition
    Question 1.  As a Member of both the Senate Armed Services and 
Veterans Committees, I've particularly interested in and concerned 
about DOD/VA collaboration to prevent homelessness among transitioning 
servicemembers.
    a. Please describe the extent to which the Departments of Defense 
and Veterans Affairs work to mitigate risk factors for homelessness 
among transitioning servicemembers.
    b. What percentage of homeless veterans are recently separated 
servicemembers?
    c. In what areas can we improve DOD/VA collaboration in this 
regard?
    d. What do you see as the major challenges regarding veteran 
homelessness in the coming years and are there legislative proposals 
that would help in this regard?
    Response. Through the Transition Assistance Program (TAP), DOD, VA, 
and DOL help provide Servicemembers with the skills necessary to avoid 
one of the greatest risk factors for homelessness, unemployment. Under 
the VOW to Hire Heroes Act, all transitioning Servicemembers are 
required to attend the DOL Employment Workshop, a primary component of 
the TAP. Prior to separation, the Military Services verify that 
Servicemembers meet newly established TAP Career Readiness Standards 
(CRS) and that Servicemembers are prepared to pursue their post-
transition personal goals, whether that is employment, education, or 
entrepreneurship. If the attainment of CRS cannot be verified, 
Servicemembers receive a warm handover to the VA, DOL, or other 
appropriate partner for additional post-transition support from the 
communities to which they relocate.
    The verification process also specifically targets housing plans. 
Servicemembers are asked during the discussion that documents their CRS 
whether they have a post-transition housing plan. Not having a plan 
puts this population at risk for eventual homelessness. We are working 
with the VA to clarify the guidance that ensures that Servicemembers 
who do not have a post-transition housing plan are given a warm 
handover to a local VA Benefits liaison. The VA is establishing 
processes for the VA Benefits liaisons to refer such Servicemembers to 
VA Homelessness Coordinators across the Nation who can refer the 
Veteran to the resources that offer needed services.
    In addition, many DOD installations collaborate with community-
based non-profit organizations to provide a broad range of services to 
Servicemembers, Veterans, and families, including services related to 
unemployment and homelessness.
    The United States Interagency Council on Homelessness is closely 
tracking Veteran homelessness in cities and communities across the 
Nation. The most recent count of homeless individuals was conducted in 
January 2016, and the Council is the best source for current and 
trending Veteran homelessness data, as well as the demographics and 
challenges of this population.
             dod/va electronic health record collaboration
    Question 2.  In the 2008 National Defense Authorization Act, the 
Department of Defense and the Department of Veterans Affairs were 
directed to implement ``fully interoperable'' electronic health 
records. Seven years later, the Government Accountability Program 
placed VA Electronic Health Records on its high risk list for 
mismanagement, waste, cost overruns and in most need of transformation. 
One of the problems cited by GAO was the continued lack of 
interoperability between DOD and VA Health Records, which inhibit VA's 
ability to provide timely, quality health care to our Nation's 
veterans. This is a problem that GAO has reported on for more than a 
decade, and a problem that is necessary to address in order to ensure a 
continuum of care for veterans. Recently, DOD and VA have both 
announced plans to upgrade their existing software system. DOD has 
announced that it will spend 4.3 billion to upgrade the Armed Forces 
Longitudinal Application, while VA is continuing to update VistA.
    a. Please describe the current process whereby medical records of 
transitioning servicemembers are transferred from DOD to the VA? How 
long does this process take? What if any areas of improvement have DOD 
and VA identified to speed up the transfer of medical records?
    Response. On January 1, 2014, DOD ceased the mailing of paper 
Service Treatment Records (STR) to the VA and instead began uploading 
STRs into the DOD Healthcare Artifact and Image Management System 
(HAIMS) for storage in a format that is usable by VA for processing in 
the Veterans Benefits Management System. STRs are currently a 
combination of electronic and paper records which VA now retrieves from 
HAIMS using an electronic systems interface. The DOD policy remains 45 
business days to complete this upload to allow all late flowing 
documents, such as may come from TRICARE Service Providers, to be 
included in the STR so VA has a greater assurance of a complete record 
for use in processing disability benefit claims. Significant progress 
has been made toward more timely transfer of records. For instance, in 
August 2014, there were more than 7,000 late (over 45 days) VA STR 
requests; however, as of January 16, 2016, this number was down to 840 
and has averaged well below 1,000 since May 2015. Most of what VA 
requests from HAIMS they are able to retrieve the same day as the 
request, and 98.5 percent of STRs requested to date have been 
successfully retrieved.

    b. What is the current status of achieving the goal on DOD/VA 
health records set forth in the February 5, 2013 announcement by the 
Secretary of Defense and the Secretary of Veterans Affairs that instead 
of building a single integrated electronic health record (iEHR), both 
DOD and VA will concentrate on integrating VA and DOD health data by 
focusing on interoperability and using existing technological 
solutions?
    Response. In addition to awarding a contract in July 2015 for DOD's 
new EHR, DOD has also met the statutory requirement of interoperability 
defined in Section 713 of the 2014 NDAA. The NDAA requires that the 
electronic health record systems of DOD and the VA are interoperable 
with an integrated display of data by complying with the national 
standards and architectural requirements identified by the DOD/VA 
Interagency Program Office (IPO) in collaboration with the Office of 
the National Coordinator for Health Information Technology (ONC). DOD 
sent a letter on November 16, 2015, to stakeholder congressional 
committees, including the Senate Veterans' Affairs Committee, notifying 
them of DOD's progress.

    c. To date what amount of appropriated funds has DOD and VA spent 
in its efforts to improve the interoperability of their electronic 
health record systems?
    Response. From 2010 to 2013, DOD and VA executed a joint program 
called the integrated Electronic Health Record (iEHR) in an attempt to 
create a single next-generation EHR system. When DOD and VA decided in 
2013 to pursue separate EHR modernization programs, DOD stood up the 
Defense Medical Information Exchange (DMIX) program office, which was 
tasked with providing technical solutions for seamless data sharing and 
interoperable EHRs. This included the development of the Joint Legacy 
Viewer (JLV), an integrated display of DOD, VA, and private sector data 
for clinicians. In FY 2014 and FY 2015, DOD's total cost for JLV was 
$109.5 million.

    d. Please describe the metrics DOD and VA are using to measure the 
extent of interoperability, the milestones and timeline associated with 
achieving interoperability, and the baseline measurements associated 
with interoperability.
    Response. In the Government Accountability Office (GAO) report GAO-
15-530 published in August 2015, the GAO called for DOD and VA to 
establish a timeframe for identifying outcome-oriented metrics and 
define related goals to provide a basis for assessing and reporting on 
the status of interoperability. DOD and VA concurred with the 
recommendations.
    The DOD/VA IPO Fourth Quarter FY 2015 Report to Congress, which was 
provided to the Senate Veterans' Affairs Committee, details the 
progress being made toward these recommendations. The IPO has continued 
collaborations with the Departments in developing baseline health data 
interoperability metrics. As the Departments continue to enhance 
interoperability and modernize their respective EHRs, the IPO seeks to 
evolve baseline metrics into outcome-based metrics. The Data Sharing 
portion of this report further defines the health data interoperability 
metrics and provides statistics on the current status of data sharing.
    At this time, DOD cannot determine when Servicemembers generally 
take the Accessing Higher Education track, only the percent of 
Servicemembers who meet VOW and CRS within 90 days of separation. As an 
enterprise IT initiative is implemented in FY 2017, the DOD will have 
more visibility of timeframes of Transition GPS modules.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Richard Blumenthal 
    to Curtis Coy, Deputy Under Secretary for Economic Opportunity, 
 Veterans Benefits Administration, U.S. Department of Veterans Affairs
    Question 1.  VA's testimony notes that to meet the needs of 
National Guard and Reserve members, VA deployed benefits advisors to 
demobilization locations and tailored TAP's VA benefits briefings to 
meet the needs of our Guard and Reserve populations.
    a. Could you please address the transition needs that are most 
common among members of the National Guard and Reserve?
    Response. Mobilized National Guard and Reserve members (Reserve 
Component) are not afforded the same amount of time for transition 
activities as their Active counterparts separating from military 
service. Additionally, most Reserve Component members are either 
returning to civilian jobs they had prior to mobilization, or 
continuing their educational pursuits interrupted by their 
mobilization. Some may require employment or educational assistance. As 
our departments have expressed in previous testimony to the Committee, 
the Veterans' Employment and Training Service operates within an 
integrated employment, training, and enforcement system, which is 
overseen and funded by DOL, and is coordinated with state and local 
governments. As a result of increased outreach to the Reserve 
Component, VA has responded to an increased number of requests to 
support events and activities. This includes training Reserve Component 
career counselors on the Veterans Employment Center<SUP>TM</SUP>, the 
Federal Government's online tool for connecting transitioning 
Servicemembers, including members of the National Guard and Reserve, to 
meaningful career opportunities hosted by VA. Additionally, economic 
liaisons supporting the Veterans Economic Communities Initiative engage 
state and Reserve Component leadership. VA also leverages public-
private partnerships to provide additional resources and opportunities 
to Reserve Component members. Examples include LinkedIn which offers a 
one-year free premium job-seeker subscription and Coursera which offers 
a free verified certificate to over 800 available online courses.
    Reserve Component members with Veteran status may need information 
on the benefits and services they are entitled to from VA. They may 
require assistance in understanding the eligibility requirements and 
how to access VA benefits and services. In response, VA developed in FY 
2015 an alternate version of the VA TAP Benefits I and II briefings, 
specific to Reserve Component members' needs.

    b. Please expand upon the kinds of modifications you made to the 
curriculum for this population to address these unique needs and 
accommodate their demobilization process.
    Response. The modifications to VA Benefits I and II curricula 
include an explanation of the eligibility criteria for VA benefits and 
services based on law and applicable VA regulations for Reserve 
Component members. VA's modifications also placed emphasis on more 
specific benefits information, such as how the monthly housing 
allowance under the Post-9/11 GI Bill is calculated for those 
participating less than full-time and for those with less than 100 
percent eligibility. Other than these modifications, the current Active 
Component briefing required little or no other modifications to meet 
the needs of Reserve Component members.

    c. Please describe how VA collects input from these Guard and 
Reserve members on the effectiveness of the VA benefits briefings and 
how VA plans to make changes as needed in the future.
    Response. VA receives quarterly TAP activity feedback through the 
Department of Defense's Participant Assessment. Based on this feedback, 
VA updates curricula to better enhance the Reserve Component members' 
experiences and to provide relevant information to those who are 
demobilizing from a qualifying period of Active Duty. For example, 
based upon feedback received from Reserve Component audiences, VA has 
developed a more robust benefits curriculum that is specific to those 
Servicemembers who are demobilizing from a qualifying period of Active 
Duty. The curriculum can be provided on an as-needed basis or can be 
provided during scheduled Transition Assistance Program classes for 
Reserve Component personnel. VA has removed many of the redundant 
activities in the curriculum and replaced with more hands-on learning 
activities that further enhance the employment, and benefits and 
services knowledge of those separating.
    Additionally, as part of the Department of Defense's Military Life 
Cycle (MLC) program modifications, VA will be able to design and 
introduce individual topics of interest that may be used independently 
or as part of a group of topics. These program modifications are 
designed to enhance VA's flexibility in providing quality benefits 
briefings during demobilization periods and upon Reserve Component 
members' return to their home stations. VA found that there were many 
participants who wrote that they had further questions about Post-9/11 
GI Bill Transfer of Eligibility. As a result, VA created the MLC 
curriculum that talks specifically about this benefit.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Mazie K. Hirono to 
 Curtis Coy, Deputy Under Secretary for Economic Opportunity, Veterans 
      Benefits Administration, U.S. Department of Veterans Affairs
                   vba assistance to hawaii veterans
    Question 1.  For the last several years, I have heard from veterans 
in the state of Hawaii who live on our neighbor islands that do not 
have Veterans Benefits Offices. I have repeatedly heard that veterans 
living in the state's neighbor islands find it difficult to navigate 
the VA, understand the benefits process, and to access VA benefits 
because they do not have access to a benefits office.
    a. Please describe the Veterans Benefits Administration's current 
and future outreach efforts by its staff to veterans residing on the 
islands of Kauai, Maui, Molokai, Lanai and Hawaii Island walking 
through the process of accessing benefits and services?
    Response. Currently, the Veterans Benefits Administration (VBA) 
utilizes outreach coordinators from the Honolulu Regional Office (RO) 
to provide information about VA benefits and services to Veterans and 
Servicemembers who reside in Hawaii. The RO schedules visits to the 
islands of Hawaii (Kona and Hilo), Kauai, Maui, Molokai, and Lanai on a 
regular basis. Benefit counselors from the RO travel to Kona, Hilo, and 
Kauai bimonthly; Maui monthly; and Lanai and Molokai quarterly. 
Outreach dates to these locations are posted on the RO's website and 
announced in the communities via flyers and media spots. The RO also 
conducts a town hall event on each of the outer islands every fiscal 
year. VBA intends to continue this robust outreach schedule for the 
foreseeable future.

    b. Would the Veterans Benefits Administration consider holding 
benefits workshops in 2016 via videoconferencing on a regular basis 
that would allow veterans resident on Hawaii's neighbor islands to 
answer any questions that they may have about their benefits?
    Response. VBA is working to expand the avenues of its outreach 
efforts through videoconferencing. VBA is piloting a program at the 
Cleveland VA Regional Office called TeleBenefits. TeleBenefits allows 
Veterans to communicate ``face-to-face'' with VA benefits counselors 
via a secure video line. This pilot program is testing the feasibility 
of using videoconferencing to connect rural or distant Veterans with 
benefits counselors who can answer questions regarding benefits such as 
disability pension, disability compensation, home loan guaranty, and 
education. Based on the results of this pilot, VBA will determine the 
feasibility of using videoconferencing to reach Veterans served by 
other regional offices, including the Hawaii Regional Office.
             preventing homelessness during the transition
    Question 2.  As a Member of both the Senate Armed Services and 
Veterans Committees, I've particularly interested in and concerned 
about DOD/VA collaboration to prevent homelessness among transitioning 
Servicemembers.
    a. Please describe the extent to which the Departments of Defense 
and Veterans Affairs work to mitigate risk factors for homelessness 
among transitioning servicemembers.
    Response. VA works closely with the Department of Defense (DOD) and 
our interagency partners to create appropriate synergies throughout the 
Transition Assistance Program (TAP) process to ensure transitioning 
Servicemembers at risk of homelessness are connected to the right 
resources prior to separation. Specifically, in response to the 
National Defense Authorization Act for Fiscal Year 2016, VA and DOD are 
working together to leverage the Capstone process (which is part of 
TAP) to identify those who may be at risk of homelessness and ensure 
they are connected to VA.
    As the final step in TAP, Capstone is intended to serve as a 
standardized and comprehensive end-of-career experience to validate, 
verify, and bolster the transition training and other services that 
prepare Servicemembers for civilian life. During Capstone, a 
Servicemember's commander, or his or her designee, verifies that the 
Servicemember meets career readiness standards and has a viable 
Individual Transition Plan (ITP). If the Servicemember fails to meet 
one of these standards or does not have a viable ITP, DOD provides a 
warm handover to an appropriate partner agency, such as VA, or an 
employment and training program funded by the Department of Labor.
    During a warm handover to the VA, the Commander or his/her designee 
will connect the Servicemember with a VA Benefits Advisor (either in-
person, or telephonically) and the VA Benefits Advisor will acknowledge 
that the Servicemember requires individual counseling on VA benefits 
and services for which the Servicemember may be eligible. VA has 
benefits advisors assigned to each military installation to receive 
warm handovers from DOD. Once the TSM is connected to a benefits 
advisor, the benefits advisor will counsel the TSM on the VA benefits 
and services for which they may be eligible, such as disability 
compensation, educational benefits, or health care. Specifically, for 
those TSMs who are determined by DOD to not have an adequate post 
transition housing plan on their ITP, VA benefits advisors will ensure 
that the transitioning Servicemembers are connected with their local 
VHA point of contact to determine eligibility for homeless resources.
    For those TSMs who are located near one of the 21 Military 
Treatment Facilities (MTFs) that have VA liaisons for healthcare, the 
VA benefits advisor will refer the transitioning Servicemembers to the 
appropriate local VA liaison for healthcare. VA liaisons for healthcare 
will coordinate initial healthcare for eligible transitioning 
Servicemembers, which will include a referral to address housing needs 
at the VA Medical Center (VAMC) closest to the transitioning 
Servicemember's home. This coordination will include the use of 
existing tracking capabilities for purposes of data capture. For those 
transitioning Servicemembers who are located outside of the 21 MTFs, 
the VA benefits advisor will contact the designated Homeless Program 
point of contact (POC) at the transitioning Servicemember's local VAMC 
to address current housing needs. The Homeless Program POC will ensure 
that eligible transitioning Servicemembers are given direct access to 
housing resources in the local area through the network of programs and 
services available, with an emphasis on permanent housing placement. 
Additionally, the POC will provide linkages to available supportive and 
prevention resources and programs within VA and the community, 
including local VAMC Transition Care Management Team members.
    The interagency partners monitor TAP collaboration efforts to serve 
at-risk transitioning Servicemembers through the TAP governance 
structure. The TAP governance structure is a two-tier leadership model 
by which the Senior Steering group (SSG) reports to the Executive 
Council (EC). This structure allows for interagency problem solving, to 
include partnership and alignment in curriculum and policy issues 
impacting transitioning Servicemembers. The SSG allows working groups 
to tackle specific issues related to: Information Technology (Portal), 
Performance Management, Strategic Communications, Curriculum, 
Transition, and Data Sharing. Through this governance structure, VA, 
DOD, and the interagency partners are currently collaborating on the 
development of a post-transition survey and analysis of warm handover 
populations.
    Additionally, VA, DOD, and the interagency partners collaborated in 
the development of the 2015 Veteran Economic Opportunity Report. The 
purpose of the report was to evaluate economic competitiveness of 
Veterans versus non-Veterans to inform policy, guide improvement 
strategies, and effectively communicate national priorities. This 
initial report focuses on baseline data and information that clarifies 
the landscape of current economic outcomes of Veterans and 
transitioning Servicemembers. To understand the success of ongoing 
initiatives and identify possible barriers to Veterans economic 
opportunity, this report provides an additional focus on Veterans of 
the 9/11 era in comparison with Veterans of all other eras, as well as 
the non-Veteran population.

    b. What percentage of homeless veterans are recently separated 
Servicemembers?
    Response. The attached chart below shows for Fiscal Years 2013-
2015, approximately 19.1 percent (24,939) of Veterans assessed for 
services by one of the Homeless Programs has been separated five years 
or less. The assessments conducted by the Health Care for Re-entry 
Veterans (HCRV) and the Veteran Justice Outreach (VJO) programs are 
excluded as they serve non-homeless as well as homeless Veterans.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    c. In what areas can we improve DOD/VA collaboration in this 
regard?
    Response. VA and DOD continue to explore options for improving 
transition collaboration and are currently working on a TAP data-
sharing agreement. DOD uses the Servicemember Career Readiness 
Standards/Individual Transition Plan Checklist (DD Form 2958) to 
indicate whether or not a Servicemember has an adequate post-transition 
housing plan. Currently, all DD Form 2958 data is stored through the 
Defense Manpower Data Center (DMDC) and not shared with VA. Therefore, 
in the current state, VA in unable to retain personally identifiable 
information on those Servicemembers who are determined by DOD to have 
inadequate housing plans. If VA and DOD shared this information, the 
agencies could track the progress and status of individuals who are 
determined at risk of homelessness. Therefore, a VA/DOD TAP data-
sharing agreement would allow for greater transparency and tracking of 
Servicemembers who may be at risk of homelessness. It would also allow 
for better long-term data reporting on behalf of both agencies.

    d. What do you see as the major challenges regarding veteran 
homelessness in the coming years and are there legislative proposals 
that would help in this regard?
    Response. Between Fiscal Years 2010 and 2015, VA and its partners 
have reduced the estimated number of homeless Veterans by approximately 
36 percent. Since 2010, over 360,000 Veterans and their families 
members have been permanently housed, rapidly rehoused, or prevented 
from falling into homelessness as a result of VA's homeless continuum 
of services and targeted community resources.
    Despite these gains, there are still challenges regarding Veteran 
homelessness. Women make up approximately 10 percent of the Veterans 
served by VHA specialized homeless programs in FY 2015. Many of them 
resided with their minor children.
    Interventions that address family needs will give VA the necessary 
flexibility to serve a changing population. The Grant and Per Diem 
(GPD) Transition in Place (TIP) Model is more conducive for housing 
women and/or women with dependent children. Should additional funding 
become available, TIP housing for women Veterans and/or women Veterans 
with dependent children will be given consideration.
    As currently authorized by 38 U.S.C. Section 2031, the Health Care 
for Homeless Veteran (HCHV) Program may provide outreach as well as 
``care, treatment, and rehabilitative services (directly or by contract 
in community-based treatment facilities, including halfway houses)'' to 
Veterans defined as homeless by the McKinney-Vento Act. However, that 
authority to provide the described services is limited to Veterans only 
and does not include authority to provide those services to 
accompanying immediate family members of eligible Veterans.
    Although the Supportive Services for Veteran Families (SSVF) 
provides authority to serve Veteran families through grants to 
community agencies, this program does not exist in all communities, and 
VA has found instances where provision of these services exceeds the 
capacity of the local grant provider.
    VA does not have the legislative authority that would allow the 
HCHV Program to provide emergency housing and case management services 
to immediate family members accompanying eligible homeless Veterans. 
The HCHV Program could possibly be expanded to include this type of 
intervention by amending 38 U.S.C. Section 2031(a)(2).
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Richard Blumenthal 
                    to the U.S. Department of Labor
    Question. To what extent does the DOL Core Curriculum include 
counseling for National Guard and Reserve members on their employment 
rights under the Uniformed Services Employment and Reemployment Rights 
Act of 1994 (USERRA)?
    Response. For separating servicemembers, and members of the 
Reserve/Guard, who are coming off of active duty, the Uniformed 
Services Employment and Reemployment Rights Act (USERRA) is briefed to 
them by Department of Defense's Transition Assistance Counselors and 
members of the Employer Support of the Guard and Reserve (ESGR) during 
their pre-separation counseling. ESGR Headquarters staff is responsible 
for training State Committee volunteers on how to perform as USERRA 
information resources and mediators between employers and members of 
the National Guard and Reserve.
    While the Department of Labor's three day Employment Workshop (DOL 
EW) is specifically geared toward the mechanics of getting a good job, 
such as resume writing and skills translation, instructors also cover 
veterans' rights under USERRA on the third day of class.

    Chairman Isakson. Thank you, Senator Sullivan.
    I want to thank all our panelists for their very thorough 
and comprehensive testimony, and I thank the Committee for its 
active participation. I will welcome the second panel forward 
and excuse the first panel. [Pause.]
    If our second panel will come forward and be seated, I will 
introduce everybody, and we will go straight to the testimony.
    Let me welcome our second panel and ask them to be seated, 
and you have witnessed, by patiently waiting for your turn to 
come, what the Committee meeting is going to be like, so we 
will go straight to the testimony.
    I do want to do a little personal privilege, if I can. I 
know we have got The Coca-Cola Company here and Starbucks here, 
and Starbucks has one of their representatives here--Jim Walsh. 
Where is Jim? He left? [Laughter.]
    Well, I had all these nice things I was going to say about 
him. Jim is a former member of the U.S. House of 
Representatives. He served with myself, John Boozman, Sherrod 
Brown, and others. He is a fine contributor, I am sure, to 
Starbucks and was a great contributor to the Congress of the 
United States of America.
    Ms. Voticky is from The Coca-Cola Company. Her official 
title is group director of North American Talent Acquisition, 
Coca-Cola.
    Matt Kress is the manager of Veterans and Military Affairs 
at the Starbucks Company.
    Eric Eversole is president of Hiring Our Heroes, U.S. 
Chamber of Commerce.
    Daniel Smith is assistant director of Veterans Employment 
and Education Division, The American Legion.
    And Michael Zacchea is program manager, Entrepreneur 
Bootcamp for Veterans, University of Connecticut. And you were 
bragged about recently by Senator Blumenthal, so we are 
delighted to have you as well.
    We will start with Ms. Voticky, The Coca-Cola Company.

STATEMENT OF ELIZABETH VOTICKY, GROUP DIRECTOR OF NORTH AMERICA 
           TALENT ACQUISITION, THE COCA-COLA COMPANY

    Mrs. Voticky. Thank you. Good afternoon, Mr. Chairman, 
Ranking Member Blumenthal, members of the Senate Committee on 
Veterans' Affairs, and staff. For the record, my name is 
Elizabeth Voticky. I am group director for North America Talent 
Acquisition at The Coca-Cola Company. Thank you for the 
opportunity to provide testimony today on some of our best 
practices--as well as challenges--in facilitating post-service 
career transition and employment opportunities for those who 
have served our country.
    Mr. Chairman, on behalf of our chairman and CEO, Mr. Muhtar 
Kent, and our nearly 700,000 associates across the country and 
globally, we would like to thank you for your leadership on 
this critical issue. As a Georgia-based company and 
constituent, we are proud to follow your example of maintaining 
an unwavering commitment to our men and women in uniform, both 
while they serve and afterwards.
    We would also like to thank the many military and nonprofit 
partners who are represented here today. The positive strides 
that we have made in veterans recruitment would not be possible 
were it not for their tireless efforts and dedication. Public-
private partnerships truly excel when all stakeholders align 
around a shared set of values and goals, and that is an 
integral part of our narrative today thanks to the productive 
relationships that we enjoy with many gathered here.
    For historical perspective, The Coca-Cola Company's 
partnership with the United States military dates back to the 
USO's beginning in 1941. At that time, our chief executive 
officer, Robert Woodruff, proclaimed that every person in 
uniform would be able to get a bottle of Coca-Cola for 5 cents 
wherever he or she served and what it cost the company. The 
Coca-Cola Company helped quench the thirst of soldiers who 
flocked to USO centers during World War II to socialize and 
enjoy some of the comforts of a home away from home. More than 
74 years later, we remain prouder than ever of our continued 
partnership in support of U.S. servicemen and women both around 
the world and here at home.
    We believe that a successful veterans recruitment and 
retention program must have, at minimum, three intertwined 
components: support from the top through senior leadership that 
recognizes and embraces the unique value of this cohort of 
individuals to any workforce; second, a comprehensive human 
resources engagement plan that encompasses the full continuum 
from job search to recruitment, hiring, on-boarding, and 
retention; and, third, a consistent emphasis on veteran 
integration into the organizational culture and ongoing support 
throughout their career progression. These elements are the 
cornerstone of our efforts.
    One of our senior-most leaders, chief U.S. sales and 
operations officer Mark Rahiya, served as an officer in the 
U.S. Navy Submarine Force--he calls himself a ``bubblehead''--
and he captured the importance of senior leadership engagement 
in this effort at our recent Army PaYS Program MOU signing 
ceremony. He said: ``The young men and women coming out of the 
military understand the value of hard work....We find they are 
high-integrity individuals because of what they have learned as 
part of that military culture, and they bring that with 
them...combined with MOS skills sets, whether they have been 
mechanics or one of any other number of amazing skills they 
learn. You can take advantage of that and get them into the 
right job and train them and you get fantastic employees--and 
very loyal employees as well. And that is a phenomenal 
opportunity for our economy.
    The Committee Members have our full testimony for the 
record, and in the interest of time, I will abbreviate our 
comments somewhat regarding the extraordinarily productive 
partnerships that we have been able to forge with the military 
and civilian agencies represented here today, along with some 
nonprofits.
    What are some of the key partnerships that have worked for 
The Coca-Cola Company? The Military Spouse Employment 
Partnership (MSEP) sponsored by the Department of Defense 
enables us to engage directly on installations on recruiting 
and hiring efforts specifically for those spouses of active-
duty members.
    As you know, the MSEP works in conjunction with the 
Transition Assistance Program office on military installations 
for spouses and children to find employment locally. Coca-Cola 
proactively partners in this and other ways with various 
regional and local TAP offices to provide employment 
opportunities.
    Moreover, this past September, Coca-Cola proudly joined the 
Army Partnership for Youth Success or PaYS Program, a strategic 
partnership between the U.S. Army and corporations, public 
sector agencies, and companies to assist exiting army personnel 
with job opportunities. The program guarantees PaYS soldiers a 
job interview and the potential for employment upon honorable 
discharge.
    Aside from targeted relationships for hiring military 
veterans, Coca-Cola is also proud of our partnership with 
American Corporate Partners (ACP). Through our Military Veteran 
Business Resources Group--which you will hear a little bit more 
about--Coca-Cola associates work with ACP by mentoring on job 
search, resume writing, and business acumen. The Coca-Cola 
Foundation awarded a $50,000 grant in 2014 for programmatic 
funding of this partnership, this mentoring program. Since 
then, over 70 veterans have received one-on-one career 
development assistance from Coca-Cola associates who actually 
volunteer as career mentors in this program.
    The MVBRG, our Military Veterans Business Resource Group, 
was established in 2012 and has 11 field chapters within our 
organization and over 1,000 members. I am honored to be joined 
in the audience by our MVBRG president, Mr. Patrick Haddock, 
who is a lieutenant colonel in the U.S. Army Reserve. Like 
Mark, who I mentioned earlier, Lieutenant Colonel Haddock 
brings a wealth of firsthand knowledge to the table through his 
leadership in support of our veterans recruitment and retention 
efforts. The MVBRG facilitates programs that focus on the 
primary pillars of workplace, marketplace, and community.
    Workplace incorporates engaging our employees in programs 
that benefit our associates who are veterans or associated with 
the military, including guardsmen and reservists. This includes 
partnering with our Talent Acquisition team to help with 
veteran recruiting, mentoring veteran employees in career 
development, as well as assisting company leadership with 
USERRA compliance.
    Marketplace incorporates our efforts to connect our 
veterans in military service with our business. This is done 
through partnerships with the USO, Wounded Warrior Project, and 
our military sales to installations globally.
    Community involves our efforts to support local communities 
with events and programs which support the veteran population. 
These vary widely from sponsoring a race to support a veterans-
related cause to helping with local programs for homeless vets.
    Each year, the MVBRG also hosts a 2-day event for veterans 
and active-duty members in Atlanta at Coca-Cola Plaza. These 
events start with our annual ``USO Stuffing Party'' where our 
associates volunteer to fill 10,000-plus care packages for 
deployed troops around the world. Events also include an 
evening reception; a leadership panel discussion on veteran 
transition; and a full-day workshop on resume writing, 
interviewing skills, and job searches. We also announce an 
annual customer award called ``The President's Veterans Award'' 
in recognition of a customer of ours who has demonstrated 
outstanding support to veterans and servicemembers throughout 
the prior year. Dunkin Brands is our 2015 award recipient. They 
made a financial donation of $5,000 to the USO of Georgia.
    Our MVBRG is a true example of a best practice in an 
organization dedicated to developing a culture of respect and 
understanding of our veteran associates. The team is entirely 
comprised of volunteers who take time out of work and home life 
to mentor, plan, and execute a variety of programs and events 
aimed at enhancing the work-life experiences of our veteran 
associates. Our leadership is dedicated to providing a culture 
where our associates are given the time--not only to serve but 
also to volunteer on company time--to develop the programs that 
veterans so desperately need and want to facilitate their 
assimilation.
    The VETLANTA Partnership was founded in 2014 with really 
our MVBRG--too many acronyms. It is a partnership of 20-plus 
Atlanta-based Fortune 500 Company veterans groups focused on 
improving veteran homelessness and challenges, providing 
mentoring and helping with veteran employment. More than 70 
veterans have received this one-on-one career development 
assistance from associates, as I mentioned earlier, and the 
VETLANTA program, which is not in the testimony because I only 
found out on Monday, is actually starting up a web site and 
will also include a job board.
    Coca-Cola also has an internal training program for our TA 
team to help them translate military job descriptions typically 
found on veterans' resumes into the civilian workplace context. 
Recruiting military veterans is successful when we have 
properly trained our recruiting teams to interpret and 
translate military experience and skills into relative business 
skills within our organization. Our plan is to expand upon this 
best practice and launch leadership knowledge courses to assist 
our current non-military leaders in better understanding the 
skill sets brought to our organization by veterans.
    While working with the TAP program has many advantages, we 
would agree that there are some areas of opportunity where 
updates could make it an even stronger and more robust partner. 
So the idea of the administrative process currently underway 
versus the single point of contact is really all about 
technology and implementing a technology solution that would 
allow us more easily to reach out to exiting veterans through 
the TAP program.
    The task of translating military nomenclature regarding job 
skills and roles into terms that the civilian workplace can 
understand remains a constant challenge--even in a perfect 
world. In the TAP model currently, there is not enough or does 
not seem to be enough coaching and mentoring that goes along 
with the resume writing to make sure that the context is 
applicable.
    We talked earlier about a central point of contact. Every 
TAP office--and I can use a recent example. In September, we 
were 500 drivers short across the country. We knew that the 
CDLs were easily obtained by drivers exiting the military, and 
we ended up being able to physically contact 20 TAP locations 
and post our job manually at their sites. We only received 12 
resumes.
    One example of where technology has been leveraged with 
some effectiveness can be found in the eBenefits tool. Although 
it is a great new way of getting jobs out to military personnel 
through a scrape of our job site, it is receiving considerably 
less traffic than on commercial sites such as the Monster.com 
military job board, for example. We believe this is due, in 
large part, to a lack of targeted marketing, if you will, to 
transitioning military personnel that would drive traffic to 
the site specifically----
    Chairman Isakson. I hate to interrupt, but you are going to 
have to wrap up so we have time for everybody. Thank you.
    Mrs. Voticky. Sorry. OK. You know, I think will go right to 
my closing.
    In closing, we would like to once again thank you, Mr. 
Chairman, and HON. Members of the Committee and staff for your 
leadership. We would like to applaud all of the nonprofit 
partners assembled here today. In particular, to our military 
partners, the branches, and men and women in uniform whom you 
represent, the Coca-Cola Company would like to say thank you 
for your service and reaffirm our commitment to supporting your 
post-service careers.
    [The prepared statement of Mrs. Voticky follows:]
Prepared Statement of Mrs. Elizabeth Voticky, Group Director for North 
           America Talent Acquisition, The Coca-Cola Company
    Good afternoon Mr. Chairman, Members of the Senate Committee on 
Veterans' Affairs and staff. For the record, my name is Elizabeth 
Voticky, Group Director for North America Talent Acquisition at The 
Coca-Cola Company. Thank you for the opportunity to provide testimony 
today on some of our best practices--as well as challenges--in 
facilitating post-service career transition and employment 
opportunities for those who have served our Country.
    On behalf of our Chairman and CEO, Mr. Muhtar Kent, and our nearly 
700,000 associates across this country and globally, we would also like 
to thank the many military and nonprofit partners who are represented 
here today. The positive strides that we have made in veterans 
recruitment would not be possible were it not for their tireless 
dedication and efforts. Public-private partnerships truly excel when 
all stakeholders align around a shared set of values and goals and that 
is an integral part of our narrative today thanks to the productive 
relationships that we enjoy with many of those gathered here.
    For historical perspective, The Coca-Cola Company's partnership 
with the United States Military dates back to the USO's beginning in 
1941. At that time, former Coca-Cola Chief Executive Officer, Robert 
Woodruff, proclaimed that ``every person in uniform will get a bottle 
of Coca-Cola for five cents wherever he or she is and whatever the cost 
to the company.'' The Coca-Cola Company helped quench the thirst of 
soldiers who flocked to USO centers during World War II to socialize 
and enjoy some of the comforts of a ``home away from home.'' More than 
74 years later, we remain prouder than ever of our continuing 
partnerships in support of U.S. service men and women both around the 
world and here at home.
    We believe that a successful veterans recruitment and retention 
program must have, at minimum, three intertwined components: (1) 
support from the top through senior leadership that recognizes and 
embraces the unique value of this cohort of individuals to any 
workforce, (2) a comprehensive human resources engagement plan that 
encompasses the full continuum from job search to recruitment, hiring, 
on-boarding and retention and (3) a consistent emphasis on veteran 
integration into the organizational culture and ongoing support 
throughout their career progression. These elements form the 
cornerstone of our efforts.
    One of our senior-most leaders, Chief Customer Officer Mark Rahiya, 
served as an officer in the U.S. Navy Submarine Force, and captured the 
importance of senior leadership engagement in this effort at our recent 
Army PaYS Program MOU signing ceremony where he said: ``The young men 
and women coming out of the military understand the value of hard 
work,'' he said. ``We find they're high-integrity individuals because 
of what they've learned as part of that military culture, and they 
bring that with them . . .  combined with MOS skills sets, whether 
they've been mechanics or one of any other number of amazing skills 
they learn. You can take advantage of that and get them into the right 
job and train them and you get fantastic employees--and very loyal 
employees as well. That's a phenomenal opportunity for our economy.''
i. the coca-cola company: veterans recruitment and hiring partnerships 
                             best practices
    Coca-Cola is currently engaged on various installations with the 
Military Spouse Employment Partnership (MSEP), sponsored by the 
Department of Defense (DOD). The MSEP works in conjunction with the 
Transition Assistance Program (TAP) office on military installations to 
assist spouses and children of active duty members to find employment 
locally. Currently, Coca-Cola is actively engaged with MSEP in Florida 
providing employment opportunities. Coca-Cola proactively partners in 
this and other ways with various regional and local TAP offices to 
provide employment opportunities at all levels of the organization.
    Additionally, this past September, Coca-Cola proudly joined the 
Army Partnership for Youth Success (PaYS) Program--a strategic 
partnership between the US Army and corporations, companies, and public 
sector agencies to assist exiting army personnel with job 
opportunities. The Program guarantees PaYS Soldiers a job interview and 
the potential for employment after honorable discharge or completion of 
required active duty training.
    Aside from targeted relationships for hiring military veterans, 
Coca-Cola is also proud of our partnership with American Corporate 
Partners (ACP). Through our Military Veteran Business Resources Group 
(MVBRG)--which you will hear a bit more about momentarily--Coca-Cola 
associates work with ACP by mentoring on job search, resume writing and 
business acumen. The Coca-Cola Foundation awarded a $50,000 grant in 
2014 for programmatic funding of the mentoring program. Since then, 70+ 
veterans have received one-on-one career development assistance from 
Coca-Cola associates who volunteer as career mentors.
A. The Coca-Cola Company Military Veterans Business Resource Group
    The Coca-Cola Military Veterans Business Resource Group (``MVBRG'') 
was established in 2012 and has 11 field chapters and 1,000+ members. I 
am honored to be joined in the audience by our MVBRG President, Mr. 
Patrick Haddock, Lt. Col., US Army Reserve. Like Mark, who I mentioned 
earlier, Lt. Col. Haddock brings a wealth of first-hand knowledge to 
the table through his leadership in support of our veterans recruitment 
and retention efforts. The MVBRG facilitates programs that focus on 
three primary pillars; Workplace, Marketplace and Community:

    1) WORKPLACE incorporates engaging our employees in programs that 
benefit our associates who are veterans or associated with the military 
including Guardsmen and Reservists. This includes partnering with 
Talent Acquisition to help with veteran recruiting, mentoring veteran 
employees in career development, and assisting company leadership with 
USERRA compliance.
    2) MARKETPLACE incorporates our efforts to connect our veterans in 
military service with our business. This is done through partnerships 
with the USO, Wounded Warrior Project, and our military sales to 
installations globally.
    3) COMMUNITY involves our efforts to support local communities with 
events and programs which support the veteran population. These vary 
widely from sponsoring a race to support a veterans-related cause, to 
helping with local programs for homeless veterans.

    Each year, Coca-Cola's MVBRG also hosts a two-day event for 
veterans and active duty members in the Atlanta area at Coca-Cola 
Plaza. These events start with our annual ``USO Stuffing Party'' where 
our associates volunteer to fill 10,000+ care packages for deployed 
troops around the world. Events also include an evening reception; a 
leadership panel discussion on veteran transition; a full day workshop 
on resume writing, interviewing skills and job searches. We also 
announce an annual customer award, The President's Veterans Award, in 
recognition of a customer who has demonstrated outstanding support to 
veterans and servicemembers throughout the prior year. Dunkin Brands is 
our 2015 award recipient and they made a financial donation of 
$5,000.00 to the USO of Georgia.
    Our MVBRG is a true example of a best practice in an organization 
dedicated to developing a culture of respect and understanding of our 
veteran associates. The team is entirely comprised of volunteers who 
take time out of work and home life to mentor, plan and execute a 
variety of programs and events aimed at enhancing the work-life 
experiences of our veteran associates. Our leadership is dedicated to 
providing a culture where our associates are given the time--not only 
to serve--but also to volunteer on company time to develop the programs 
that veterans so desperately need and want to facilitate their 
assimilation into corporate culture.
B. VETLANTA Partnership
    The Coca-Cola MVBRG founded VETLANTA in 2014 as a partnership of 
20+ Atlanta based Fortune 500 Company veterans groups focused on 
improving the veteran homeless challenges, provide mentoring and 
helping with veteran employment. Through a partnership with American 
Corporate Partners (ACP), VETLANTA and our MVBRG, Coca-Cola associates 
provide mentoring and career development support to transitioning 
service men and women on job search, resume writing and business 
acumen. As noted earlier, more than 70 veterans have received one-on-
one career development assistance from Coca-Cola associates who 
volunteer as career mentors.
C. Internal Training for Talent Acquisition & Internal Non-Military 
        Leaders
    Coca-Cola also has an internal training program for our Talent 
Acquisition team to help them translate military job descriptions 
typically found on veterans' resumes into the civilian workplace 
context. Recruiting military veterans is successful when we have 
properly trained our recruiting teams to interpret and translate 
military experience and skills into relative business skills within our 
organization. Our plan is to expand upon this best practice and launch 
leadership knowledge courses to assist our current non-military leaders 
in better understanding the skillsets brought to our organization by 
veterans.
ii. opportunities for improved public/private collaboration on veterans 
                           transition efforts
A. Need for Improved Administrative Structure
    While working with the TAP Program has many advantages, we would 
agree that there are some areas for improvement where updates could 
make it an even stronger and more robust partner. As you may know, the 
TAP Program largely relies upon a contractor-based administrative 
model. Such a structure poses a barrier to establishing solid 
relationships due to different contractors and/or points-of-contacts 
changing on a regular basis. There is no central point of contact for 
companies like ours that are national in scope.
    Frequent changes in contract entities and personnel prevent these 
critical players from developing critical institutional relationships 
and memory with their military and civilian partners. For example, 
changing contractor contacts mean that new personnel often have to 
navigate a learning curve to assist transitioning candidates with the 
crucial task of translating military experience and its unique language 
into business terminology. To be certain, the task of translating 
military nomenclature regarding job skills and roles into terms that 
the civilian workplace can understand remains a constant challenge--
even in a perfect world. But this contractor-based model makes it even 
more difficult to have points-of-contact who have successfully mastered 
that and other skills.
    These types of structural issues--and their resulting 
inefficiencies--are also mirrored within the Veterans Administration 
(VA) context at the state level. State-run DVOP and LVER programs 
through the VA are isolated and, as such, companies like ours are 
unable to leverage fully the programs offered to veterans through these 
offices as they stand alone and vary from state to state. Improved 
coordination could exponentially increase the effectiveness of these 
resources.
B. Better Use and Integration of Technology
    We are all constantly working to better understand and leverage 
technology in our organizations--civilian and military alike. TAP 
offices continue to rely upon hard copy to a significant degree. For 
example, requiring a paper copy of a job posting which is then manually 
posted on a job board is just one such illustration. The result is that 
only those who physically walk into the TAP office see our postings. 
Without a central contact list, every TAP office would have to be 
called and contacts made prior to emailing or, in many cases faxing, a 
job posting to the site. These added steps all serve to burden and slow 
down the process when we are hiring across the country.
    One example of where technology has been leveraged with some 
effectiveness can be found in the e-Benefits tool. Although it is a 
great new way of getting jobs out to military personnel through a 
scrape of our own job site, there is considerably less traffic via this 
channel than on commercial sites such as Monster's military job board. 
We believe this is due, in large part, to a lack of a targeted 
marketing campaign, if you will, to transitioning military personnel 
that would drive traffic to the site specifically for careers. It does 
hold potential, however, and we believe it could be more fully 
leveraged to drive employment opportunities.
C. Inability to Promote Specific Jobs w/Specific Employers
    Aside from the aforementioned opportunities, TAP's ability to 
realize its full potential is further inhibited by the limitation on 
promoting a specific job with a specific employer. Within the TAP 
context, transitioning personnel are often unable to formally discuss 
what job opportunity would constitute the best fit and which companies 
offer that type of job. Tailoring inquiries to specific individuals can 
help to not only improve the overall job search experience but also 
increase the chances for a successful match between candidate and 
prospective employer.
D. Syncing the Military Transition Timeline & Private Sector Hiring 
        Cycle
    It must be emphasized that the need for continuing innovation does 
not solely rest on the public sector/military side of the ledger. The 
private sector must also continue to come up with creative ways of 
resolving obstacles to the effective facilitation of veterans 
recruitment and hiring. In that vein, a major challenge for the private 
sector continues to be misalignment between the timeline for a 
transitioning candidate's search and the timeline for a company's 
hiring process. Most companies post jobs for immediate needs, and 
exiting service personnel are often weeks or months from an exit date 
when they begin to search. Our organization and others like ours need 
to find a way to pipeline more effectively and better structure the 
contact management of qualified personnel.
    There are several private agencies that attempt to fill this gap 
but, while free to service personnel, they charge fees for private 
sector use of their services. This is an uneven fix that requires more 
collaborative work between all partners in this effort. Our view is 
that they capitalize on the gaps in the current government model for 
assisting in hiring veterans and are successful because there are few 
other options. We would like to see the government programs fill in the 
gaps and bridge the barriers that prevent or challenge organizations 
focused on hiring vets, from achieving this objective.
                 iii. how can veterans better prepare?
    Where can veterans themselves assist in this effort? Where we see 
an area of potential improvement is in the emotional preparedness for 
the change in environment. Veterans are accustomed to a plan, a 
direction, and seldom work well in ambiguity--it's not their culture or 
experience in the military to be left with little or no direction. In 
the corporate world, barring a controlling leader, most mid-management 
and frontline associates are left to do the job. This is something that 
although they are advised of, they haven't experienced as military 
personnel. Training in how a real world organization works and what 
they expect from their teams would be a very valuable addition to the 
transition experience.
    A successful transition for our organization is when we are able to 
translate a servicemember's skills and experience into a role that is 
not only well suited, but provides both personal and professional 
fulfilment through a challenging and growth-oriented opportunity for 
the veteran. Through our MVBRP, we assist veterans with their 
assimilation into our organization and culture through a variety of 
ways. Having a veteran find the right role for them within our 
organization, learning and developing a career that is satisfying and 
productive and growth with the organization--that is truly a successful 
transition.
                              iv. closing
    In closing, we would like to once again thank you, Mr. Chairman, 
and the honorable Members of the Committee and staff for your 
leadership. We would also like to applaud all of the nonprofit partners 
assembled here today for their work. In particular, to our military 
partners, the branches and men and women in uniform whom you 
represent--The Coca-Cola Company would like to say thank you for your 
service and reaffirm our commitment to supporting your post-service 
career plans. This commitment is based not only upon the belief that it 
is the ``right'' thing to do . . .  but also upon the understanding 
that a company in today's complex global economy cannot effectively 
compete without leveraging the unique skillsets and experiences of 
veterans.
    As we have done since 1941, when thousands of men and women were 
sent to military bases around the world at the outset of WWII, Coca-
Cola rallied behind our men and women in uniform. Today, we continue to 
rally behind you as we work to create even more rewarding and 
challenging employment opportunities for veterans. Thank you.

    Chairman Isakson. Thank you, Ms. Voticky.
    Mr. Kress, welcome. Before you start, I want Mr. Walsh to 
stand up. I just bragged about you when you left the room. This 
is the Jim Walsh who made such a great contribution to the U.S. 
Congress from the great State of New York. We are glad to have 
you today. Thank you.
    Mr. Kress.

 STATEMENT OF MATTHEW KRESS, MANAGER OF VETERANS AND MILITARY 
               AFFAIRS, STARBUCKS COFFEE COMPANY

    Mr. Kress. Thank you. Chairman Isakson, Ranking Member 
Blumenthal, and Members of the Committee, thank you for the 
opportunity to speak with you today about the Starbucks 
commitment to hire and honor 10,000 veterans and military 
spouses. As a post-9/11 veteran combat veteran, your action on 
behalf of veterans and military families is much appreciated.
    With a desire to serve something greater than myself, I 
spent 22 years in the Marine Corps, enlisted and commissioned 
officer, active and reserve. After a special operations 
deployment to Iraq in 2004, I left active duty to be a 
firefighter in Southern California and remained in the 
Reserves. During this time, I used the post-9/11 GI bill to 
earn a master's degree from the University of Washington and an 
MBA from UCLA.
    Like many who have served, I have seen more than my share 
of sacrifice and valor, and I am here today as a proud veteran. 
I am grateful for the support of my Government and honored to 
help Starbucks and this Committee to make successful 
transitions the norm.
    Long before I joined Starbucks, the company was listening 
to its veterans, partnering with the Government and veteran 
service organizations, and receiving guidance from an 
incredible group of leaders like former Secretary Robert Gates, 
who sits on the Starbucks board, General (Ret.) Peter 
Chiarelli, and many others as we continue to deepen our 
commitment to veterans and military spouses.
    I would like to share with you today some of the ways 
Starbucks is supporting the transition of veterans.
    The commitment began with our veterans hiring initiative. 
With the support of organizations such as Hiring Our Heroes, we 
are more than halfway to our goal of hiring 10,000 veterans and 
military spouses by the end of 2018.
    Many companies hire veterans. What makes Starbucks' 
commitment unique is that we are not just hiring, we are 
honoring and creating career opportunities for veterans, their 
spouses, their families, and connecting servicemembers with 
their communities.
    Let me talk for just a moment about honoring. We made it 
clear from the beginning that we welcome veterans and military 
spouses, not out of a sense of obligation or patriotism, but 
because we need them. They reinforce our values of service, 
community, and responsibility. Our CEO, Howard Schultz, often 
says, ``We hire them because they make us better.''
    Starbucks is equally committed to hiring military spouses 
and retaining them as they move from one duty station to 
another. We are proud to work with Blue Star Families because 
we know nothing will support a military family more than hiring 
talented military spouses who are growing their own careers.
    We believe we are in a unique position with our national 
footprint in 7,000 communities to address the core reason why 
veterans struggle in their transition. There is a cultural 
divide that separates the 1 percent that have voluntarily 
served from the 99 percent who have not.
    Let me briefly mention two ways we are bringing communities 
together to bridge this divide.
    The first way is through Starbucks' Military Family Stores. 
Working with military and veteran service organizations, 
Starbucks has dedicated 16 Military Family Stores with plans to 
have 30 across the country by the end of 2018.
    A second way we are bridging the divide is through an 
unprecedented meeting of the minds. Starbucks recently brought 
together the Nation's leading advocates for veterans and 
spouses, including officials from the DOD, DOL, VA, the head of 
the USO, and Secretary Gates to talk about how we can address 
this cultural issue at the root of transition problems.
    We called the meeting the ``Muster'' because it took an 
honest accounting of our national state of readiness when it 
comes to our veterans. We resolved to make a list of 
recommendations to you and the White House when we muster again 
here in Washington, DC, in April.
    Starbucks has many other initiatives to support 
transitioning veterans and spouses in the community. I have 
more details in my full testimony that I would like to have 
submitted for the record. These initiatives include the recent 
expansion of the Starbucks College Achievement Plan. Now it is 
enabling a veteran to give their Starbucks-funded, tuition-free 
education through Arizona State University to a spouse or 
child.
    Starbucks has learned a lot on its journey, and we are just 
getting started. We have learned every veteran is different. 
The stereotypes, positive or negative, do not benefit vets. 
Each one has a different experience, aspiration, capability, 
and motivation. We need to treat veterans as individuals and 
human beings, not as superhumans or victims.
    We also know a company's effort to help transitioning 
veterans must be led from the top and the bottom. We depend on 
our Veterans Employee Network to help advise and guide our 
corporate efforts and mentor new hires. At the top of our 
company, our CEO has made this a priority. I call on more CEOs 
to follow this example and embrace these challenges or, in his 
words, ``make it personal.''
    Finally, I want to thank the leadership of this Committee 
and its members for your efforts and the opportunity to work 
together. Starbucks knows that you have also made it personal.
    I look forward to answering any questions you may have. 
Thank you.
    [The prepared statement of Mr. Kress follows:]
 Prepared Statement of Matthew Kress, Manager of Veterans and Military 
                   Affairs, Starbucks Coffee Company
    Good afternoon Chairman Isakson, Senator Blumenthal, Senator 
Murray, and Members of the Committee. As a post-9/11 veteran, it is an 
honor to share with you how Starbucks Coffee Company is supporting the 
successful transition of veterans, and how our efforts are augmented 
through collaboration with a broad group of companies, public agencies, 
non-profits and veteran/military service organizations. I am also 
pleased to offer some thoughts on our policies and programs that we 
believe are critical to improving this experience.
    To give some personal context to my remarks, I spent 22 years in 
the Marine Corps, in both active and reserve service as a commissioned 
officer and an enlisted Marine. After deploying to Iraq in 2004 with 
Marine Corps SOCOM Detachment, the initial USMC Force Contribution to 
USSOCOM, I left active duty to become a firefighter in Southern 
California. During my time in public safety, I took advantage of the 
Post-9/11 GI Bill to earn a masters degree in strategic planning from 
the University of Washington and an MBA from UCLA. When I then turned 
to the corporate world, I was surprised to learn that, despite my 
advanced education and years of leadership and management experience in 
very challenging environments, I had a difficult time translating my 
value and experience for potential employers. If I had a hard time 
sparking interest, even with my graduate degrees and background as an 
officer, you can imagine the challenges other servicemembers face when 
they speak with companies. Fortunately, I was helped by veterans in the 
corporate setting, who were generous with their time and opened their 
networks to me. Through these connections, I landed at Starbucks--in a 
role where I can continue my career serving others at a company that 
cares tremendously about our military members, has the leadership and 
humility to incorporate an effective veteran hiring program into the 
culture, and is pushing others to join the movement.
    In November 2013, Starbucks made a groundbreaking commitment to 
hire at least 10,000 veterans and military spouses in five years. In 
less than two years, our company has already hired over 5,600--more 
than half of our goal. Throughout this process, we have recognized that 
serving our veterans and military spouses is about much more than 
simply providing jobs. Starbucks recognizes the value of the unique 
skills, experiences and knowledge that veterans and their spouses have 
gained through their service. Our goal, therefore, is not only to hire 
10,000 veterans, but also to create a work environment and corporate 
culture that fosters their personal and professional growth. A steady 
paycheck is important when shifting jobs, but veterans and their 
families are not just shifting jobs when they leave the service. They 
are leaving an environment where they had a clear sense of purpose and 
worked closely with others toward goals that were much bigger than 
themselves. I am proud to say that Starbucks provides that environment.
    Driven by a passion and dedication that starts with our chief 
executive and chairman, Howard Schultz, and extends to the rest of our 
partners (employees), Starbucks is committed to creating a workplace 
and a culture where our military members and their spouses can succeed.
    Our journey started with engaging leaders at all levels of our 
organization on the tremendous untapped value and experience of 
veterans and military families. As a socially conscious company, we 
understood the moral imperative of hiring veterans and military 
spouses. We also recognized that with less than 1 percent of our 
population serving in the Armed Forces, there is a basic lack of 
understanding of our servicemembers throughout America. Acknowledging 
that we were not vet-ready when we began our hiring initiative, 
Starbucks set out to prepare our organization, specifically hiring 
managers with training and resources to help them understand and engage 
the military talent pool. With a high level of buy-in and support 
throughout the company, we created a dedicated military recruiting team 
that focuses on more than finding talented candidates; they also help 
managers and recruiters in specific business units translate and 
leverage the unique experiences and skills that each veteran candidate 
brings to us. To ensure a long-term positive experience for the veteran 
and the employer, companies must have human resources personnel who 
understand veterans. Doing so will enable veterans to translate their 
unique skills, find a meaningful career path, and enjoy a successful 
onboarding, training and development experience. The result will be a 
win-win: veterans will find rewarding jobs and companies will retain 
talent, maximizing their return on investment.
    We have also listened to our partners and developed or improved 
several programs and policies that are unique to our military and 
veteran populations. For our military spouse partners who are regularly 
relocated, we are streamlining a system for transferring them to new 
Starbucks locations. For current reservists, we provide 80 hours of 
flexible leave to facilitate military participation. Finally, our 
veteran partners can now gift their College Achievement Plan, which is 
a fully funded remote bachelors degree at Arizona State University, to 
their spouse or child.
    We also recognized the need to build a corporate environment that 
not only understands and values veterans but infuses their values into 
the company's culture. For Starbucks, this started with the recognition 
that much of what has made the company incredibly successful parallels 
military values. Commitment to excellence, a strong sense of ethical 
and moral principles, camaraderie, and empowerment of our partners are 
among the values that make Starbucks a special place to work. In turn, 
the presence of more veterans at Starbucks has prompted many of our 
non-veteran partners to embrace our veterans' commitment to service, 
becoming more engaged and involved in volunteer and community programs. 
Another internal cultural piece is the growth of our military affinity 
group, Armed Forces Network (AFN), which has chapters throughout the 
country. The AFN provides a source of mentorship, camaraderie and 
connection for our veteran partners. It is also a forum and focal point 
for building our veteran cultural competence. In return, our veteran 
partners pay it forward by engaging in community volunteer activities 
and represent the best of Starbucks.
    While these efforts have not been flawless, we continue to learn 
from our mistakes and drive forward to serve those who have so 
selflessly served our Nation.
    We also have sought to collaborate among a diverse, cross sector 
audience to promote veteran hiring and achieve a broader recognition of 
the unique skills, values and commitment to service that our post-9/11 
veterans possess. This started last year with the Concert for Valor in 
Washington and the bestselling book For Love of Country, which called 
attention to the sacrifices and contributions of our veterans and their 
families. In October of this year, we gathered more than 160 
representatives from corporations, all levels of government, the 
military services, non-profits and foundations for an event called the 
Muster. During that two-day gathering, we discussed the urgency of 
addressing the military-civilian drift and how to work collectively to 
reverse it. Utilizing the best practices and lessons learned from our 
experiences, as well as those of the other attendees, we are moving 
forward to impact the transition experience for military members and 
their families. In April, 2016, we will come together again in 
Washington, DC, with a diverse group of decisionmakers and influencers 
to propose specific actions that will impact the national conversation 
on transition and restore the understanding and true appreciation for 
our servicemembers and their families.
    At a local level, Starbucks is using our scale to create 
connections to bridge the military-civilian divide. Utilizing our 
Military Family Stores, which are situated in communities near military 
installations, we are working with a range of our partners such as the 
USO, Blue Star Families, and the Hiring Our Heroes to provide needed 
transition programming and services such as resume counseling, 
interviewing skills and family cohesion counseling. A very successful 
example of this is Military Mondays, which was developed in conjunction 
with the law school at the College of William and Mary, to provide free 
legal counseling to servicemembers at our stores. Military Mondays is 
now scaling nationally and growing to include other critical services 
such as financial literacy training and investment counseling. Our 
stores are also a hub for organizing community service projects, driven 
by our partners, and in conjunction with the veteran groups Mission 
Continues and Team Rubicon.
    Moving forward, our ambition is to change what it means to support 
our troops. While being thanked for their service is appreciated, 
military members and their spouses want to be given the opportunity to 
demonstrate the incredible leadership, experience and talent that they 
bring to the workplace. We will continue driving and refining this 
effort through our policies, storytelling and partnerships. And we will 
continue sharing our model and lessons with others.

    Thank you for inviting me to speak with you today. After serving 
our country for 22 years on several levels, it is my honor to discuss 
the Starbucks veterans program, which is making a difference in the 
lives of our military members and their families. Howard Schultz and 
our Starbucks partners look forward to working with the Senate Veterans 
Committees in the months and years to come on these efforts.

    Chairman Isakson. Thank you for your testimony.
    Mr. Eversole.

STATEMENT OF ERIC EVERSOLE, PRESIDENT, HIRING OUR HEROES, U.S. 
                 CHAMBER OF COMMERCE FOUNDATION

    Mr. Eversole. Good afternoon, Chairman Isakson and Ranking 
Member Blumenthal and the members here today. My name is Eric 
Eversole. I am the president of Hiring Our Heroes. I am also a 
vice president at the U.S. Chamber of Commerce.
    I really want to thank the Committee for taking this issue 
up and exploring the transitioning aspects of our 
servicemembers and how well we are doing, because I think it--
you know, it is not only important for our veterans and their 
families; it is absolutely critical for American business. 
These are tremendously talented young men and women who have 
tremendous experience, and from an American business 
perspective, we need to get this right. The Chamber started 
this effort a little over 4 years ago, and we did so with an 
eye toward a veteran population that was struggling 
tremendously and a spouse population that was struggling 
tremendously. We had high rampant unemployment, and we started 
out with an area that we do well, which is connect local 
Chambers of Commerce, the businesses in those local 
communities, with the veterans in those populations and those 
population centers. We started out the first year with 100 
hiring events. The next year we did 200. The year after that we 
did 400. Now, a little over 4\1/2\ years later, we have done 
this week 960 hiring events throughout the country to help 
transitioning servicemembers, veterans, and their families find 
meaningful employment opportunities.
    But, the one thing that rings true with respect to our 
efforts over the last 4 years is that none of those efforts 
would we have been able to accomplish but for the tremendous 
support of a lot of local and national partners, and those 
local and national partners include the Federal agencies that 
testified before us, DOL, DOD, Veterans Affairs, the SBA--a lot 
of great companies as well. Starbucks has been a great partner 
of ours, as has Capital One, Toyota, and USAA. We have also had 
a lot of great local partners, like The American Legion 
helping, supporting in those local communities are absolutely 
critical in those efforts.
    I think that, you know, from an organization perspective, 
those partnerships are going to be one of the long-term keys to 
our success, because I think one thing that most people in this 
space recognize is that not one organization, not one agency, 
not one company, not one nonprofit organization is going to 
solve the challenges of veterans on their own. It is going to 
take a community effort both at a national and local level, and 
we are proud to be a part of that effort.
    The other aspect of what we have seen that is so critical 
is we have to get left of transition. We have to talk to these 
young men and women well before they get out. It cannot be 
simply a decision of, do I stay put in my last duty station or 
do I go back to my home of record where there may not be good 
job or career opportunities? We need to help these 
servicemembers understand that they need to start planning 
early.
    We also have to understand, I think, a very important 
question that has come up to some extent today. You know, the 
unemployment rate is an important indicator of some success, 
but the sole basis of success should not be whether it is a 
job, did we get a servicemember a job. The real question should 
be: Did we get him the right job? Did we get him the right 
career opportunity utilizing their vast experience and skill 
sets to their fullest?
    The fourth point I will make before I end is let us not 
forget about military spouses in this equation. We have to get 
it right for military spouses. The military spouses over the 
last 4\1/2\ years and longer have continued to struggle with 
high unemployment rates, and we have to get it right, because 
it is not only important for that servicemember and his or her 
family member, but it is important from a national defense 
perspective because a lot of young servicemembers are getting 
out because their spouses are giving up career opportunities. 
That is what we are looking forward to in 2016, is to create 
those opportunities.
    I look forward to your questions, and thanks again for 
having us here today. Thank you.
    [The prepared statement of Mr. Eversole follows:]
Prepared Statement of Eric Eversole, President, Hiring Our Heroes, U.S. 
                     Chamber of Commerce Foundation

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Isakson. Thank you, Mr. Eversole.
    Mr. Smith.

    STATEMENT OF DANIEL SMITH, ASSISTANT DIRECTOR, VETERANS 
     EMPLOYMENT AND EDUCATION DIVISION, THE AMERICAN LEGION

    Mr. Smith. Good afternoon, Chairman Isakson, Ranking Member 
Blumenthal, and distinguished Members of this Committee. On 
behalf of our National Commander, Dale Barnett, and the over 2 
million members of The American Legion, we thank you for the 
opportunity to testify before this Committee regarding the 
Transition Assistance Program and The American Legion's 
experience and interests.
    Before getting started on the substance of TAP and the 
Legion's experiences, we would first like to thank the Members 
of this Committee who voted in favor of passing the 2015 
National Defense Authorization Act. The NDAA included a 
critical measure making TAP GPS mandatory. Prior to this new 
measure, our servicemembers were required to attend a 5-day 
block of instruction prior to separating from their respective 
branch of service, and if they personally desired to attend the 
additional GPS courses, they first needed to seek approval from 
their leadership. The NDAA made it mandatorily available for 
the servicemember, making it a requirement for the leadership 
to allow the requesting individual to attend the training. 
Thank you.
    Leaving the military environment and transitioning back 
into the civilian sector is a task that many servicemembers 
find to be an unfamiliar battle. Fortunately, TAP was created 
with the intention to ease the transition for our Nation's 
veterans. The American Legion had the opportunity on several 
occasions and in numerous sites to observe both the 5-day 
mandatory portion along with the optional specialized GPS 
courses.
    We believe that part of the solution to veteran 
unemployment lies in a collaboration between Government 
entities and the private sector. As such, The American Legion 
has responded by bringing employment workshops and hiring 
events to transitioning servicemembers with support from the 
U.S. Chamber's Hiring Our Heroes. Our Employment Empowerment 
Summit is a 2-day event that ends with a job fair. We host this 
summit in various cities and provide transportation and lodging 
to the servicemembers going through the TAP. Before the 
Veterans Opportunity to Work, or VOW, Act of 2011, companies in 
the private sector were included in the transition process of 
TAP, meaning they were invited to come speak and instruct the 
transitioning servicemembers. In the modern-day TAP, that is, 
sadly, not the case. The American Legion certainly believes 
having the private sector present to assist in conveying what 
it takes to be successful in their realm is vital for the 
veterans because many servicemembers will be seeking work in 
the private sector and would benefit greatly from this.
    The American Legion recognizes that one of TAP's main roles 
is to be an introduction to the services and programs available 
to the veterans and to provide a warm handoff to the agencies 
that administer those programs. We feel that TAP does provide 
the appropriate material, and from the veterans that we have 
spoken with, they express that they are happy with the 
knowledge gained after 5 days of curriculum. The main issue 
that we feel needs to be addressed in regard to the 
transitioning is what happens after the TAP course.
    Furthermore, another point of contention that is under the 
current operating procedures with DOD does not share the 
contact information of the separating servicemembers with the 
Department of Labor. If the Department of Labor had access to 
the servicemember's contact information, the Disabled Veterans' 
Outreach Program representatives, or DVOPs, and Local Veteran 
Employment Representatives, LVERs, could initiate a 
conversation post-separation to ensure the veteran is 
adequately employed or is away of the services available to 
them. The Department of Labor would also be able to guide the 
veteran to their local American Job Center to ensure continuity 
of services provided.
    Bluntly stated, we are disappointed with the Department of 
Labor's administration of Title 38 employment services. During 
the spring of 2014, the Department of Labor fully integrated a 
directive creating a hard distinction between DVOPs and LVERs 
which are funded by the JVSG grants and are located at 
Department of Labor job centers across the country. 
Essentially, this disallows DVOPs from seeing non-service-
disabled veterans, even if they have the time. The Department 
of Labor's self-imposed restrictions undermine the flexibility 
required to best serve veterans who are in need of employment 
services. These restrictions are contrary to the Federal 
statute and have generated negative feedback from the field. 
The American Legion is adamant that regulatory or legislative 
change instituting the roles of DVOPs and LVERs by the 
Department of Labor would provide a significant improvement to 
the JVSG program.
    Looking forward in regards to TAP, The American Legion 
would very much like to see a new GAO report conducted on the 
program as a whole. The last GAO report was conducted in 2014, 
when many new elements of TAP were still in the process of 
being implemented. Ergo, the report would not have assessed the 
effectiveness of the program in its entirety.
    In addition to requesting a new GAO report to be conducted, 
which simply makes sense, The American Legion firmly believes 
there should be a metric for success to ensure that TAP is 
working and successful after the servicemember has taken the 
course. We strongly feel that between a new GAO report and the 
implementation of a success metric, only then the Department of 
Labor would be able to attain a genuine knowledge of how 
effective TAP truly is.
    Chairman Isakson, Ranking Member Blumenthal, and 
distinguished Members of this Committee, again, we thank you 
for the opportunity to speak before you today, and I thank my 
counterparts on this panel for their efforts in hiring our 
Nation's veterans, and I would be happy to answer any questions 
you may have.
    [The prepared statement of Mr. Smith follows:]
   Prepared Statement of Daniel Smith, Assistant Director, National 
    Veterans Employment and Education Division, The American Legion
    Good afternoon Chairman Isakson, Ranking Member Blumenthal and 
distinguished Members of the Committee. On behalf of our National 
Commander, Dale Barnett, and the over 2 million members of The American 
Legion, we thank you for the opportunity to testify before this 
Committee regarding the Transition Assistance Program (TAP) and The 
American Legion's experience and interests.
    Leaving the military environment and transitioning back into the 
civilian sector is a task that many servicemembers find to be an 
unfamiliar battle. Fortunately, The American Legion was instrumental in 
the creation process of TAP, a program created with the intention to 
ease the transition for our nations veterans. The American Legion had 
the opportunity on several occasions and in numerous locations to 
observe both the 5-day mandatory portion along with the optional 
specialized courses known as Goals, Plans and Success or (GPS).
    In addition, The American Legion has begun hosting bi-annual hiring 
events and employment workshops near various military installations in 
the hopes that we can be the nexus between the private sector employers 
and transitioning servicemembers. The American Legion also finds that 
many separating military members desire to still continue their 
government service, and obtain a position working for the U.S. 
Government. Because of those desires, The American Legion has also 
implemented a Federal Resume Workshop, something TAP should highly 
consider as well.
    What we present today, is a culmination of our observations over 
the last three years.
Positives of the Program:
                          overall impressions
    The American Legion believes that the new TAP represents an 
important step toward providing transitioning servicemembers with the 
information they need to become gainfully employed. While there exist 
some shortcomings that require attention, the program overall appears 
to be heading in the correct direction for the betterment of the 
veterans.
    The amount of worthy information being put out was impressive and 
the delivery was excellent. It was evident the contractors from both 
DOL and VA really understood the material, which is a solid benefit to 
the servicemember. The student interaction was massively improved from 
what we've previously observed in the pilot phases of TAP. Most of this 
is likely due to the smaller class sizes--the attendees were far more 
interactive because of the intimate setting.
                                tap gps
    The American Legion would like to thank the Members of this 
Committee who voted in favor of passing the 2015 National Defense 
Authorization Act (NDAA). The NDAA included a critical measure making 
TAP GPS mandatory. Prior to this new measure, our servicemembers were 
required to attend a five day block of instruction prior to separating 
from their respective branch of service and if they personally desired 
to attend the additional Goals, Plans and Success (GPS) courses, they 
first needed to seek approval from their leadership. The NDAA made it 
``mandatorily available'' for the servicemember; making it a 
requirement for leadership to allow the requesting individual to attend 
the training. This is a recommendation The American Legion frequently 
sought in testimony, so we appreciate Congress recognizing the 
importance these capstone courses play in the Servicemember's 
transition.
Recommended Improvements:
                      office interpersonal skills
    It is no secret that employers seek the perfect blend of skills and 
experiences that pertain to their industry. There is also no argument 
that a veteran meeting the qualifications for a job vacancy brings an 
ample amount of skills and experiences to the table that a civilian may 
not possess. However, on many occasions, being a functional expert is 
not enough, and making it past the initial filter of human resource 
staff remains a difficult task. To complement their core-competencies, 
there are certain basic relationship skills that every company looks 
for in a potential hire. These skills include personal qualities, 
habits, attitudes, and social graces that can make a person a valued 
employee.
    Before the Veterans Opportunity to Work (VOW) Act of 2011 companies 
in the private sector were included in the instruction process of TAP; 
meaning they were invited to come speak and instruct the transitioning 
servicemembers. In the modern day TAP, that is sadly not the case. The 
American Legion certainly believes having the private sector present 
and assist in conveying what it takes to be successful in their realm 
is vital for the veterans.
    The vast majority of the junior enlisted personnel leaving the 
service after their first or second enlistments have not had the same 
educational training or significant working experience in the private 
sector as their civilian peers. They can sometimes lack the soft skills 
that are most commonly learned by spending a substantial part of their 
adult lives in the civilian workforce.
    So, in discussing the ``seamless transition'' TAP would be more 
effective if:

    1) TAP was accompanied by a program allowing the veteran to 
gradually assimilate to the civilian office environment, or
    2) TAP added a module to bring in the private sector to discuss the 
office culture.

    While TAP briefings focus on the transferring of military skills 
and experiences into core-competencies in the private sector, we 
believe more importance should be placed on soft skills. The American 
Legion cannot stress how crucial it is that more time and instruction 
be provided to the servicemember on this matter.
                        interagency cooperation
    The American Legion recognizes that one of TAP's main roles is to 
be an introduction to the services and programs available to veterans, 
and to provide a ``warm handoff'' to the agencies that administer those 
programs. We feel that the TAP class does provide the appropriate 
material, and from the Veterans that we have spoken with, they 
expressed that they are happy with the knowledge that is gained after 
the 5 days of curriculum. The main issue that we feel that needs to be 
addressed in regards to transitioning is what happens after the TAP 
course.
    Under the current operating procedures, DOD does not share the 
contact information of the Veteran with the Department of Labor (DOL). 
If DOL had access to the servicemembers contact information the 
Disabled Veteran Outreach Program representatives (DVOPs) and Local 
Veteran Employment Representatives (LVERs) could initiate a 
conversation post-separation to ensure the Veteran is adequately 
employed or is aware of the services available to them. DOL would also 
be able to guide the Veteran to their local American Job center to 
ensure continuity of services provided.
                    improving transition in general
    Transition does not end when a servicemember exits the classroom. 
As previously stated, TAP's effectiveness is intimately intertwined 
with the performance of Title 38 veterans employment services.
    The American Legion has become aware of an issue affecting veteran 
employment services that are funded by the Jobs for Veterans State 
Grants (JVSG) and administered through the Department of Labor's (DOL) 
Veterans Employment and Training Service (VETS). Three years ago, DOL 
issued a directive creating a hard distinction between the Disabled 
Veteran Outreach Program representatives (DVOPs) and the (LVERs), which 
are funded by the JVSG grants, and are located at DOL job centers 
across the country. Essentially, this disallows DVOPs from seeing non-
service-disabled veterans, even if they have extra time in which they 
could do so. The DOL's restrictive regulation undermines the 
flexibility that is needed to best serve veterans who are in need of 
employment services.
    In one instance, a blind veteran was escorted out of an American 
Job Center after he became upset that he no longer qualified to meet 
with the DVOP he had been working with; all because under the new DOL 
directive, his disability was not service-connected. The American 
Legion believes a disabled veteran has significant barriers to 
employment regardless of whether the disability was resultant from 
service. The categories imposed by the JVSG restructuring of veterans 
eligible to seek DVOP services, are too restrictive. Some DVOPs have 
noted to The American Legion that in the aftermath of this misguided 
JVSG restructuring, the majority of veterans now receive a `priority of 
greeting' by employment services staff but not the `priority of 
service' mandated by law.
    The American Legion has organized meetings and roundtable 
discussions with the majority of the stakeholders. There is a consensus 
in the veteran community that this regulation is problematic, and 
should be changed. Requiring this regulatory change by DOL would, in 
the opinion of The American Legion, provide a significant improvement 
to one of the major transition services available to veterans: the JVSG 
program.
    Looking forward in regards to TAP, The American Legion would very 
much like to see a new GAO report conducted on the program as a whole. 
The last GAO report was conducted in 2014 when many new elements of TAP 
was still in the process of being implemented, ergo the report would 
not have assessed the effectiveness of the program in its entirety. In 
addition to requesting a new GAO report be conducted, which simply 
makes sense, the American legion firmly believes there should be a 
metric for success. Meaning the Dept. of Labor, much like any company, 
university or parent, needs to create a method or rubric to ensure that 
TAP is working and successful after the servicemember has taken the 
course. As it stands now, at the end of the 5 day course, the attendee 
is encouraged to take a survey reviewing their time in the program. DOL 
needs to connect with a percentage of veterans at several timeframes or 
thresholds post-TAP to assess the effectiveness of the TAP program. We 
strongly feel that between a new GAO report and the implementation of a 
success metric, then DOL will be able to obtain a genuine knowledge of 
how effective TAP truly is.
                      the future of jvsg and hvrp
    The American Legion has recently changed its position regarding the 
rightful place for JVSG and HVRP within the Federal Government. The 
American Legion ``support[s] legislation that calls for the Department 
of Veterans Affairs (VA) and the state workforce agencies to share 
responsibilities for all Title 38 veterans employment services'' and 
``that VA be fully funded to administer the Jobs for Veterans State 
Grants (JVSG), establish standards and collect performance data, and 
the state workforce agencies administer the programs and report 
directly to VA.'' \1\
---------------------------------------------------------------------------
    \1\ Resolution No. 13: Expanding Veterans Employment and Homeless 
Services Within the Department of Veterans Affairs OCT 2014.
---------------------------------------------------------------------------
    Historically, The American Legion has supported DOL-VETS and its 
place in DOL, because we believe that when it comes to employment no 
one has more expertise and experience. For our efforts, we were 
rewarded with decades of program management problems, a lack of 
accountability, a lack of programmatic oversight.
    Within the last few years, VA has designated significant resources 
on veterans employment resources that is generally the responsibility 
of DOL. The American Legion has noticed VA gaining market shares in the 
realm of veterans employment services and demonstrating a record of 
success. The American Legion believes that the best way to ensure TAP 
lives up to its potential, is to transfer the JVSG and HVRP to a new 
administration within VA. These grants administered by VETS would 
improve if they were consolidated within the agency whose singular 
focus is on the well-being of veterans.

    Chairman Isakson, Ranking Member Blumenthal and distinguished 
Members of the Committee, again we thank you for the opportunity to 
speak before you today, I thank my counterparts on this panel for their 
efforts in hiring our nations veterans, and I would be happy to answer 
any questions you may have.

    Chairman Isakson. Thank you very much.
    Mr. Zacchea.

  STATEMENT OF MICHAEL ZACCHEA, PROGRAM MANAGER, ENTREPRENEUR 
        BOOTCAMP FOR VETERANS, UNIVERSITY OF CONNECTICUT

    Mr. Zacchea. Good afternoon, Chairman Isakson, Ranking 
Member Blumenthal, and distinguished Members of the Committee. 
Thank you for the opportunity to testify about the various 
veterans' entrepreneurship and business support initiatives we 
have undertaken in the State of Connecticut. My name is Mike 
Zacchea. I am a combat-wounded, medically retired Marine 
lieutenant colonel. I am the director of the University of 
Connecticut Entrepreneur Bootcamp for Veterans.
    In 2010, I started a nonprofit organization sponsored by 
the university's School of Business called the ``Entrepreneur 
Bootcamp for Veterans.'' We help post-9/11 veterans start 
businesses. We are essentially a franchise of the National 
Entrepreneur Bootcamp for Veterans program, which is offered by 
the Institute for Veterans and Military Families at Syracuse 
University.
    In just over 5 years, we have started more than 96 
businesses. These businesses employ more than 180 Americans and 
have produced more than $27.5 million in gross revenues to 
date. I am very proud of our 19X return on capital.
    Our EBV graduates are having a statewide impact, including 
starting the U.S. Coast Guard Museum in New London, 
Connecticut, producing a veterans' benefits concert at Mohegan 
Sun this past Veterans Day, and holding a veterans' legal 
symposium for the Connecticut Bar Association at Quinnipiac Law 
School.
    This work led me to start the Connecticut Veterans Chamber 
of Commerce, a nonprofit 501(c)(6) organization representing 
more than 42,000 veteran-owned businesses which produce about 
$20 billion worth of product in the State of Connecticut. We 
have successfully advocated for a number of laws which improve 
business conditions for veterans, including a tax concession 
that relieves more than 13,000 military retirees from paying 
State income taxes on their military pensions.
    We also were instrumental in getting the Military 
Occupational Specialty Act passed, which has been instrumental 
in reducing Connecticut's veteran unemployment by more than 50 
percent.
    Our next legislative objective is to include veterans among 
the protected class of business entities for State contracting 
purposes.
    I helped found the Military Veterans Support Council, an ad 
hoc organization of almost 100 employers and organizations that 
have organized Veterans Employee Resource Groups. Our members 
include the largest veterans employers in the State, such as 
Sikorsky, United Technologies, and Electric Boat, among others. 
Our members now represent almost 30,000 veterans in our 
workforce. We surface and identify issues around veterans 
hiring, retention in the workforce, promotion through the 
workforce, and workforce disability management issues. Our 
objective is to promote Connecticut as a pure leader among the 
States by 2021 by creating a favorable legal and policy 
environment and a thriving entrepreneurial ecosystem.
    I offer the following recommendations to encourage veteran 
entrepreneurship as part of a comprehensive national veterans 
economic reintegration initiative:
    Number 1, articulating a national policy to create a 
minimum 500,000 veteran-owned businesses by 2032.
    Number 2, a veterans benefit for starting businesses 
through the post-9/11 GI bill. I, therefore, endorse and 
encourage the Committee to favorably consider Senate bill 1870, 
the Veteran Entrepreneurial Transition Act of 2015.
    I also endorse and encourage the Committee to favorably 
consider S. 1400, Veterans Small Business Enhancement Act of 
2015. The companion bill in the House is H.R. 2221, which is 
cosponsored by my own Representative, Elizabeth Esty of the 
Connecticut 5th District.
    Further, I also endorse H.R. 3945, Improving Opportunities 
for Service-Disabled Veteran-Owned Businesses, which addresses 
the dual veteran-owned business contract and certification 
between the VA and the SBA which causes all kinds of 
contracting messes.
    Number 3, creating an incentive program for the States to 
create veteran business incubators.
    Number 4, creating incentives for the disintermediation of 
capital by angel investors and venture capitalists specifically 
to veteran-owned businesses.
    Number 5, creating certified Veterans Business Incentive 
Companies modeled along the SBA's certified Small Business 
Investment Companies.
    Number 6, creating a nationwide network of nonprofit 
Veterans Chambers of Commerce.
    Number 7, despite the encouraging trends for veteran 
unemployment, I endorse consideration of H.R. 501, Veterans and 
Servicemembers Employment Rights and Housing Act of 2015, also 
cosponsored by Representative Elizabeth Esty.
    In closing, I believe that veteran business ownership is a 
net gain for our Nation. Veterans' business affairs are broadly 
middle-class economics. Veteran entrepreneurship creates 
economic, social, and political capital. Bottom line, veteran-
owned businesses contribute more in tax revenues to State and 
Federal Governments than veterans extract in benefits.
    I believe that veterans' economic reintegration issues are 
as important today in the 21st century as they were to the 
Continental Congress in 1776,. For me, getting veterans 
economic reintegration issues right in the 21st century is 
central to our shared project of creating a more perfect union.
    I would like to leave you with this quote I discovered in 
my research. George Washington wrote this to the first Governor 
of Connecticut, Jonathan Trumbull, on 28 June 1781, and it has 
served as my guidestar in my advocacy for veterans, and George 
Washington wrote:

        ``Permit me Sir to add, that Policy alone in our 
        Present Circumstances, seems to demand that every 
        Satisfaction which can reasonably be requested, should 
        be given to those Veteran Troops who, through almost 
        every Distress, have been so long and so faithfully 
        serving the States . . .''

    Chairman Isakson, Ranking Member Blumenthal, and Members of 
the Committee, thank you again for this opportunity. I look 
forward to answering any questions.
    [The prepared statement of Mr. Zacchea follows:]
     Prepared Statement of Michael Zacchea, Lt. Col. USMC (Ret.), 
     Entrepreneur Bootcamp for Veterans, University of Connecticut
    Good afternoon Chairman Isakson, Ranking Member Blumenthal, and 
distinguished Members of the Committee. My name is Michael Zacchea. I 
am a combat-wounded and medically retired Marine Lieutenant Colonel. I 
am the Director of the University of Connecticut Entrepreneur Bootcamp 
for Veterans. Thank you for the opportunity to provide testimony today 
about the various veterans' employment and entrepreneurship and 
business support initiatives we have undertaken in the state of 
Connecticut.
    I would also like to thank the many military and nonprofit partners 
represented here today for your commitment to being part of the 
solution for the post-9/11 generation of combat veterans.
    In 2010, I started a non-profit organization sponsored by the 
University of Connecticut School of Business social entrepreneurship 
center called the Entrepreneur Bootcamp for Veterans with Disabilities. 
The organization runs a program that helps post-9/11 veterans with 
service-connected disabilities start businesses. We are essentially a 
franchise of the National Entrepreneur Bootcamp for Veterans program, 
which is offered by the Institute for Veterans and Military Families at 
Syracuse University.
    The program of instruction is a competitive, year-long program that 
teaches, supports, and mentors service-disabled veterans starting 
businesses. We bring together academic subject matter experts from 
UConn as well as successful entrepreneurs, innovators, tech 
entrepreneurs, financiers and venture capitalists, accountants, and 
lawyers (some, but not all, veterans themselves) who provide both 
instruction and mentorship for the veterans starting businesses. In 
addition, we have graduate students (primarily MBAs) who support the 
veterans with market and industry research and help with writing 
business plans and creating financial statements and projections. Our 
graduates have access to the UConn Law School legal clinics for pro 
bono legal advice to start businesses, obtain help with intellectual 
property rights, and manage tax matters.
    Through the EBV we have started more than 96 businesses in just 
over five years. These businesses employ more than 180 Americans, and 
have produced more than $27.5M in gross revenues to date. About a 
quarter are veterans starting IT businesses, and a quarter are veterans 
starting contracting businesses. I am very proud of our 19x Return on 
Capital. In addition, we have helped 18 veterans find full-time, 
career-track employment, and 13 gain access to career-oriented 
educational opportunities, primarily masters' degrees and professional 
credentialing. Our EBV graduates are having a state-wide impact, 
including starting the US Coast Guard Museum in New London, CT, 
producing a veterans' benefits concert at Mohegan Sun, and holding a 
veterans' legal symposium for the CT Bar Association at Quinnipiac Law 
School.
    This work led me to start the CT Veterans Chamber of Commerce in 
response to market demand from thousands of veteran business owners, 
who asked for a voice in the state general assembly. My state is 
particularly fertile ground for veteran business opportunities because 
of the large defense industry presence, as well as a significant agri-
business base, and maritime industries, among other industries. There 
are more than 42,000 veteran-owned businesses in CT out of a veteran 
population of about 220,000--about a 5:1 ratio. Since our inception, we 
have been instrumental in advocating for a number of laws passed which 
improve business conditions for veterans, including the Military 
Occupational Specialty Act, the Stolen Valor Act, and most recently, as 
part of the 2016 budget, we obtained a tax concession that relieves the 
more than 13,000 military retirees from paying state income taxes on 
their military pensions, saving them some $5M per year. This coming 
year, we are working hard to include veterans among the protected class 
of business entities both for state contracting purposes and for hiring 
discrimination purposes.
    In addition, I was one of the founding members of the Military 
Veterans Support Council. It is an ad hoc organization of almost 100 
employers and organizations that have organized Veterans Employee 
Resource Groups. Among our members are some of our largest veterans 
employers, including Sikorsky, United Technologies, Electric Boat, GE, 
Pratt & Whitney, Aetna, Cigna, Prudential, The Hartford, Deloitte & 
Touche, KPMG, Bank of America, Liberty Bank, People's Bank, Webster 
Bank, among others, and virtually every four year college in CT. Our 
members now represent almost 30,000 veterans in the state's workforce 
and student veterans. Through this council, we surface and identify 
issues around veterans hiring, retention in the workforce, promotion 
through the workforce, and workforce disability issues. A happy side-
effect of this organization is that it has created a direct pipeline 
from colleges to our largest employers through the Veteran Employee 
Resource Groups.
    Most recently, a coalition of veterans organizations produced the 
largest veterans' event in the history of the state of Connecticut. It 
was called Vets Rock! We held it at Mohegan Sun Resort and Casino in 
Uncasville, CT, on Nov 11. During the day, we brought together 66 
employers and 85 veterans service organizations to provide wrap-around 
service and employment, reintegration, and housing solutions for 
veterans. We had almost 1,300 veterans in attendance, with almost 130 
veterans receiving business suits, more than 137 getting on the spot 
interviews, more than 100 getting follow-on interviews, and 5 on-the-
spot hires. In the evening, we held a concert hosted by Tony Orlando, 
and headlined by Trace Adkins. We had over 6,300 veterans in attendance 
for the concert. I should note that the US Chamber of Commerce was a 
partner in this event. We hope to build on this success in future 
years.
    We are having a positive effect. The unemployment percentages for 
CT's veterans has been reduced from over 9% to just over 4% since 2013. 
We are putting CT on a competitive economic basis with our larger 
neighboring states--NY, MA, PA, and NJ for veteran business owners. We 
are staking out a leadership position for reintegration centered around 
the Three E's--Education, Employment, and Entrepreneurship; and Three 
S's for housing--Safe, Secure, and Stable. My objective is to propel CT 
to a peer leadership position for holistic reintegration of post-9/11 
veterans among the states by 2021 by creating a favorable legal and 
policy environment and thriving entrepreneurial ecosystem.
    As effective as it is, our multi-pronged effort in CT is very 
small. CT accounts for about 1% of the total national veteran 
population. There are already some 3.5 million post-9/11 veterans, with 
about 66% of that number having deployed to combat theaters in Asia and 
Africa. In the next 5 years, approximately 250,000 veterans will leave 
active service every year. Beginning in 2021, post-9/11 veterans will 
be begin to be eligible for a 20-year military pension. By 2031, 
virtually all post-9/11 combat veterans will begin to be eligible for a 
full 30-year military pension.
    I am convinced there is pent-up market demand for entrepreneurship 
opportunities among veterans. I see a need to expand opportunities for 
veteran entrepreneurship in the next 5 years. I believe that given 
access to entrepreneurship training and opportunity, the post-9/11 
generation of veterans would produce businesses at a rate of about 
5:1--that is, some 500,000 or more veteran-owned businesses by 2032, 
which will be a Census Bureau Survey of Business Owners year.
    To that end, I believe a prescription to encourage veteran 
entrepreneurship as part of a comprehensive national veterans 
reintegration initiative could include:

    1) Articulating a national policy to create minimum 500k veteran-
owned businesses by 2032, including production metrics. Metrics could 
include the impact of veteran business ownership on gross revenues, 
Federal tax receipts, and full-time and part-time employment.
    <bullet> I recommend breaking these metrics out both by state and 
by congressional district.

    2) A veterans' benefit for starting businesses through the Post-9/
11 GI Bill. We acknowledge and agree that education is the single most 
decisive factor in determining economic attainment over a career in the 
21st century global knowledge economy. However, it makes sense and is 
perfectly in keeping with the original intent of the 1944 Serviceman's 
Readjustment Act to include such a benefit for veterans starting 
businesses or working farms and ranches, particularly for veterans who 
have used GI Bill benefits to pursue an education in those areas.

    <bullet> I therefore endorse and encourage the Committee to 
favorably consider S. 1870 Vets Act of 2015 introduced by Senators 
Moran and Tester.
    <bullet> I also endorse and encourage the Committee to favorably 
consider S. 1400 Veterans Small Business Enhancement Act of 2015 
introduced by Senator Vitter, which would give certified veteran-owned 
businesses access to Federal surplus property and equipment.

        - The bill has a companion bill in the House, H.R. 2221 
        Veterans Small Business Enhancement Act of 2015, co-sponsored 
        by my own Representative, Elizabeth Esty of CT's 5th district.

    <bullet> I also endorse Rep Mike Coffman's bill H.R. 3945 Improving 
Opportunities for Service-Disabled Veteran-owned Businesses Act of 
2015. This Act would reform, streamline, and simplify the process for 
certification as a SDVOB, which currently includes important 
contradictions and inconsistencies in certification between the SBA and 
the VA.

        - The bill is co-sponsored by Representatives Jeff Miller, 
        Steve Chabot, Nydia Velazquez, Gerry Connolly, Richard Hanna, 
        and Seth Moulton.

    3) Creating an incentive program or Federal grants for the states 
to create veteran business incubators, particularly in information 
tech, high-tech manufacturing, and other tech industries.

    <bullet> One such model is Bunker Labs, consisting of a network of 
11 incubators around the country.
    <bullet> In CT, I am working with the state Commissioner of 
Veterans Affairs to create a Vet Center of Excellence which would 
include a veteran tech business incubator.

    4) Creating incentives for the disintermediation of capital by 
angel investors and venture capitalists specifically to veteran-owned 
businesses, through tax policy, with accompanying metrics. Two such 
funds are:

    <bullet> TCP Venture Capital, which started the Veterans 
Opportunity Fund
    <bullet> StreetShares, a peer-to-peer lending initiative jointly 
funded by Direct Lending Investments, Community Investment Management, 
and Eagle Bank Corp.
    <bullet> One such potential source of private investment capital 
would be from immigrant investors using EB5 funds through EB5 centers 
or other disintermediation channels.

    5) Creating certified Veterans Business Investment Companies 
modeled along the SBA's certified Small Business Investment Companies.
    6) Creating a Nation-wide network of non-profit Veterans Chambers 
of Commerce that will create a mutually supporting community of veteran 
business owners that can represent veteran business owners in their 
respective state legislatures and in their communities.
    7) Despite the recent success of post-9/11 veterans re-entering the 
workforce, anecdotally there continues to be a strong perception of 
anti-veteran bias in hiring.

    <bullet> I endorse consideration of H.R. 501 Veterans and 
Servicemembers Employment Rights and Housing Act of 2015, co-sponsored 
by Representative Elizabeth Esty of the CT 5th District.

    In closing, I believe that veteran business ownership is a net gain 
for our Nation, and in terms of net flow of money, for the Federal 
Government. It is my thesis that veteran-owned businesses contribute 
more in taxes to the state and Federal Governments, than veterans 
extract in benefits. I believe veterans reintegration issues are as 
important today, in the 21st century, as they were to the Continental 
Congress in 1776, which included a pension for veterans in the very 
first law passed in our Nation's history. Getting veterans 
reintegration issues ``right'' in the 21st century is central to our 
shared project of creating a more perfect union.
    I would like to leave you with this quote I discovered in my 
research. George Washington wrote this to the first Governor of CT 
Governor Jonathan Trumbull on 28 June 1781, and it has since served as 
my guidestar in my advocacy for veterans:

        ``Permit me Sir to add, that Policy alone in our Present 
        Circumstances, seems to demand that every Satisfaction which 
        can reasonably be requested, should be given to those Veteran 
        Troops who, `thro almost every Distress, have been so long and 
        so faithfully serving the States . . .''

    Chairman Isakson, Ranking Member Blumenthal, and Members of the 
Committee, thank you again for this opportunity to testify and I look 
forward to answering any questions you may have.

    Chairman Isakson. Well, thanks to all of you for your 
testimony. It was extremely valuable, and I am glad Ms. Kelly, 
Mr. Coy, and the others stayed over to listen, because we got--
you all provided the answers to a couple of questions. In fact, 
Coca-Cola's commitment to their program--you said in your 
testimony that you all were committed to three guiding 
principles in terms of hiring vets:
    First, support from the top, and that means Muhtar Kent. It 
does not mean somebody down the line.
    Second, corporate human relations plan for search and 
recruitment and ongoing employment. I can tell you I know you 
do that because Mark Rahiya grew up two doors behind me in 
Marietta, Georgia, and I helped recommend him to The Coca-Cola 
Company, and you all have kept him on post through that ongoing 
mentoring, which I have seen before.
    Then last is ongoing support, which I think, Mr. Kress, is 
something you referred to in your comments about the goal to 
hire 10,000 veterans at Starbucks. If you said that your 
commitment was to honor the veteran and provide career 
opportunity for that veteran and to address the cultural divide 
between the 1 percent who have served and the 99 percent who 
have not. I would like for you to address that cultural divide 
for just a moment and expand on what you said in your 
testimony.
    Mr. Kress. Thank you for the opportunity, sir. As a few of 
my colleagues up here have mentioned, the answer to this really 
is a collaborative effort. We cannot solve this ourselves 
because this is pervasive throughout American society. We feel 
very strongly, as do many of our fellow veteran advocates, that 
the country has become so disassociated from the veteran 
population for a number of reasons that it is time that we 
address this issue very closely.
    Within our culture, we are doing a number of things, both 
formally and informally, to build a very strong veteran culture 
and to bridge the divide. When we bring in our veterans to 
Starbucks, we have something called a ``field guide,'' similar 
to a military publication. This helps our field managers both 
understand the veterans that they are receiving as new 
employees and also connect to the veterans in the communities.
    In our Military Family Stores, which, incidentally, exist 
in 6 of the 12 States represented by this panel, it is a place 
where we both have a lot of outreach efforts with the community 
to reintroduce them to our military population as well as whole 
transition training with a number of our veteran service 
organization partners.
    Chairman Isakson. Well, I think you make a very good point, 
and it points out a responsibility we have in the
    U.S. Senate and the Congress, because part of that bridging 
of that cultural divide is for us to promote within our own 
country as Members of the Congress, the U.S. Senate and the 
U.S. House, the value of those veterans and the support they 
need from the community and make it a cultural event when the 
veteran comes home for the entire community, not a divide as 
they exist today. I think that is everybody's responsibility.
    I want to congratulate our entrepreneur promoter from 
Connecticut, but I have a question for you. You are at the 
University of Connecticut. Is that correct?
    Mr. Zacchea. Yes, sir.
    Chairman Isakson. You know, I was a small business man, and 
two of my children have started small businesses. I know how 
difficult it is to sustain a small business. In fact, it used 
to be that nine in ten failed within the first 5 years. A lot 
of that was because of the lack of ongoing support once the 
business got started.
    What are you doing at the University of Connecticut or what 
would you recommend be done to support veterans who start their 
own businesses to keep them from being failures?
    Mr. Zacchea. Yes, Mr. Chairman. We find that to be the 
case. Out of the 96 businesses we have started, 86 are still 
going concerns, so we have a failure rate now of, you know, 
basically one in nine, which is going to happen, but----
    Chairman Isakson. Which is the opposite of the national 
trend, which is nine in ten.
    Mr. Zacchea. Yes, correct. We do provide ongoing services. 
I have helped people buy businesses. I have helped people sell 
businesses. I have helped people expand businesses. One of the 
things that they need is a landing place so that is why the 
veterans business incubators are so important.
    The other thing that is very, very important is legislative 
support. Talking to literally hundreds of veteran business 
owners in our State, they wanted a Veterans Chamber of Commerce 
to represent them in the General Assembly. Our members who have 
come through the bootcamp find that having support through a 
Chamber-type organization where they can network and they can 
meet other veteran business owners has been very, very 
important for them.
    Chairman Isakson. Do you incubate some of those businesses 
at the University of Connecticut? Or do you have a place for 
them to incubate?
    Mr. Zacchea. We do have a place for them to incubate, but 
right now I am working with the Commissioner of the Department 
of Veterans Affairs in Connecticut to start a Vet Center of 
Excellence, which would include a specific veterans business 
incubator.
    Chairman Isakson. Thank you very much for your testimony.
    Senator Blumenthal, thank you for bringing your guest from 
Connecticut.
    Senator Blumenthal. Thank you. I am very proud to have him 
here. Thank you so much for making the trip. I appreciate your 
broader testimony about the other needs of our veterans and 
about the entrepreneurial challenges that all small businesses 
and small business people face and the remarkable record of 
success of your educational program.
    I want to ask you, because I think I know your views on 
this topic, but I think the Committee should hear them, do you 
feel there is a need to protect veterans from discrimination in 
the workplace?
    Mr. Zacchea. Senator Blumenthal, yes. In a word, yes. 
Anecdotally, what we are finding is that veterans are telling 
us that they are basically being given the stiff arm by human 
resource managers, many of whom do not know or do not 
understand military service. I can give you an example. We had 
one woman who retired from the Air Force. She was a Pentagon 9/
11 survivor. She was in the building when it got hit. A 20-year 
career in the Air Force. When she retired, she was unemployed 
for 2 years, could not get a job. We helped her start a 
business and eventually helped her get a full-time job as well.
    One of the things that has been very, very effective is the 
Military Veteran Support Council that we started, which brings 
together all these veteran employee resource groups, and it has 
basically created an informal pipeline between the colleges--
the student veterans organization at the colleges in 
Connecticut to these organizations which have a proclivity to 
hire veterans. They are able--the veteran employee resource 
groups are able to help those veterans direct their resumes to 
the appropriate person. It has also been very helpful in 
defusing or educating the corporate side of the house about 
veteran workforce issues. It is not just about hiring. It is 
about how veterans fare in the workforce.
    Senator Blumenthal. And that leads me to my next question 
to other members of the panel. By the way, I want to just say, 
Mr. Smith, thank you for being here today. You and I go back to 
your days in Connecticut when I saw you at the West Hartford 
events that you attended, and I appreciate your being here. I 
want to thank the Chamber of Commerce. You participated in our 
job fairs in Connecticut very constructively and importantly.
    I want to say to Mr. Kress and Ms. Voticky, I really admire 
and thank your corporations. You obviously have a commitment as 
an organization, not just as a few individuals within the 
management structure but as an organization, which is what it 
takes, I think, to make a veterans program work, and a special 
thanks to Howard Schultz, who I think is a leader in American 
business today in this effort.
    Let me go then to the point that Mr. Zacchea was making. 
You have talked a little bit about the challenges of recruiting 
and hiring. There also are challenges--which Mr. Eversole 
alluded to--in providing opportunities to advance. After all, 
it is not just about providing a job. It is about providing an 
opportunity to advance from barista to whatever managerial 
positions may be available.
    One of the facts here that is unappreciated is the 
challenges of veterans who may suffer from post-traumatic 
stress or from other combat-related invisible wounds who may 
have needs or even disabilities. I wonder if you could talk a 
little bit about your corporate approach to, number 1, the 
opportunities for advancement and, number 2, the challenges of 
being flexible. I think one of you used that word. Mr. 
Eversole, if you want to weigh in on this topic, I would 
welcome your comments, and any of the other members of the 
panel.
    Mrs. Voticky. I talk the longest. OK. I would say that when 
it comes to advancement at Coca-Cola, we have a culture of 
owning your career. We provide so many tools and so much 
communication through our human resource business partners, 
through our online communications, weekly call-outs to managers 
to remind them to speak to their associates about whether it is 
midyear check-in or performance review, driving people to 
create their own professional development plan so that they can 
utilize the tools that are available to them, and then holding 
them accountable for truly growing and developing themselves. 
It is one of our core leadership behaviors, which is developing 
yourself and others.
    In terms of advancement, that is something that we watch 
very carefully and make sure from a talent management 
perspective that we are driving those behaviors.
    I am sorry, the second part of your question was about?
    Senator Blumenthal. Post-traumatic stress.
    Mrs. Voticky. Post-traumatic stress. We also have extensive 
benefits within our organization, an employee assistance 
program that is free to all of our associates. If an associate 
chooses not to identify themselves as someone who is in 
distress, they can confidentially use the employee assistance 
program to get the kind of counseling and help that they may 
need in order to help them through whatever situation it is 
that they are facing.
    Does that answer your question?
    Senator Blumenthal. Thank you.
    Mrs. Voticky. Great.
    Mr. Kress. Senator, we have a very strong management 
training track within our organization. Ninety-five percent of 
our positions in the entire company exist within our stores. I 
would like to use a few of our employees as an example.
    We have a woman named Amy Quesenberry. She is a lieutenant 
colonel in the Air Force Reserve. She came to us to work in one 
of our stores, and she is now on the management track. She is 
managing a store south of Seattle. My peer on the Veterans 
Military Affairs Team was a Marine Corps officer. When he left, 
he knew he wanted to be part of Starbucks. He started as a 
barista. He ended up as a district manager in the field. He now 
works in our headquarters. We have a long history of growing 
our employees through our leadership ranks.
    As far as PTS, we work very closely with General (Ret.) 
Peter Chiarelli and his One Mind organization. He has devoted 
significant efforts and resources to studying PTS and finding 
solutions. We work very closely with him.
    We have a formal employee assistance program, but what we 
have also found very helpful is our employee mentor network. We 
have what is called the ``Armed Forces Network,'' which is a 
veteran infinity group within Starbucks. It is extremely 
strong. We have 12 chapters throughout the United States. This 
serves as more of an informal mentoring and counseling source. 
If our employees do not want to use the formal process of EAP, 
they can always turn to their peers in the Armed Forces 
Network.
    Senator Blumenthal. Thank you.
    Mr. Eversole?
    Mr. Eversole. I will be very quick. A little over a year 
ago we created with USAA a web site called 
``employerroadmap.org.'' It is a digital program that allows 
human resource and hiring managers to self-assess and then 
deliver best-in-class practices to become better at hiring and 
retaining veteran talent. I think that is part of it. I think 
there is a communication gap that really exists on both sides 
of it. We are seeing a lot of young servicemembers who simply 
do not know what economic opportunity looks like in this 
country anymore. They are tied to their grandparents' 
perceptions of what jobs and careers and opportunities look 
like; so, a very aggressive aspect of what we are doing is 
working with companies throughout the country to help them 
shape and sell their opportunities, not only just a job but 
long-term opportunities. Truck jobs are one of them that we 
really have to work aggressively on. They think it is ``B.J. 
and the Bear,'' and they are going to be, you know, taking the 
big rig or taking bootleg beer from Colorado to somewhere else 
in the country. The fact is, that is not the case. These are 
great paying jobs. They will never be outsourced, and they 
create tremendous long-term opportunities for these families.
    I think part of what the business community needs to do is 
sell their opportunities to these young men and women.
    Senator Blumenthal. I want to thank all the members of the 
panel. This has really been an excellent panel, and there are a 
lot more questions that I would have. We probably will send you 
some of them in writing. I want to apologize, Mr. Chairman. I 
am way over my time. I could go on for much longer, but I will 
yield the floor. Thank you.
    Chairman Isakson. No apology necessary.
    Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair. I thank you all for 
being here, and I thank those of you who have served as well.
    I would like to start maybe with Ms. Voticky and Mr. Kress. 
Do you all do much in the way of tracking in terms of retention 
and career progression for the veterans population as compared 
to the population as a whole? Do you have any data on that?
    Mrs. Voticky. We just started that this year. In 2012, we 
made a commitment to hire 5,000 veterans in 5 years, so by Q2 
2017. We have actually done it effective today. We have 
currently hired 5,000 veterans.
    Senator Tillis. Congratulations.
    Mrs. Voticky. Thank you. We want to take that and grow from 
that. We are really in the infancy stage. Pulling data out of a 
variety of systems--and I heard that earlier today about the 
challenges of a variety of systems--has been a little complex. 
We do have it nailed down now, I believe, and we will be able 
to pull the turnover data.
    We are able to pull that hiring data, the multicultural 
data, the gender differences. We have got that all buttoned 
down, and we are incorporating it from an enterprise 
perspective so it encompasses our bottling operations, our 
brand operations, our venturing and emerging brands and so on 
is really the direction that we are heading. We do not believe 
at this point from any indicators in the veterans group that we 
have anything above the norm as far as turnover from our 
military versus our non-military, but it is a piece of data we 
need to get our hands wrapped around.
    Senator Tillis. Mr. Kress?
    Mr. Kress. Yes, sir. When we started this effort in 2015, 
we were starting from a baseline. We have learned a tremendous 
amount in the last 2 years that we have been going at this, and 
similar to Coca-Cola, we have had tremendous success in hiring 
veterans. We are more than halfway to that 10,000 goal, and 
really, that number does not mean anything to us anymore 
because we know we are going to go way past that and continue 
to grow our veteran culture and our veteran leaders within the 
organization.
    Part of our learning lesson as we constantly talk to our 
employees and assess our program is the need to track that 
data, so we have started in the last 3 months--I cannot say 
that we have extensive figures yet, but in the next few years, 
as we collect that data, we will have more to share.
    On the retention piece, I will just say quickly that the 
majority of the people actually in the military are obviously 
first termers. They are 22, 24 years old, and I know from 
commanding hundreds of marines and sailors that at this point 
in their lives they are still trying to figure out what they 
want to do, where they want to be.
    We are committed to those employees who come to Starbucks 
who both are going to stay with us for a career or who may be 
with us for a short time. We are committed to growing our 
future leaders in Starbucks, but we are also committed to 
growing those veterans who are going to be with us from a short 
time to have a successful transition wherever they may go.
    Senator Tillis. Mr. Smith and Mr. Zacchea, in the first 
panel I was talking a little bit about how well the different 
programs are working together, and from your outsider's 
perspective, is there any advice or feedback, constructive 
feedback, or ``atta boys'' for the programs, the things that we 
talked about in the first panel, just constructive feedback, 
things that we can do to do better to make sure that we are 
transitioning the veterans into these opportunities and given 
them the best possible opportunities?
    Mr. Zacchea. Yes, Sen. Tillis. There is actually a model 
that I use in Connecticut called the ``Sea of Goodwill.'' It is 
based on a white paper that was published in 2010 that came out 
of the Office of the Chairman of the Joint Chief of Staff. 
Colonel David Sutherland wrote it. What we are trying to do is 
bring together both Federal and State government agencies and 
offices at the table, as well as the educational institutions, 
as well as nonprofits, as well as for-profits and private 
businesses through the Military Veterans Support Council to 
create holistic solutions for veterans. I do have metrics. I do 
keep end-state metrics, which I think are much more important 
than starting-state metrics. You know, I want to know what the 
bottom line is and what is the final effect.
    You know, I actually have and have articulated a vision in 
our State that we will have zero veteran unemployment in our 
State by 2021. No veteran who is capable of working will be 
without a job, and that is one of the goals that we are working 
toward by creating this Sea of Goodwill. To answer your 
question, that is what we do, and that is how we are doing it.
    Senator Tillis. Thank you.
    Mr. Smith?
    Mr. Smith. Yes, Senator, thank you for that question. When 
you mentioned programs, I am assuming you are speaking of the 
Transition Assistance Program.
    Senator Tillis. Yes.
    Mr. Smith. The 3 days at the Department of Labor and 2 days 
with the Veterans Affairs. The American Legion feels that the 
material that is provided in those 5 days is adequate and is 
preparing the servicemembers for transitioning. The issue is 
after they transition out, when they are no longer----
    Senator Tillis. When I was making my comments, I thought I 
saw a couple of head nods. How are you really mobilizing 
getting the information and making sure it is fully exploited?
    Mr. Smith. We feel that there is a loss of contact. It is 
up to the servicemember to reach out to the American Job 
Centers. If the servicemember reaches out to the American Job 
Centers, then, you know, they are receiving the services 
provided that they need.
    The issue with the DOD not sharing the contact information, 
the American Job Centers have no way of knowing when they have 
a veteran in their area. That program in The American Legion 
mind is failing.
    If that contact information was shared, when the 
servicemember transitions out, like, say, San Diego, and then 
they move back here to Washington, DC, when they go through the 
TAP program in San Diego, that is the American Job Center that 
is reaching them. When they move here to D.C., there is no real 
live information. The sharing of DOD to the DOL would be a key 
improvement to the programs.
    Senator Tillis. Thank you. Mr. Eversole, thank you for the 
work you are doing with Hiring Our Heroes at the Chamber. The 
Chamber is a large organization. I would expect that Coca-Cola 
and Starbucks are members of it. But, I sometimes wonder if the 
opportunity as a whole is dwarfed by the number of small 
businesses that we may not be making contact to, maybe small 
businesses where you gain some experience that lays the 
groundwork for you going off and creating your own small 
business.
    One thing I like about this job is the diversity of the 
conversations that I have back in the State. One day I could be 
at Coca-Cola Consolidated or Pepsi on the other side of the 
State.
    Mrs. Voticky. Who?
    Senator Tillis. It is the Diet Pepsi/Coke Zero battle for 
me. [Laughter.]
    You know, but I will have a discussion that goes from a 
large business to a goat farmer in western North Carolina, and 
interestingly enough, in small agricultural operations, they 
may actually see a retired veteran who has business experience 
that they can apply to the business operations.
    To what extent is the Chamber actually going beyond the 
corporate presence as the corporate employers to that large 
base? Eighty percent of the jobs in North Carolina are created 
by small businesses. How do we get out and take advantage of 
that opportunity? Or is that an appropriate consideration for a 
program like the Chamber has?
    Mr. Eversole. It is absolutely critical. I mean, 70 percent 
of veterans are going to return to small businesses. We know 
that. It is part of the reason when we set up this program, you 
know, our job was not to come in as a national voice and simply 
dictate how local communities hired veterans and reintegrated 
them back in. It was truly a partnership. It was a partnership 
with those local chambers, those local employers, those local 
nonprofit organizations, the local technical schools, because 
they know in those local communities what those transitioning 
servicemembers and their family members are going to need. 
Really, from my perspective, we are simply an entity that helps 
bring that community together, provides some resources to make 
that happen. We want to be good partners and work with those--
again, local American Job Centers are an important part of 
that, the local VA, the hospitals. We really want to simply be 
a part of that smaller and larger community to help deliver the 
best jobs for those servicemembers, whether they are in big 
corporate settings or they are in the small local businesses.
    Senator Tillis. Thank you. Thank you, Mr. Chair, for having 
this hearing. Thank you all.
    Chairman Isakson. Thank you, Senator Tillis.
    I thank all our witnesses who testified. I think this has 
been one of the best hearings we have had this year in terms of 
outreach for a program that is so important to transitioning. 
You have given me an idea which I am going to work with the 
Ranking Member on. I am not going to discuss it right now 
because sometimes my first thoughts are not my best thoughts. 
[Laughter.]
    I will sleep on it for a day or two, but there is a role 
that we probably could play that is unique in terms of this 
cultural divide as Members of the Senate, in terms of public 
service announcements and other information we could get out to 
the general public that would help in terms of vet hiring and 
also support those private sector companies who are reaching 
out and hiring our veterans. If nothing else, it has been very 
helpful to learn that, and it has been very helpful to learn of 
what you are doing, and we appreciate very much your 
willingness to hire America's best, and that is our veterans.
    We will keep the record open if anybody has anything. Your 
testimony will be included in the record, and with no other 
comments, this Committee stands adjourned.
    [Whereupon, at 5 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


      Prepared Statement of James R. Lorraine, President and CEO, 
                     America's Warrior Partnership

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
   Prepared Statement of Joy J. Ilem, National Legislative Director, 
                       Disabled American Veterans
    Thank you for inviting DAV (Disabled American Veterans) to submit a 
written statement for the record at this hearing focused on the 
challenges and issues veterans face as they transition from military 
service to civilian life. Although this hearing is focused on programs 
and services to help male and female veterans make a successful 
transition. I will focus this statement on the unique issues women 
veterans face in this process. Gaining equal access for women to 
transition services, benefits and health care post military service is 
a top legislative priority for DAV. We want to ensure these services 
are tailored to meet their needs and provided to the same degree and 
extent that such services are provided to men.
    In 2014, with the wars in Iraq and Afghanistan winding down and 
women turning to VA in record numbers, DAV commissioned a special 
report on women transitioning from military to veteran status. Women 
Veterans: The Long Journey Home presents a comprehensive assessment of 
the existing programs and services women veterans are provided by the 
VA, and the Departments of Defense, Labor, and Housing and Urban 
Development (HUD).
    The report highlights that despite a generous array of government-
provided benefits to assist veterans with transition and readjustment, 
serious gaps are evident for women in nearly every aspect of current 
Federal programs.
    The vast majority of these defficiencies result from a disregard 
for the differing needs of women veterans and a historic focus on 
developing programs to meet the health care needs of men, who are 
prominent as veterans in both numbers and public consciousness. 
Although we have seen dramatic growth in the number of women coming to 
VA, for the foreseeable future women will remain a statistical minority 
of veterans. For example, VA has an estimated 6.6 million users; of 
these, women represent only about 6.8 percent of the patient 
population.\1\ This reality poses a number of specific and ongoing 
challenges for VA--but the challenges can and must be resolved.
---------------------------------------------------------------------------
    \1\ U.S. Dept. of Veterans Affairs, ``Sourcebook: Women Veterans in 
the VHA, Vol. 3.'' Feb 2014.
---------------------------------------------------------------------------
    The following text, findings and recommendations are from DAV's 
report--Women Veterans: The Long Journey Home. We hope these findings 
will add to the discussion on transition and related issues before the 
Committee.
                     employment/employment services
    For men and women alike, a key requirement for a successful 
transition away from military service is the ability to establish 
satisfying, stable employment as a civilian. Most military members make 
this transition successfully, but some struggle. With the United States 
facing a significant draw-down of about a million servicemembers by 
2020, it is critically important that employment programs and services 
are effective at helping men and women in the military make this 
transition smoothly.\2\
---------------------------------------------------------------------------
    \2\ U.S. Government Accountability Office (2014). Transitioning 
Veterans: Improved Oversight Needed to Enhance Implementation of 
Transition Assistance Program. Washington, DC. GAO-14-144
---------------------------------------------------------------------------
    Employment data makes it clear that recent veterans have struggled 
to make the transition from military to civilian life. While the 
unemployment rate for all veterans throughout the economic downturn was 
better than that for the civilian labor force as a whole, Post-9/11 
veterans had persistently higher rates of unemployment than other 
veterans and it took longer for that trend to peak at 12.1 percent and 
start to decline after 2011.\3\ This trend was even more pronounced 
among women veterans, with unemployment among Post-9/11 women climbing 
to 12.5 percent through 2012.\4\ The latest data show gains for Post-9/
11 women veterans, with an unemployment rate declining to 9.3 percent 
in 2013.\5\ However, this rate is only slightly below peak unemployment 
reached by the country overall in the depth of the recession in 
October 2009.\6\ Indeed, as a whole, women veterans have struggled with 
unemployment following the recent recession, lagging behind all men and 
non-veteran women.\7\ With almost 200,000 or so women ready to leave 
the military over the next four to five years, it is imperative that we 
improve our support for women veterans' employment.
---------------------------------------------------------------------------
    \3\ U.S. Department of Labor Bureau of Labor Statistics (2013). 
Unemployment among veterans of the U.S. Armed Forces declines in 2012. 
TED: The Editors Desk. Washington, DC. Accessed 14-08-22 www.bls.gov/
opub/ted/2013/ted_20130322.htm
    \4\ Ibid.
    \5\ U.S. Department of Labor Bureau of Labor Statistics (2014). 
Economic News Release: April 04, 2014. p. o. s. Employment Status of 
the Civilian Population 18 years and over by veterans' status, sex, not 
seasonally adjusted.Washington, DC.

    \6\ U.S. Department of Labor Bureau of Labor Statistics (2014). 
Labor force statistics from the current population survey. Washington, 
DC. Accessed 14-08-22 http://data.bls.gov/pdq/
SurveyOutputServlet?request_action=wh&-graph_name=LN_cpsbref3
    \7\ U.S. Department of Labor Bureau of Labor Statistics (2013). 
Unemployment among veterans of the U.S. Armed Forces declines in 2012. 
TED: The Editors Desk. Washington, DC. Accessed 14-08-22 www.bls.gov/
opub/ted/2013/ted_20130322.htm
---------------------------------------------------------------------------
    The reasons underlying this persistently higher rate of 
unemployment are not definitively known. However, characteristics such 
as a younger age, being unmarried or divorced, lower educational 
attainment and having children at home are associated with a higher 
rate of unemployment and are also prevalent among women veterans.
                                  age
    Younger workers have a higher rate of unemployment than older 
workers \8\ with 18-24 year olds experiencing the highest level of 
unemployment among adults. Both male and female Post-9/11 veterans in 
this age cohort have a higher rate of unemployment than their civilian 
peers and the highest rate among veterans overall.\9\
---------------------------------------------------------------------------
    \8\ U.S. Department of Labor Bureau of Labor Statistics (2013). 
Employment Situation of Veterans 2012. Washington, DC.
    \9\ U.S. Department of Labor Bureau of Labor Statistics (2014). 
Economic News Release: April 04, 2014. p. o. s. Employment Status of 
the Civilian Population 18 years and over by veterans' status, sex, not 
seasonally adjusted. Washington, DC.
---------------------------------------------------------------------------
                             marital status
    Marital status correlates with employment. Married women have lower 
rates of unemployment than divorced, separated, widowed or never-
married women.\10\ \11\ After age 35, women veterans are less likely to 
be married than their civilian counterparts due to more separation and 
divorce in this population. Indeed, in all age cohorts, women veterans 
are more likely to experience divorce.\12\
---------------------------------------------------------------------------
    \10\ Hartmann, H., Hayes, J. (2011). Women and men living on the 
edge: Economic insecurity after the great recession. Institute for 
Women's Policy Research. Washington, DC. C386
    \11\ U.S. Department of Labor Bureau of Labor Statistics (2014). 
Employment Characteristics of Families 2013. Washington, DC.
    \12\ U.S. Department of Veterans Affairs National Center for 
Veterans Analysis and Statistics (2011). America's Women Veterans: 
Military Service History and VA Benefits Utilization Statistics. 
Department of Veterans Affairs, Washington, DC.
---------------------------------------------------------------------------
                         educational attainment
    Younger women veterans, 17-24 years old, have a lower level of 
attainment of a bachelor's degree (5.2 percent) than non-veteran women 
(9.7 percent) of the same age. This difference persists among 25-34 
year olds, with only 29 percent of veteran women attaining a bachelor's 
degree compared to 36 percent of non-veteran women of the same age.\13\ 
Analysis of veteran data show that poverty and educational attainment 
are linked. Only 3.2 percent of veterans with a bachelor's degree live 
in poverty compared to the 6.9 percent of veterans without a bachelor's 
degree who live in poverty.\14\ \15\
---------------------------------------------------------------------------
    \13\ Ibid.
    \14\ U.S. Congress, Joint Economic Committee Chairman's Staff. 
(2011). Broken Promises: The need to improve economic security for 
veterans. Washington, DC.

    \15\ U.S. Congress, Joint Economic Committee Democratic Staff. 
(2013). Building job opportunities for returning veterans.
---------------------------------------------------------------------------
                               motherhood
    Single mothers have higher rates of unemployment than married 
mothers (12 percent vs 4.8 percent, respectively).\16\ Eleven percent 
of women servicemembers are single parents compared with four percent 
of men. Women veterans are slightly more likely to have children than 
non-veteran women (58 percent compared to 52 percent).\17\ Among 
younger veterans this difference is pronounced with 29 percent of women 
veterans 17-24 years of age having children while only 13 percent of 
age-matched civilian women have children. Women veterans are more 
likely to have children under the age of 18 at home which correlates 
with poorer employment outcomes.\18\
---------------------------------------------------------------------------
    \16\ U.S. Department of Labor Bureau of Labor Statistics (2014). 
Employment Characteristics of Families Summary. Economic News Release, 
Washington, DC. Accessed 14-08-22. http://www.bls.gov/news.release/
famee.nr0.htm
    \17\ U.S. Congress, Joint Economic Committee Democratic Staff. 
(2013). Building job opportunities for returning veterans.
    \18\ Cooney, R.T., Segal, M.W., Segal, D.R., Falk, W.W. (2003). 
Racial differences in the impact of military service on the 
socioeconomic status of women veterans. Armed Forces & Society 30(1): 
53-85.
---------------------------------------------------------------------------
                   medical and mental health concerns
    According to the VA, women veterans have higher rates of medical 
and mental health concerns than do male veterans, and one in five women 
veterans who use VA health care have experienced military sexual trauma 
(MST).\19\ Overall, women veterans have a higher rate of trauma 
exposure than their civilian counterparts when pre-enlistment, during-
service and following-service experiences are taken into account.\20\ 
One recent survey of veterans\21\ indicates a significant difference in 
women veterans' perception of the impact of war on their emotional and 
mental health with 43 percent of them stating they are worse now than 
before serving in Iraq or Afghanistan, which is higher than the 30 
percent of men who feel the same way. Mental health needs and diagnosis 
of Post-Traumatic Stress Syndrome (PTSD), Traumatic Brain Injury (TBI) 
and the effects of MST as well as physical health concerns have all 
been noted as risk factors for poor employment outcomes in 
veterans.\22\ \23\ \24\ \25\
---------------------------------------------------------------------------
    \19\ U.S. Department of Veterans Affairs Task Force on Women 
Veterans (2012). Strategies for Serving Our Women Veterans. Washington 
DC.
    \20\ U.S. Department of Labor Women's Bureau (2011). Trauma-
Informed Care for women veterans experiencing homelessness: a Guide for 
Service Providers. Washington, DC.
    \21\ DiJulio, B., Deane, C., Firth, J., Craighill, P., Clement, S., 
Brodie, M. (2014) After the Wars: Survey of Iraq & Afghanistan active 
duty soldiers and veterans. Kaiser Family Foundation. Personal 
communications DiJulio, B.
    \22\ Horton, J. L., Jacobson, I.G., Wong, C.A., Wells, T.S., Boyko, 
E.K., Smith, B., Smith, T.C. (2013). The impact of prior deployment 
experience on civilian employment after military service. Occupational 
and Environmental Medicine 70(6): 408-417
    \23\ Ostovary, F. D., J (2011). Challenges and opportunities of 
Operation Enduring Freedom/Operation Iraqi Freedom veterans with 
disabilities transitioning into learning and workplace environments. 
New directions for Adult and Continuing Education 132: 63-73.
    \24\ Humensky, J. L., Jordon, N., Stroupe, K.T., Hynes, D.M. 
(2013). Employment status of veterans receiving substance abuse 
treatment from the U.S. Department of Veterans Affairs. Psychiatric 
Services 64(2): 177-180.
    \25\ U.S. Government Accountability Office. (2014). VA Vocational 
Rehabilitation and Employment. GAO. Washington, DC.
---------------------------------------------------------------------------
    Even when these factors are controlled, Post-9/11 women veterans 
and National Guard women veterans have higher rates of unemployment 
than other groups.\26\ Given this constellation of factors working 
against employment success for some women veterans and their 
demonstrated higher rates of unemployment, it is important for all of 
the partners working on veteran transition challenges to identify the 
specific needs of women and institute specialized programs and outreach 
for them.
---------------------------------------------------------------------------
    \26\ Vow to Hire Heroes Act of 2011 (VOW) (P.L. 112-56 Title II 125 
S 711, 712.
---------------------------------------------------------------------------
                         transition assistance
    The challenge of making the transition from military service to 
civilian employment has been widely discussed.\27\ For many in the 
military, seeking civilian employment may be the first time they have 
developed a resume or interviewed for a job. For most, it can be a 
challenge to translate the skills, knowledge, and experience gained in 
military assignments into language accessible to a civilian hiring 
audience. In particular, specialized training and certificates gained 
during service do not generally translate into certification or 
licensure requirements for an equivalent position in the civilian 
sector. Finally, military members who move frequently or have been 
absent on deployments may not have a robust local network of civilian 
contacts who can help identify employment opportunities where they 
live.
---------------------------------------------------------------------------
    \27\ U.S. Department of Defense, Defense Business Board (2013). 
Employing our Veterans Part II: Servicemember Transition. Washington, 
DC.
---------------------------------------------------------------------------
    There is no direct evidence that this transition is any different 
for women than it is for men. Yet, women veterans' unemployment rate 
remains stubbornly high and women have voiced frustration with the 
transition process. For instance, women veterans were less likely than 
men (32 percent compared to 47 percent) to believe the military was 
doing enough to ease transitions to civilian life, and more women (18 
percent) than men (7 percent) doubt their military skills will be 
useful in the civilian job market.\28\ Other studies found that women 
felt they had been led to believe that military training would be more 
valuable than it is in their search for employment.\29\ \30\
---------------------------------------------------------------------------
    \28\ DiJulio, B., Deane, C., Firth, J., Craighill, P., Clement, S., 
Brodie, M. (2014) After the Wars: Survey of Iraq & Afghanistan active 
duty soldiers and veterans. Kaiser Family Foundation. Personal 
communications DiJulio, B.
    \29\ Business and Professional Women's Foundation. (2007).Women 
Veterans in Transition. Washington, DC.
    \30\ Thom, K. B., E (2011). Chicagoland female veterans; a 
qualitative study of attachment to the labor force. American Institute 
for Research National Center on Family Homelessness.
---------------------------------------------------------------------------
    Employment sector data appears consistent with the idea that women 
veterans find their military experience to be of less value in the job 
market. The data indicates that women veterans' employment patterns 
appear much more like that of civilian women than male veterans. 
Although women are filling technical positions in the military, they 
don't appear to be able to capitalize on that experience in the private 
sector in the same way as men.\31\ \32\
---------------------------------------------------------------------------
    \31\ U.S. Department of Labor Bureau of Labor Statistics (2014). 
Economic News Release: April 04, 2014. p. o. s. Employment Status of 
the Civilian Population 18 years and over by veterans' status, sex, not 
seasonally adjusted.Washington, DC.

    \32\ U.S. Department of Labor Bureau of Labor Statistics (2014). 
Employment Characteristics of Families 2013. Washington, DC.
---------------------------------------------------------------------------
    In recognition of the need to help servicemembers to transition 
effectively to civilian life, Congress established the original 
Transition Assistance Program (TAP) in 1991.\33\ The new DOD program, 
called Transition GPS (Goals, Plans, Success) covers all servicemembers 
and incorporates career readiness and transition preparation into the 
entire span of a military member's career. The revised program covers 
all departing servicemembers. It is intended to help servicemembers 
identify their post-separation education, financial and employment 
goals. After participating in the structured program, servicemembers 
are expected to have clear goals for employment or education and will 
know where and how to access the services that can help them achieve 
those goals.
---------------------------------------------------------------------------
    \33\ Transition Assistance Program 1991 (P. L. 101-510) S 502 
(a)(1)
---------------------------------------------------------------------------
    According to a recent review of the program by GAO,\34\ 
comprehensive data on participation rates and information on the 
effectiveness of the training is not readily available and post-
transition outcome data is limited. The data that is gathered has not 
been publicly released with an analysis of outcomes and satisfaction by 
gender.
---------------------------------------------------------------------------
    \34\ U.S. Government Accountability Office (2014). Transitioning 
Veterans: Improved Oversight Needed to Enhance Implementation of 
Transition Assistance Program. Washington, DC. GAO-14-144
---------------------------------------------------------------------------
    Commanders are the lynchpin of the military's integration program. 
They must ensure that transitioning servicemembers attend the various 
trainings and they are responsible for ensuring an appropriate review 
of the servicemember's employment plan and directing any needed follow 
up as part of the program ``capstone.'' GAO recognized that without 
uniform data gathering and accountability to ensure all commanders 
fulfill this responsibility, the impact of the program may be limited.
Finding:
    The effectiveness of the TAP program cannot be assessed in the case 
of women.
Recommendation:
    Data on participation, satisfaction, effectiveness and outcomes for 
TAP should be collected and analyzed by gender and race and returned in 
real time to commanders for their assessment and corrective actions.
Finding:
    TAP does not offer elements targeted at women or their needs.
Recommendation:
    TAP partners should conduct an assessment to determine needs of 
women veterans and incorporate specific break-out sessions during the 
employment workshop or add a specific track for women in the three-day 
session to address those needs.
Finding:
    While the warm handoff for transitioning servicemembers who have 
not completed an acceptable transition plan is laudable, the proof of 
success is whether every plan has been successfully implemented six 
months to a year out from separation. The hallmark of adult learning is 
that adults seek out and absorb information when they perceive that 
they need it, not necessarily when it is presented. Some transitioning 
servicemembers may not be primed to absorb TAP training pre-separation 
but would be more receptive once they are actively seeking employment 
six months later.
Recommendation:
    DOD should transfer contact information and data on all TAP 
participants to VA and the Department of Labor (DOL) who should be 
responsible to provide gender sensitive follow up with all 
servicemembers 6-12 months after separation to offer additional support 
and services, if needed.
Recommendation:
    To judge the success of TAP, employment outcomes and educational 
attainment should be tracked and reported on a rolling basis, analyzed 
by gender and race, for all separated servicemembers.
                          department of labor
    The DOL is responsible for providing the employment workshop during 
the TAP program and they run a variety of programs and services that 
help support veterans in their search for employment. This includes the 
Veterans Employment and Training Service (VETS) that provides 
employment resources and expertise, and the Gold Card which can be used 
by unemployed Post-9/11 era veterans to receive enhanced intensive 
services at DOL American Job Centers and the associated website, Career 
One Stop (www.careeronestop.org).\35\ This support is individualized to 
the needs of the veteran and includes six months of follow-up with a 
case manager. In addition, DOL sponsors My Next Move for veterans, a 
job search portal that allows them to use their military occupation 
code to browse jobs and career information and to take an assessment to 
find out about careers compatible with their interests. A similar 
portal from DOD, Hero 2 Hired,\36\ targets National Guard and Reserve 
members.
---------------------------------------------------------------------------
    \35\ Careeronestop: Pathways to success. Accessed 14-08-22. http://
www.careeronestop.org/
    \36\ U.S. Department of Defense. Hero2Hired. Accessed 14-08-22. 
https://h2h.jobs/
---------------------------------------------------------------------------
    Importantly, DOL has a visible and strong focus on women veterans 
and their needs \37\ and uses specific messages and images of women 
veterans that provide an inviting entry portal. However, the employment 
resources offered are the same for women as for men and one limited 
study indicates that women are unlikely to use these veteran related 
services.\38\
---------------------------------------------------------------------------
    \37\ U.S. Department of Labor Veterans Employment & Training 
Service. Women Veterans. Accessed 14-08-22. http://www.dol.gov/vets/
womenveterans/
    \38\ Boraas, S., Roemer, G., Bodenlos, K. (2013). Assessment of the 
workforce system's implementation of the veterans' priority of service 
provision of the Jobs for Veterans Act of 2002. Mathematica. 
Washington, DC.

                             joining forces
    Launched by the White House in 2011, Joining Forces is a government 
initiative to promote employment for military members and their 
families.\39\ The effort brings together Federal agencies, state 
government, educational institutions and the private sector to promote 
and support employment and training for military families and veterans. 
Through the initiative (and supported by tax credits for veteran 
hiring), private businesses and non-profit organizations have pledged 
to hire or train more than 800,000 veterans and their spouses.
---------------------------------------------------------------------------
    \39\ White House. Joining Forces. Washington, DC. Accessed 14-08-
22. http://www.white house.gov/joiningforces
---------------------------------------------------------------------------
    Working with state licensure and certification processes, the 
initiative has also made progress in bringing attention to the need to 
streamline the translation of military training and certification to 
private sector equivalents.\40\ \41\ While all of these efforts are 
tremendously positive and have raised national awareness of the skills 
and talent of former military members, the initiative is broad based 
without specific outreach to women veterans. In some instances, the 
private sector has done well to appeal to and welcome women veterans, 
using images and messages that include women veterans, while others 
have focused only on telling the stories of military men, giving the 
appearance that these occupations are closed to women. In addition, the 
Work Opportunity Tax Credit to encourage industry and non-profits to 
hire veterans expired December 31, 2013. With unemployment among Post-
9/11 women veterans still high, and given the anticipated drawdown of 
strength at DOD, this tax credit should be made permanent.
---------------------------------------------------------------------------
    \40\ U.S. Department of Defense, Defense Business Board (2013). 
Employing our Veterans Part II: Servicemember Transition. Washington, 
DC.
    \41\ Executive Office of the President (2013). The fast track to 
civilian employment: Streamlining credentialing and licensing for 
servicemembers, veterans and their spouses. White House. Washington, 
DC.
---------------------------------------------------------------------------
         two innovative transition programs for women veterans
    There are two transition programs worth mentioning that seem to be 
having a positive impact for women veterans. First is a pilot program 
of women veterans retreats through VA's Vet Center Program--
Readjustment Counseling Service (RCS). Public Law 111-163 included 
provisions that required VA to conduct a pilot program of group 
counseling in retreat settings for women veterans newly separated from 
the Armed Forces. VA reports that a total of 134 women were served in 
FYs 2011-2012 in six retreats coordinated by VA's RCS, or Vet Center 
program. RCS worked with the Women's Wilderness Institute to develop 
the locations and agenda for the retreats. Feedback from women veterans 
participating in the retreats has been very positive. In May 2013, the 
RCS staff provided a report to Congress on the outcome of the pilots 
and retreats and noted that they were beneficial for this cohort of war 
veterans. Statistically significant positive outcomes measured from the 
retreats were reduced stress, improved stress coping skills, and 
overall improvement in psychological well-being among participants. 
Most notably--73 percent of the women veterans who participated in the 
retreat showed improvement in scores in PTSD severity. Seventy-eight 
percent of the participants with scores qualifying for a PTSD diagnosis 
at pre-retreat, no longer qualified for a diagnosis 2 months post-
retreat.\42\
---------------------------------------------------------------------------
    \42\ Department of Veterans Affairs Report on the Pilot Program on 
Counseling in Retreat Settings for Women Veterans Newly Separated from 
Service in the Armed Forces Pursuant to the Requirements of Public Law 
111-163, Section 203. May 9, 2013.
---------------------------------------------------------------------------
    Second is an innovative private sector program, the Woman Veterans 
REBOOT Workshop (see attachment), designed to meet the unique needs of 
women veterans as they transition from military to civilian life. This 
unique three week program builds upon the participants' military 
training, skills, and experience and addresses the personal, social, 
and professional aspects of military-to-civilian life transition. The 
workshop is aimed at employment, career and educational opportunities.
                                closing
    In order to better understand the experience of women in the 
military, data needs to be routinely collected, analyzed and reported 
by gender and minority status. Therefore, DAV recommends improved data 
collection on women and minorities for health care, disability 
compensation, justice involvement, education, transition assistance, 
sexual trauma, employment, and housing programs. Congress, 
policymakers, program directors, and researchers need this information 
in order to monitor and appropriately enhance services for women 
veterans.
    Millions of women have answered the call of duty and put themselves 
at risk to preserve our Nation's security and our way of life. They 
served this country faithfully and many with distinction. This is a 
transformative moment for the VA--Secretary Robert McDonald is leading 
an ambitious effort to change the culture at the VA and to direct 
resources where they will ensure that VA health care and benefits 
services can meet the needs of every veteran. That cannot happen for 
women veterans without a strong focus on their differences and their 
needs, met with a detailed, action-orientated plan.
    DAV appreciates the opportunity to provide this statement to the 
Committee on this important topic and urges Congress to legislatively 
address the known and expected needs of women as documented in DAV's 
report, as well as our prior testimony on the report. I would be 
pleased to address any questions the Committee may have on these 
topics.
                                 ______
                                 
                                                 Attachment for DAV
                   All-Woman Veterans REBOOT Workshop
    Studies show that women veterans face greater challenges than their 
male counterparts. Yet there are very few programs to help them re-
assimilate into civilian life--and many feel left behind. To answer the 
call, National Veterans Transition Services, Inc. (NVTSI) also known as 
REBOOT, launched the Women Veterans Initiative. The program is designed 
to meet the unique needs of women veterans as they transition from 
military to civilian life. The REBOOT Workshop<SUP>TM</SUP> is the 
Nation's only transition program of its kind that provides women 
veterans with the tools they need to succeed.

        ``We need the tools in our toolboxes to succeed and REBOOT gave 
        us those tools. Veterans need to go through this workshop.'' 
        Maria Orozco, REBOOT Class 62

    The project is funded by the Ford Motor Company. REBOOT is also 
partnering with Soroptomist International to engage community leaders 
in providing mentoring for the veteran graduates.
                           workshop overview
    The REBOOT Workshop<SUP>TM</SUP> is based around how we think and 
how our thoughts impact every facet of our lives. It demonstrates how 
we let habits, attitudes and beliefs stand in the way of releasing our 
inner potential. It also reveals how our beliefs and expectations about 
ourselves, our families, and our futures are directly related to our 
current realities. The REBOOT Workshop<SUP>TM</SUP> is designed to 
build awareness of how your mind works, how to control the way you 
think and how to achieve success in any part of your life. The program 
also shows how important it is for those that have suffered a traumatic 
experience in particular, as well as their families, friends and 
caregivers, to lock on to the power of the mind, and focus on a 
productive and contributive future.
    The 15 day REBOOT Workshop<SUP>TM</SUP> is divided into three 
parts:

    <bullet> Week I--Military-to-Civilian Personal Transition. 
Developed by The Pacific Institute; addresses the Transition Domains 
of personal effectiveness and wellbeing.
    <bullet> Week II--Military-to-Civilian Lifestyle Transition. 
Developed by Operation Legacy; addresses the Transition Domains of 
living situation and community-life functioning.
    <bullet> Week III--Military-to-Civilian Career Transition. 
Addresses the Transition Domains of employment, career and education.
Supplemental Support:

    <bullet> Mentoring: In addition to peer support from other 
graduates, interested participants who complete the workshop will be 
matched with mentors that will support their efforts by providing 
advice guidance and leadership.
    <bullet> Job placement assistance is available to graduates through 
our partner network.
    <bullet> Connection to community resources will be made available 
through various channels and orchestrated through NVTSI.
                                 ______
                                 
           Prepared Statement of U.S. Department of Education

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
   Prepared Statement of Katy Beh Neas, Executive Vice President for 
                   Public Affairs, Easter Seals, Inc.
    Dear Chairman Isakson, Ranking Member Blumenthal and Members of the 
Committee: Thank you for holding this hearing to discuss the transition 
assistance available to transitioning servicemembers and veterans. I am 
pleased to share Easter Seals' perspectives on veteran transition, 
which are based on our experiences in working with veterans through the 
Easter Seals Dixon Center for Military and Veterans Services and our 
national affiliate network of community-based affiliates. My testimony 
will include background on Easter Seals and our commitment to America's 
veterans, our appreciation for the numerous improvements to the 
transition assistance program (TAP) made by Congress and the relevant 
Federal agencies, a description of a growing public-private, pre-
separation best practice to improve transition success, and the 
identification of the essential ingredient for all successful veteran 
reintegration--community--and our recommendations for investing in 
community-based solutions.
             easter seals' commitment to america's veterans
    Easter Seals is a leading non-profit organization that assists 
veterans, military families, and others to reach their potential and 
succeed in their communities by providing and connecting them to local 
services and supports. Founded in 1919, Easter Seals began serving 
veterans after World War II to help address the unmet needs of 
servicemembers returning home with service-connected disabilities. 
Through our national network of 74 community-based affiliates and 
Easter Seals Dixon Center for Military and Veterans Services, Easter 
Seals continues to fill the gap between the services veterans need and 
the services currently available through government or other entities.
    Easter Seals was selected by the U.S. Department of Veterans 
Affairs (VA) to develop and administer the National Veteran Caregiver 
Training Program that provides self-study workbook, online, and 
classroom caregiver training to eligible veteran caregivers. In 
addition, numerous Easter Seals affiliates provide employment, respite, 
adult day health, child care, and other ongoing reintegration services 
to veterans and their families through programs funded through private 
foundations and donors as well as Federal grants, including the 
Department of Labor's (DOL) Homeless Veterans' Reintegration Program 
and the VA's Rural Veterans Coordination Pilot. Recognizing emerging 
unmet needs of America's veterans and military families, Easter Seals 
developed the Easter Seals Dixon Center for Military and Veterans 
Services, under the leadership of retired U.S. Army Colonel David 
Sutherland, to expand and better coordinate community-based veteran 
services across Easter Seals' affiliate and partner network. Annually, 
Easter Seals provides direct services to about 165,000 veterans and 
military families.
    transition gps--a major improvement over ``death by powerpoint''
    Easter Seals appreciates the opportunity to discuss the 
improvements made to TAP, the primary tool available to transitioning 
servicemembers to help them prepare for their transition from military 
to civilian life. My colleague, Col. Sutherland, testified before a 
U.S. House panel in January 2015 about the great strides Congress and 
the Administration have made to make TAP more useful and meaningful for 
transitioning servicemembers. Easter Seals applauded President Obama's 
announcement in 2011 of a major reboot of the transition program and we 
supported the changes Congress made to TAP through the VOW to Hire 
Heroes Act of 2011.
    The previous TAP was often referred to as ``death by PowerPoint'' 
because it didn't accomplish much more than check-the-box on the 
responsibility. Based on personal accounts from veterans who have 
participated in TAP and on available evaluation data, the new 
Transition GPS (Goals, Plans, Success) represents a marked improvement 
in both relevance and helping exiting servicemembers achieve career 
readiness standards (CRS) for their next step, whether finding a job, 
starting a business, or pursuing additional education. Easter Seals is 
most familiar with the Department of Labor's Employment Workshop, the 
three-day instruction to help servicemembers translate their military 
skills, develop a resume, research job and labor market information, 
and practice their interview skills. Easter Seals also appreciates the 
availability of the optional tailored tracks with more focused, in-
depth instruction for those individuals who want to pursue a college 
education, seek an industry-recognized credential, or start a business. 
Easter Seals welcomed DOL's testimony that it plans to update its 
workshop to include more hands-on opportunities for TAP participants to 
develop their resumes and related materials.

        Easter Seals Recommendation: Easter Seals urges Congress to 
        continue its aggressive oversight of the TAP program, including 
        seeking and making available TAP evaluation and assessment 
        data, to ensure the improved program remains relevant and 
        doesn't, over time, face the similar challenges Transition GPS 
        was developed to fix.

   successful transition starts with a job before military separation
    While it didn't receive the headlines of a bill signing, 
congressional action, or Presidential speech, the U.S. Department of 
Defense's release of a December 23, 2014 memorandum may, long-term, 
represent one of the more significant actions toward improving 
transition success. In the memo, former Defense Secretary Chuck Hagel 
further clarified and encouraged installation commanders to allow 
nonprofit non-Federal entities (nonprofit NFE's) on military 
installations to help facilitate the delivery of transition services to 
servicemembers and their families. The memo made clear that 
installation commanders should seriously consider requests from 
nonprofit NFE's for access to the installation, including the use of 
space or logistical support to deliver transition support such as 
``career opportunities for transitioning servicemembers.'' Easter Seals 
understands how critical employment is to transition success and has 
long encouraged more supports and job-matching for servicemembers prior 
to them leaving the military to foster greater transition success.
    My colleagues at Easter Seals Dixon Center have been working to 
forge partnerships between interested installation commanders, 
employers, and credentialing organizations to give transitioning 
servicemembers the opportunity to develop job-ready skills and 
industry-recognized credentials that are connected to a real job--all 
while still on active duty. Easter Seals Dixon Center advises the 
International Brotherhood of Teamsters on best practices in 
transitioning active duty personnel to successful transportation 
careers through their commercial driver's licenses (CDL) credentialing 
program. The Teamsters have partnered with a major transportation 
employer, ABF Freight, and the U.S. Army--at bases in Kansas and 
Oklahoma--to provide their six-week CDL training, free-of-charge, to 
interested transitioning servicemembers. Graduates of the program have 
a guaranteed job with ABF Freight once they leave the military. A 14-
year Army Sergeant who recently graduated from the program in Fort Sill 
in Oklahoma said the program was a great opportunity to go from one job 
straight into another. ``I can actually start making money. That's a 
good feeling to have something to go to from leaving the military.''
    A young Marine Lance Corporal named Gary who had a similar 
employment goal when he exited the military in 2013 could have greatly 
benefited from a training-straight-to-job, pre-separation program like 
the one offered through the Teamsters. Gary participated in the 
redesigned Transition GPS program and gave it fairly high reviews, 
other than its lack of localized job market and community support 
information for where he was going (Cincinnati) rather than where he 
was stationed (North Carolina). That said, Gary and his young family 
had a plan and were ready for their next stage in life. But his 
thoughtful plan for a seamless transition quickly unraveled. A payment 
glitch delayed his final military paycheck, which was to cover his 
relocation bills, including the first month's rent and living expenses 
during his job hunt. That one payroll mishap--which was out of his 
control--left Gary and his family homeless and their lives nearly 
spiraled out of control.
    Gary's story ends in success thanks to a community prepared to 
respond. Gary called a local helpline, which connected Gary to the 
Easter Seals in the region that specializes in employment services. 
With Easter Seals' help, Gary quickly found a temporary job and 
received other community supports to help him secure an apartment for 
he and his family. The temporary job turned full-time, which helped him 
get his life back on track. But Gary wanted more than a job. He wanted 
a career. So he studied for and earned his CDL license in the summer of 
2014, nearly a year after his initial military transition. While Gary 
was counted as a Transition GPS success--having earned his career 
readiness standards signoff at his Capstone event--Gary's transition 
was far from smooth due to the payroll glitch. Gary's situation could 
have been avoided if he had the opportunity to earn his CDL training 
and secure his chosen job as a truck driver before he separated the 
military.
    Congress recently recognized the importance of the DOD memo and how 
nonprofits and veteran service organizations have stepped up to deliver 
meaningful, pre-separation supports and services to transitioning 
servicemembers and their families. In its committee report (114-102, 
Part 1) for its Fiscal Year 2016 National Defense Authorization Act 
(NDAA), the U.S. House Armed Services Committee described how ``some 
installations have partnered with local non-profit and community based 
transition support organizations to enhance the Transition Assistance 
Program curriculum with great success, especially for those leaving the 
service and remaining in the local area.'' The report goes on to direct 
the Secretary of Defense to brief Congress ``on the feasibility of 
expanding this model of partnering with local community based support 
organizations department-wide to enhance the Transition Assistance 
Program.''

        Easter Seals Recommendation: Easter Seals urges Congress to 
        encourage and promote continued use of public-private 
        partnerships on military installations to help connect existing 
        servicemembers to credentialed training and meaningful careers. 
        In particular, Easter Seals urges Congress to seek and release 
        the DOD feasibility report, which was required for March 1, 
        2016, and to take other appropriate action to encourage or even 
        incentivize installation commanders to allow and develop 
        similar training-straight-to-job, pre-separation programs.

           ongoing reintegration needs best addressed locally
    In Gary's story, his community became the final catchall to help 
put him on a road to successful reintegration. No matter how well-
meaning transition programs and government systems are designed and 
implemented, the community--and the welcoming, coordinated support it 
provides--continues to be the essential ingredient to transition 
success. The point of greatest transition impact on veterans' 
transition to civilian life occurs at the local level, where there are 
boots-on-the-ground to meet their individual needs and to connect them 
to available local resources and supports. The Center for a New 
American Security concluded, in its Well After Service: Veteran 
Reintegration and American Communities report, that the most effective 
veteran reintegration programs ``are those that base operations at a 
credible, local nonprofit organization that coordinates and deploys 
both public and private resources and stakeholders to address the needs 
and recognize the skills of servicemembers, veterans, and their 
families.''
    That is the role that Easter Seals plays in a number of communities 
to assist veterans. Most recently, Easter Seals described its role in 
assisting female veterans during reintegration in a major policy white 
paper, Call to Action: Support Community Efforts to Improve the 
Transition to Civilian Life for Women Veterans. The paper highlighted 
the unique and growing needs of female veterans and how public and 
private investments in community-based reintegration services can lead 
to successful transitions. Women veterans often do not identify as 
veterans or feel comfortable within government systems. Instead, women 
veterans may access the transition supports they need, initially, 
through a community partner, which then reconnects them to the VA or 
other social service supports.
    The Easter Seals Call to Action paper identified a lack of 
community-based reintegration supports and resources that are focused 
on crisis prevention rather than just crisis intervention. Easter Seals 
recommended expansions of early-intervention models that include five 
core components:

    <bullet> Veteran-centered approach to focus on the unique and 
evolving needs of each veteran;
    <bullet> Care coordination to holistically address reintegration 
through a coordinated team approach;
    <bullet> Community connection to link veterans to VA and other key 
Federal and local supports within their communities;
    <bullet> Emergency financial assistance to meet unexpected, 
temporary financial barriers to successful reintegration; and,
    <bullet> Ongoing preventative and follow along supports to 
recognize that reintegration challenges can surface throughout a 
veteran's lifetime.

    Many publically and privately funded programs focus on resolving 
challenges, such as homelessness and long-term unemployment, rather 
than staving off these challenges before they occur through early 
access to local reintegration services and supports. Easter Seals 
applauds Congress for investing in public-private solutions through 
programs such as the Homeless Veterans' Reintegration Program, 
Supportive Services for Veterans Families, and the Rural Veterans 
Coordination Pilot. In addition, Easter Seals applauds the early-
intervention, public-private partnership goals of H.R. 1843, a pilot 
proposal introduced in the U.S. House of Representatives that would 
provide veterans with disabilities with access to care coordination and 
local supports. These programs and legislative proposals represent 
models of effective public-private partnerships that can help meet the 
needs of veterans and transitioning servicemembers.

        Easter Seals Recommendation: Easter Seals urges Congress to 
        fully fund existing public-private reintegration programs, 
        including the Homeless Veterans Reintegration Program and 
        Supportive Services for Veterans Families Program; to 
        reauthorize and expand the Rural Veterans Coordination Pilot to 
        include other, non-rural underserved veteran communities; and 
        to enact H.R. 1843 and other legislative proposals that 
        recognize the ongoing reintegration needs of veterans and that 
        promote local, preventative access to care coordination 
        supports and direct services that help promote reintegration 
        success.

                               conclusion
    Easter Seals applauds the Committee for its leadership in holding 
this hearing and in its past efforts to increase the transition 
assistance and supports available to America's servicemembers and 
veterans. The improved Transition GPS and the growing number of pre-
separation, training-straight-to-jobs programs are examples that 
separating servicemembers are better equipped for their initial 
transition. However, more can and must be done to help expand 
community-based services and coordination of local supports, 
particularly in situations where challenges surface weeks or years 
after the initial transition. Easter Seals looks forward to working 
with this Committee to help expand crisis intervention reintegration 
supports. Thank you for the opportunity to share Easter Seals' view on 
transition assistance and our ideas for promoting reintegration success 
of all veterans.

                                 ______
                                 
                                 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 ______
                                 
    Prepared Statement of Aleks Morosky, Deputy Director, National 
   Legislative Service, Veterans of Foreign Wars of the United States
    Chairman Isakson, Ranking Member Blumenthal, and Members of the 
Committee, on behalf of the 1.7 million members of the Veterans of 
Foreign Wars of the United States (VFW) and our Auxiliary, thank you 
for the opportunity to present our organization's view on the military 
Transition Assistance Program (TAP).
    The VFW currently has 20 professional staff members who serve 20 
military installations, helping servicemembers access their earned 
Department of Veterans Affairs (VA) benefits in a timely manner through 
the Benefits Delivery at Discharge (BDD) program. Though the primary 
purpose of the BDD program is to provide transitioning servicemembers 
with free assistance in filing claims for VA benefits, the VFW works 
very closely with military transition managers, agency officials, and 
contract facilitators to ensure that each servicemember is properly 
informed of all their options and benefits prior to leaving military 
service.
    Over the past two years, the VFW Washington Office has worked 
closely with the agencies of jurisdiction--specifically the Department 
of Labor (DOL) and Department of Veterans Affairs--to ensure that the 
curriculum provided to transitioning servicemembers remains relevant. 
Since the newly-designed Transition Assistance Program was deployed, 
the VFW believes we have seen a significant improvement in the way we 
prepare separating servicemembers for post-military life. However, 
nothing is perfect, and the VFW believes there is still significant 
room to improve this experience.
    To ensure we provide the best service we can to transitioning 
servicemembers, the VFW commissioned a voluntary online survey for our 
BDD clients. Through this survey, the VFW not only evaluates the 
performance and reputation of our BDD representatives on military 
installations, we also are able to evaluate servicemember perceptions 
on TAP.
    Since our survey launched in 2014, more than 1,400 transitioning 
servicemembers have participated, offering substantial feedback on 
their transition experience. Earlier this year, DOL reached out to the 
VFW for our feedback on the Transition Assistance Program redesign. The 
VFW was able to lean on our data to provide DOL with informed 
qualitative feedback on their program.
    The VFW's survey indicates that servicemembers who seek out our 
services are generally satisfied with the new curriculum and that they 
feel confident going into their transition. However, more than half of 
the VFW's clients reported that they did not have an opportunity to 
participate in any of the voluntary transition tracks. This is a 
worrisome trend for the VFW, as we believe that most transitioning 
servicemembers would benefit from exposure to these in-depth courses--
particularly the Accessing Higher Education track, which includes 
practical exercises designed to encourage veterans to make responsible 
choices on how to use their earned education benefits.
    When asked what they would like to share about their transition 
experiences, many clients said that the training was too short and did 
not focus enough on practical exercises. In discussing the current TAP 
curriculum review with DOL, the VFW is encouraged to hear that the 
curriculum set to launch in January 2016 will focus less on conveying 
information and lean heavier on practical work.
    Though the VFW's survey gives a good snapshot of how veterans feel 
going into their transition, we recognize two critical liabilities to 
our data set. First, our clients fill out this survey before they take 
off the uniform. This means that they have no reasonable way to 
anticipate the challenges they may face in civilian life. To correct 
this, the VFW is looking at ways to encourage our clients to take the 
survey once they have received a VA rating decision, which usually 
occurs several months after separating from service.
    Second, the VFW's average client is older and has served longer 
than the average transitioning servicemember. Based on our internal 
reporting, the majority of VFW BDD clients are more than 35 years old 
with more than 12 years of service. What worries the VFW is that this 
means that many younger transitioning servicemembers, who are more 
likely to need the kinds of transitional services offered by the VFW, 
do not seek out our services, and more likely than not, do not seek out 
other available transitional assistance.
    In the past year, the VFW has made a concerted effort to target 
younger transitioning servicemembers by creating new collateral 
materials and publishing targeted op-eds and articles to encourage 
utilization of our services. But the VFW believes that information and 
awareness are not a silver bullet to solving this dilemma. Instead, the 
VFW believes that our data could serve to reinforce anecdotes that 
younger servicemembers still are not afforded proper time and support 
from small unit leaders to complete their transition tasks.
    Last year, the VFW testified about this issue before the House 
Veterans' Affairs Subcommittee on Economic Opportunity, noting that it 
is neither senior commanders nor senior non-commissioned officers 
(NCOs) who seem to be discouraging young servicemembers from seeking 
transitional services, but instead small unit leaders, junior officers 
and junior NCOs who likely have no concept of the transition at hand, 
and may even view with derision those seeking to leave the military 
after a short stint.
    The VFW has also acknowledged in the past that combatting this 
mentality would be nearly impossible, which is why we have consistently 
supported the Military Lifecycle model to deliver transitional 
services. What this means to the VFW is that the capstone program that 
we now refer to as TAP would no longer be viewed as the only critical 
intervention point at which servicemembers start to plan for their 
post-military lives. Instead, servicemembers will be exposed to 
civilian skills-attainment opportunities earlier in their military 
careers, and begin planning for post-military life according to a 
practical career development plan that focuses on both military and 
civilian objectives.
    To the VFW, the Military Lifecycle model is an encouraging 
proposition, but one that will also require a shift in military 
thinking. Thankfully, it has already started to take root on certain 
installations where servicemembers are afforded educational and 
professional certification opportunities long before separation. In the 
long run, these kinds of opportunities will make it easier for the 
military to partner with private entities to foster successful 
transitions. It will also make it easier for servicemembers to develop 
professional networks long before they complete their military service.
    Next, while the VFW could opine on best practices for recruiting 
and hiring veterans in the civilian workforce, the VFW believes that 
these resources are already in place through programs like the Jobs for 
Veterans State Grant (JVSG) program and the Employer Support for the 
Guard and Reserve program, among others. At this point, if employers 
still struggle to find veteran employees or still fail to understand 
the value of veteran employees, then they really are not interested in 
hiring veterans.
    If we examine how companies actually recruit and hire the talent 
they seek, we just need to replace ``veteran'' in the discussion with 
``Ivy League graduate.'' If a company wants to hire an Ivy League 
graduate, they meet the candidates where they are. They get to know the 
schools; they get to know the professors; they even go so far as to 
evaluate the curriculum of their potential talent pool. They become 
visible on campus and in the community. They actively solicit for the 
caliber of candidate that they need. The military and veterans' 
communities offer similar opportunities. Employers can speak with local 
veterans' groups; they can reach out to the National Guard; they can 
get to know the transition managers on base. In communities where this 
happens regularly, we have seen tremendous results. For example, on 
Joint Base Lewis-McChord, Microsoft and Starbucks have worked to become 
ingrained in the transition process, building a quality talent pool of 
veterans who are employment ready in careers ranging from entry level 
to executive. We do not need to reinvent the wheel when it comes to 
veterans' employment. We just need to take advantage of the 
opportunities that are already available.
    Fortunately, the VFW believes the transition experience is 
improving for servicemembers. Veterans' unemployment is below the 
national average and at its lowest point since 2008; more companies are 
legitimately hiring and retaining veteran employees; and most 
importantly, the agencies responsible for transition training are 
heeding the advice of the veterans' community. The VFW is encouraged by 
the plans to annually review and update the TAP curriculum with 
stakeholder input. We are encouraged that the Department of Defense, 
VA, and DOL have worked to make the curriculum publicly available after 
military service. We are also encouraged that the military is offering 
servicemembers an opportunity to prepare for their transition early on.
    Upon separation, veterans have several possible paths to achieving 
a successful transition. While the path of higher education and 
training is supported by programs like the GI Bill and the Vocational 
Rehabilitation & Employment program, and the path to immediate 
employment following service is supported by DOL programs like JVSG, 
considerably fewer resources exist for veterans seeking to start their 
own businesses. The VFW strongly believes that veteran entrepreneurs 
should be supported during the startup phase, and has suggestions how 
to achieve this.
    One possible solution could be to reauthorize an improved version 
of the Patriot Express Loan program, which would include proper 
oversight and training to review veteran business plans prior to 
participation. By providing such oversight, we ensure that the Small 
Business Administration can mitigate the default problems experienced 
during the Patriot Express Loan pilot program, as identified by the 
September 2013 report by the Government Accountability Office. Another 
solution could be to support veteran-centric business incubators that 
provide veteran entrepreneurs with education and mentorship, as well as 
helping them to obtain startup capital. These models already exist in 
several locations across the United States and have been proven 
valuable in creating peer-to-peer environments that allow veteran 
entrepreneurs to mutually support each other to achieve their business 
goals, similar to the way on-campus veteran resource centers allow them 
to support each other to achieve their educational goals.
    The VFW is greatly concerned, however, by an idea that has been 
circulated through the veterans' community by a small but vocal 
minority of its members to allow veterans to ``cash out'' their GI Bill 
benefits for one or more lump sum payments that would be used to start 
businesses. In agreeing to receive these payments, veterans would be 
required to forfeit their entitlement to education assistance under the 
Post-9/11 GI Bill an unrelated benefit that they have already earned. 
While this may sound appealing to some, we believe that the idea is 
deeply flawed and would inevitably hurt a significant number of 
veterans, while simultaneously setting a dangerous precedent for the GI 
Bill.
    Supporters of the concept rightly point out that the Servicemen's 
Readjustment Act of 1944, commonly referred to as the GI Bill of 
Rights, included a small business loan program. This is used as a 
premise to assert that the Post-9/11 Educational Assistance Act of 
2008, commonly referred to as the Post-9/11 GI Bill, should be amended 
to provide startup capital for veteran entrepreneurs as an alternative 
to education and training. The VFW does not believe this is an 
appropriate comparison. The GI Bill of Rights was a suite of benefits 
which included low-interest home loans, business loans, and educational 
assistance, among other things. Veterans were entitled to all these 
benefits, and did not lose eligibility for one by accessing another. 
For this reason, veterans were able to gain valuable skills and 
knowledge through educational assistance benefits, potentially 
increasing their chances of success in business. Likewise, any future 
grant or loan program designed to support veteran entrepreneurs should 
not require them to forfeit their earned education benefits.
    Additionally, this concept seems to ignore the unfortunate but 
undeniable fact that some businesses do not succeed. As an overarching 
philosophy, the VFW cannot support any new program that helps some 
veterans and harms others. New programs must at the very least be 
neutral to veterans who are not helped by them. Veterans whose 
businesses succeed will arguably be helped by this idea, even though 
they will forfeit their GI Bill eligibility. Veterans whose businesses 
fail will be indisputably harmed when they are left with no business, 
no GI Bill, and most likely a large amount of debt from any additional 
loans they may have incurred from operational costs. In that situation, 
veterans must have an education benefit to fall back on. If they do 
not, we have truly failed them. While the VFW would support 
establishing a grant program for veteran entrepreneurs, we stand firmly 
opposed to requiring them to forfeit their educational assistance 
benefits as a condition of program participation.
    The VFW will continue to monitor the implementation of TAP, working 
with the agencies of jurisdiction to constantly improve the product. 
The VFW will also continue to monitor policy issues related to 
veterans' economic opportunity, and seek ways to refine veterans' 
policies to improve outcomes in the workforce. We look forward to 
working with this Committee on ways to continually enhance transitional 
services for today's veterans, and we would be happy to take any 
questions you may have for the record.

      

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
